<html>
<title> - THE DHS INFRASTRUCTURE PROTECTION DIVISION; PUBLIC-PRIVATE PARTNERSHIPS TO SECURE CRITICAL INFRASTRUCTURES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                   THE DHS INFRASTRUCTURE PROTECTION
                DIVISION; PUBLIC-PRIVATE PARTNERSHIPS TO
                    SECURE CRITICAL INFRASTRUCTURES

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INFRASTRUCTURE
                        AND BORDER SECURITY, AND
                     SUBCOMMITTEE ON CYBERSECURITY,
                  SCIENCE AND RESEARCH AND DEVELOPMENT

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 21, 2004

                               __________

                           Serial No. 108-45

                               __________

    Printed for the use of the Select Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
23-278                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, MississPpi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., North Carolina
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas                 Ben Chandler, Kentucky
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

            ThomasDilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

           Subcommittee on Infrastructure and Border Security

                     Dave Camp, Michigan, Chairman

Kay Granger, Texas, Vice Chairwoman  Loretta Sanchez, California
Jennifer Dunn, Washington            Edward J. Markey, Massachusetts
Don Young, Alaska                    Norman D. Dicks, Washington
Duncan Hunter, California            Barney Frank, Massachusetts
Lamar Smith, Texas                   Benjamin L. Cardin, Maryland
Lincoln Diaz-Balart, Florida         Louise McIntosh Slaughter, New 
Robert W. Goodlatte, Virginia        York
Ernest Istook, Oklahoma              Peter A. DeFazio, Oregon
John Shadegg, Arizona                Sheila Jackson-Lee, Texas
Mark Souder, Indiana                 Bill Pascrell, Jr., New Jersey
John Sweeney, New York               Kendrick B. Meek, Florida
Christopher Cox, California, ex      Jim Turner, Texas, ex officio
officio

                                  (II)
?

   Subcommittee on Cybersecurity, Science, and Research & Development

                    Mac Thornberry, Texas, Chairman

Pete Sessions, Texas, Vice Chairman  Zoe Lofgren, California
Sherwood Boehlert, New York          Loretta Sanchez, California
Lamar Smith, Texas                   Robert E. Andrews, New Jersey
Curt Weldon, Pennsylvania            Sheila Jackson-Lee, Texas
Dave Camp, Michigan                  Donna M. Christensen, U.S. Virgin 
Robert W. Goodlatte, Virginia        Islands
Peter King, New York                 Bob Etheridge, North Carolina
John Linder, Georgia                 Ken Lucas, Kentucky
Mark Souder, Indiana                 James R. Langevin, Rhode Island
Jim Gibbons, Nevada                  Kendrick B. Meek, Florida
Kay Granger, Texas                   Ben Chandler, Kentucky
Christopher Cox, California, ex      Jim Turner, Texas, ex officio
officio

                                 (III)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security
  Oral Statement.................................................    28
  Prepared Statement.............................................     1
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, Ranking Member, Select Committee on Homeland 
  Security.......................................................    32
The Honorable Mac Thornberry, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on 
  Cybersecurity, Science, and Research and Development...........     1
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California, and Ranking Member, Subcommittee on 
  Cybersecurity, Science, and Research and Development...........    23
The Honorable Dave Camp, a Representative in Congress From the 
  State of Michigan, a Chairman, Subcommittee on Infrastructure 
  and Border Security............................................    21
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Infrastructure and Border Security.............................    25
The Honorable Benjamin L. Cardin, a Representative in Congress 
  From the State of Maryland.....................................    40
The Honorable Ben Chandler, a Representative in Congress From the 
  State of Kentucky..............................................    39
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    37
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    42
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    35
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas
  Oral Statement.................................................    45
  Prepared Statement.............................................     2

                               WITNESSES

PANEL I
Mr. Robert Liscouski, Assistant Secretary for Infrastructure 
  Protection, Department of Homeland Security
  Oral Statement.................................................     3
  Prepared Statement.............................................     6
Mr. George C. Newstrom, Secretary of Technology, Commonwealth of 
  Virginia
  Oral Statement.................................................    13
  Prepared Statement.............................................    16

PANEL II
Mr. Robert Dacey, Director Information Security Issues, General 
  Accounting Office
  Oral Statement.................................................    48
  Prepared Statement.............................................    50
Ms. Diane VanDe Hei, Vice Chair, Information Sharing and Analysis 
  Center Council
  Oral Statement.................................................    80
  Prepared Statement.............................................    82
The Honorable Dave McCurdy, Executive Director, Internet Security 
  Alliance
  Oral Statement.................................................    72
  Prepared Statement.............................................    74

 
THE DHS INFRASTRUCTURE PROTECTION DIVISION; PUBLIC-PRIVATE PARTNERSHIPS 
                   TO SECURE CRITICAL INFRASTRUCTURES

                              ----------                              


                       Wednesday, April 21, 2004

                          House of Representatives,
                    Subcommittees on Infrastructure
                               and Border Security,
                                        and        
Subcommittee on Cybersecurity, Science and Research 
                                   and Development,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:34 a.m., in 
Room 2212, Rayburn House Office Building, Hon. Mac THornberry 
chairman of the Cybersecurity subcommittee] presiding.
    Present: Representatives Thornberry, Camp, Cox, Lofgren, 
Sanchez, Dicks, Cardin, Jackson-Lee, Christensen, Etheridge, 
Lucas, Chandler and Turner.
    Mr. Thornberry. [Presiding.] This hearing will come to 
order. I appreciate the witnesses and the members who are here. 
There are obviously several substantial hearings going on at 
the same time. I know our witnesses will understand as people 
come and go. As you know, this is a joint hearing between the 
Subcommittee on Cybersecurity, Science and Research and 
Development, and the Subcommittee on Infrastructure and Border 
Security. Chairman Camp and I will be sharing the gavel.
    Since we have two panels and two subcommittees today, I ask 
unanimous consent that all members submit opening statements 
for the record so that we can move ahead. Without objection, it 
is so ordered. I would also request our witnesses to work with 
us on that. I think we are going to have votes come at about 
12:30 or 1:00. If you could work with us on summarizing your 
statements, then I would appreciate it. Without objection your 
full written statements will be made a part of the record.

 Prepared Statement of the Honorable Christopher Cox, a Representative 
    in Congress, From the State of California, and Chairman, Select 
                     Committee on Homeland Security

    Thank you Chairman Camp and Chairman Thornberry for holding this 
important hearing. I join you in welcoming our witnesses today, who 
will help us explore the Department's relationship with various 
critical infrastructure sectors.
    I want to take this opportunity to commend Secretary Ridge, Under 
Secretary Libutti, Assistant Secretary Liscouski, and the men and women 
of the Information Analysis and Infrastructure Protection (IAIP) 
Directorate for their dedication and accomplishments in this critical 
area. They have had to build this Directorate from scratch, while 
facing both enormous expectations in a time of heightened alert and 
unrelenting scrutiny. IAIP gets a lot of attention because it is truly 
the nerve center of the great, new Department. IAIP is at the heart of 
the Department's core mission to prevent terrorism and protect the 
infrastructure that is vital to the security and economic well-being of 
our Nation.
    The Homeland Security Act of 2002 requires IAIP to integrate 
information from various public and private sources to form a 
comprehensive picture of the terrorist threats we face, and to map this 
assessment against the vulnerabilities of our critical infrastructure 
to produce a prioritized and risk-based plan for securing our homeland. 
This is not a one-time task, but a continuous responsibility, in a 
dynamic and constantly changing environment. We have no choice but to 
continue to press IAIP to build the analytic capabilities necessary to 
carry out its mandate under the Homeland Security Act. Risk-based 
assessments produced by IAIP must guide both the Department's overall 
homeland security strategy and the allocation of resources to priority 
areas.
    The President has exerted strong leadership in the effort to secure 
our critical infrastructure. He has issued a national strategy, as well 
as a Homeland Security Presidential Directive (HSPD-7). To secure our 
critical infrastructure both documents envision a strong, sustained 
public-private partnership. Eighty-five percent of our critical 
infrastructure is owned by the private sector, and it is appropriate 
that the private sector take a lead role in protecting these assets, 
with assistance--including the provision of actionable threat-based 
information--and oversight by the Federal government.
    The President's fiscal year 2005 budget request includes $51.6 
million for IAIP's ``outreach and partnership'' program, a 27-percent 
increase over the previous year. This increase is a strong indication 
of his commitment to enhancing the public-private partnership to 
protect critical infrastructure. Among other things, this program is 
intended to develop and coordinate strategic relationships between 
public and private entities for national planning, outreach and 
awareness, information sharing, and protective actions.
    One key manifestation of the public-private partnership envisioned 
by the Homeland Security Act is the continued operation of--and in some 
cases, the creation of new--Information Sharing and Analysis Centers 
(ISAC) for critical infrastructure sectors. Part of this hearing will 
focus on obtaining information from the General Accounting Office on 
its soon-to-be-completed review of the ISAC model, and exploring how 
this model can be enhanced.
    As we continue to work with DHS to enhance the public-private 
partnership, we must resist efforts to make DHS the regulator of more 
and more sectors of our economy. The Homeland Security Act clearly bars 
any such role for DHS, and we should alter that formula only with great 
caution. I see no reason to do so now or for the foreseeable future.
    Mr. Chairmen, we share the bold vision of a safer America laid out 
in the Homeland Security Act, the national strategies, and HSPD-7. We 
are prepared to provide rigorous constructive oversight of critical 
infrastructure protection activities and to act as full partners with 
the Department, other government entities, and the private sector in 
helping realize that vision.
    Thank you, Mr. Chairmen, and I yield back the balance of my time.

   Prepared Opening Statement of the Honorable Sheila Jackson-Lee, a 
           Representative in Congress From the State of Texas

    Mr. Chairman, Thank you for convening this hearing on a subject 
that is extraordinarily important to the safety of the American public. 
I would like to welcome Assistant Secretary Liscouski back, as well as 
this distinguished panel. It seems that indeed the Department of 
Homeland Security is making progress in this area--putting people and 
facilities in place to protect our nation's critical infrastructure.
    However, a chain is only as strong as its weakest link. For 
example, say I have a dozen chemical plants in my District in Houston. 
If we spend billions of dollars and five years and make 11 of them 
absolutely invulnerable, but we leave just one looking like the ones we 
all saw on 60 minutes last fall, with unlocked gates, absent guards, 
and unprotected tanks of deadly gas--what have we accomplished? A 
would-be terrorist wanting to attack Houston would just have to spend 
an extra day plotting his attack--going through the phone book and 
driving by each chemical plant listed. It is essential that that we 
plug ALL of the holes. We need to know where our vulnerabilities are, 
and develop a comprehensive system to address those vulnerabilities.
    That is why many of us have been standing behind the Ranking Member 
of this Committee, urging the DHS to complete a thorough risk 
assessment of our nation's critical infrastructure. That is why we need 
to have clear performance metrics for critical infrastructure 
protection. That is why we need seamless communication between federal 
and state governments and the private sector. To get those things done, 
we will need a fully staffed and functioning Office of Infrastructure 
Protection. Until then, we are all at risk.
    Today we should hear the progress being made within DHS and in 
their work in the field. Do they have the funds, the expertise, and the 
authority they need to get the job done? Is those in the private sector 
willing partners? It will also be important to hear whether 
stakeholders outside the DHS are getting the guidance they need.
    I look forward to the discussion, and to working together we these 
two subcommittees to ensure that we keep pushing the process forward.

    So with that, let me turn directly to our witnesses. On our 
first panel, we have two distinguished witnesses. The first is 
Mr. Robert Liscouski, the Assistant Secretary for 
Infrastructure Protection from the Department of Homeland 
Security. He has been with us a number of times before. 
Secretary Liscouski, thank you for being here. You are 
recognized for a summary of your opening statement.

    STATEMENT OF THE HONORABLE ROBERT LISCOUSKI, ASSISTANT 
 SECRETARY, INFRASTRUCTURE PROTECTION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Liscouski. Mr. Chairman, thank you for the opportunity 
this morning. It is always a pleasure to appear before your 
committees. I thank you again for your recognition of the 
importance of this topic. I do have an oral statement, but I 
will try to go through this as quickly as I can in recognition 
of our time constraints.
    Since the inception of DHS, we have been working very 
strongly to develop partnerships with the private sector. We 
have made significant progress in evaluating and securing our 
greatest vulnerabilities. In order for this public and private 
partnership effort to succeed, we recognize that we have to 
increase our efforts at information sharing. To this end, we 
are making very good progress. Some would call it exceptional 
progress in expanding our information-sharing capabilities with 
respect to all types of information that must be shared, 
including vulnerability information, exploits, threats, 
incidents and best practices, as well as early warnings.
    Our critical infrastructure sectors are very diverse, as 
you well know. Consequently, the level of collaboration and 
coordination with the Federal Government and each other within 
the context of the private sector varies widely between the 
sectors. We recognize these differences, and IAIP has developed 
a very facilitative process to work in partnership with the 
Federal sector-specific agencies as defined in HSPD-7, and to 
help sectors organize themselves as inclusively as possible to 
identify or construct the sector leadership entity for critical 
infrastructure protection.
    At the operational level, IAIP works daily on a periodic 
and situational basis with ISACs, sharing information on 
threats and developing suggested protective measures and alerts 
and warnings. As you know, there are currently 14 ISACs 
spanning most of the HSPD-7 critical infrastructures. The ISACs 
serve as our gateway between DHS and the industry for tooling 
information sharing and provide the industry with information 
as an information clearinghouse for each sector.
    Through up-to-date distribution lists maintained by the 
ISACs, DHS is able to quickly disseminate threat warnings to 
identify entities within each sector. To a lesser degree, 
however, ISACs and their members provide DHS with incident and 
suspicious activity. This has become very much more of a robust 
information-sharing capability. This information holds for us 
the potential for completing the situational awareness picture, 
together with the intelligence community and law enforcement, 
which is vital for us to understand the threats that we are 
facing.
    My organization is responsible for maintaining and 
enhancing those relationships with the private sector through 
the ISACs and through other efforts. Our staff actively 
participates in ISAC-related advisory groups, committees, task 
forces and working groups to maintain day-to-day contact with 
those ISACs.
    In protecting our country, we need to address the 
protection from a holistic perspective, not one which is 
artificially divided between a physical and a cyber-world. On 
January 28 of this year, the Department of Homeland Security, 
through the US-CERT, unveiled our national cyber security alert 
system, which is an operational system to develop and deliver 
targeted, timely and actionable information to Americans to 
secure their computer systems. We strive to make sure that the 
information provided is both understandable to all computer 
users, technical and non-technical alike, and reflects the 
broad usage of the Internet in today's society.
    Our national strategy for cyber-security acknowledged one 
of the most important constituencies is the private sector. It 
is estimated that 85 percent of our critical infrastructure is, 
of course, owned and operated by the private sector, and the 
technology developed by the technology industry continues to 
fuel the growth and the evolution of the Internet, as well as 
obviously being ridiculously embedded in our business 
processes. In December 2003, the National Cyber Security 
Division co-hosted our first national cyber security summit, 
which allowed the Department to work side by side with leaders 
from industry to address key cyber-security issues facing the 
nation.
    Other partnership efforts with the private sector include 
our National Cyber Security Alliance and Stay Safe Online, 
which is a public-private organization created to educate home 
users and small businesses on cyber security best practices.
    Let me just take a moment to talk about the ISACs. The 
ISACs have emerged over the last several years as the primary 
conduit for critical information sharing between the Federal 
government and our infrastructures and key resources throughout 
the industries. The ISACs continue to evolve, although they 
began with a focus on cyber back in the PDD-63 days. They now 
include physical vulnerabilities as well. This emphasis has 
really been gaining momentum since September 11. This just 
demonstrates the recognition that the ISACs have matured, as 
well as our strategy to include our physical and cyber 
strategies are interlinked.
    The blackout of August 14 last year is a good example of 
the cooperation and effective communication between IAIP and 
the industry, and specifically the electric power industry 
through the electric industries electric sector ISAC. At the 
time of the power outage, the electric sector ISAC had been 
well established and the lines of communication between the 
ISAC and IAIP were in place. Shortly after the blackout, the 
IAIP electric sector specialists were on the phone with the ES 
ISAC to establish a preliminary estimate of the extent of the 
outage to determine how far it had spread and to what 
extent.Following the discussions with the ISAC, we were able to 
make an assessment that the outage did not appear to have been 
caused by terrorist activity, and this information was quickly 
passed on to the Secretary and to the White House.
    Every couple of hours throughout the night and somewhat 
less frequently over the next few days, the ES ISAC conducted 
conference calls with the industry representatives to assess 
restoration efforts, the results of which were daily summarized 
in situation reports that were provided to senior officials 
within DHS and the White House.
    Since the creation of DHS, we have been leveraging newly 
integrated capabilities in the Department to reach out to the 
private sector. For example, in coordination with the U.S. 
Secret Service, shortly after the creation of DHS a financial 
services ISAC exercise was held in New York. The event was well 
received by the financial sector participants. We built on that 
effort and we are working with state homeland security advisers 
to continually put out more tabletop exercises. DHS has 
recently conducted exercises in Chicago, San Francisco and 
Houston, and we are currently conducting one in St. Petersburg, 
Florida with the FS ISAC.
    The Administration and Congress have provided additional 
tools to enhance our information-sharing capabilities with the 
ISAC. I will just go through that very quickly. As the primary 
operational interface with the nation's critical 
infrastructures, my Infrastructure Coordination Division, or 
ICD, continues to pass timely and substantive threat 
information to the private sector. We regularly hold daily, 
sometimes weekly teleconferences. Sector analysts provide 
critical infrastructures and ISACs with threat updates on 
terrorist activities potentially affecting their systems and 
facilities.
    In addition, the ICD sector analysts routinely assist our 
intelligence analysts from IA in preparing the warnings that 
identify and communicate infrastructure-specific threats and 
trends. The Critical Infrastructure Information Act was 
recently enacted at the request of the private sector, and 
provided implementing regulations to private industry with 
assurances that critical infrastructure information they 
voluntarily share with the government will be protected from 
release to the public from use in civil litigation.
    The PCII program enables the Department to receive critical 
information that would not have been previously available to 
the government, thereby allowing a better understanding of 
threats and vulnerabilities and the security of our nation's 
critical infrastructure.
    We recognize the need for better coordination for 
information flow in the private sector and we have established 
consequently the National Infrastructure Coordination Center 
under the Infrastructure Coordination Division. Now in its 
third month of official operation, the NICC provides 
operational awareness of the nation's critical infrastructures 
and key resources in collaboration with both private partners 
and our counterpart government agencies.
    Another key component of our strategy is connectivity. With 
the announcement of the Homeland Security Information Network, 
HSIN, DHS provides a new capability for enhancing many of the 
critical infrastructures ISACs' capabilities to communicate 
with their sectors. The system provides a secure encrypted 
backbone capability for participants to communicate sensitive, 
but unclassified information with DHS, with each other, and 
other communities of interest which may have information useful 
to them. It provides a collaborative feature that allows 
government and industry participants to work together in real 
time on problem solving. It has an alerting and notification 
feature to disseminate information to members of a sector or 
across sectors.
    The system provides a capability for sectors to interact 
with each other as necessity dictates. The features within that 
system provides for basic and common communication service 
among ISACs. I would be happy to discuss that further.
    Let me just conclude by saying that in today's threat 
environment where threats and vulnerabilities are continuously 
evolving in both physical and cyber space, we need critical 
infrastructure sectors' coordination and cooperation and 
expertise and creativity to find the most effective, 
sustainable, consistent and measurable ways to protect their 
sectors. The partnerships we have developed and will continue 
to develop will improve upon the relationships we have, but 
they are absolutely key to the success of our goal to protect 
our nation and its critical infrastructure.
    Mr. Chairman, thank you.
    [The statement of Mr. Liscouski follows:]

          Prepared Statement of the Honorable Robert Liscouski

    Good morning, Chairman Thornberry, Chairman Camp, and distinguished 
members of the subcommittees. I am pleased to appear before you again 
today to discuss Information Sharing between the Department of Homeland 
Security and Critical Infrastructure Sectors.
    The recent bombings in Madrid confirm that terrorists are willing 
to exploit a wide range of infrastructure vulnerabilities. That is why 
we must continue to be vigilant and flexible in our approach to 
infrastructure protection. We in the Information Analysis and 
Infrastructure Protection Directorate (IAIP) take that mandate to heart 
in our collective efforts and activities to protect the Nation.
    Since the inception of DHS in 2003, working in a continuing 
partnership with private industry, we have made significant progress in 
evaluating and securing our greatest vulnerabilities. In order for this 
public-private partnership effort to succeed, increased information 
sharing is essential. To this end, we are making exceptional progress 
in expanding our information sharing capabilities with respect to all 
of the types of information that must be shared including vulnerability 
information, exploits, threats, incidents, best practices, and early 
warnings.
    Today I will discuss with you an overview of the current level of 
relationships and information sharing we have with private industry, 
illustrating accomplishments with specific examples. Then I will 
describe recent initiatives we have implemented to enhance those 
relationships. Finally, I will discuss some new initiatives we are 
planning for later this year.

DHS and Private Sector Relationships
    Any effective relationship with private industry requires 
engagement at all levels. IAIP works hard to maintain a comprehensive 
relationship with private industry, specifically focusing on the 
critical infrastructure sectors and the owners and operators of key 
assets. This relationship operates on three levels: (1) policy and 
strategy; (2) planning and implementation; and (3) operational 
execution.

    Policy and Strategy
    IAIP serves as the executive agent for two Presidential advisory 
committees: The National Infrastructure Advisory Council (NIAC) and the 
National Security Telecommunications Advisory Committee (NSTAC). Both 
bodies provide policy and strategic advice to the President on 
enhancing public-private partnerships and on specific strategic issues 
related to critical infrastructure protection.
    The NSTAC is chartered to provide industry-based advice and 
expertise through the Secretary of Homeland Security to the President 
on issues and problems related to implementing national security and 
emergency preparedness (NS/EP) telecommunications policy. It is 
composed of up to 30 industry chief executives representing the major 
communications and network service providers and information 
technology, finance, and aerospace companies. Since its inception, the 
NSTAC has addressed a wide range of policy and technical issues 
regarding telecommunications, information systems, information 
assurance, critical infrastructure protection, and other NS/EP 
communications concerns.
    The NIAC, through the Secretary of Homeland Security, provides the 
President with expert advice on the security of information systems for 
critical infrastructure supporting other sectors of the economy: 
banking and finance, transportation, energy, manufacturing, and 
emergency government services. Because information and physical 
security are inextricably linked within many critical infrastructure 
sectors, the Council has addressed issues that cover both. The NIAC is 
charged to enhance the partnership of the public and private sectors, 
propose and develop ways to encourage private industry to perform 
periodic risk assessments, foster improved cooperation among the 
Information Sharing and Analysis Centers (ISACs), DHS, and other 
Federal Government entities; and advise sector specific agencies with 
critical infrastructure responsibilities, sector coordinators, DHS, and 
the ISACs. The Council includes chief executives from industry, 
academia and State and local government.
    Both the NSTAC and the NIAC work closely with the Administration 
and IAIP to identify key policy issues of importance to critical 
infrastructure protection.

    Planning and Implementation
    At the planning and implementation level, IAIP works with cross-
sector bodies, such as the Partnership for Critical Infrastructure 
Security (PCIS). The PCIS Board consists of all the sector leadership 
entities that comprise the ``sector coordination mechanism[s]'' 
referred to in Homeland Security Presidential Directive 7 (HSPD-7). 
These leadership entities have been previously affirmed by the sector 
specific agencies. Private industry established the PCIS as a forum to 
partner across sectors and with the Federal Government to address 
critical infrastructure.
    IAIP also works with the ISAC Council, whose members represent many 
of the ISACs established in infrastructure sectors. Private industry, 
on its own volition, organized this forum to share common issues and 
best practices, and to find common solutions. ISACs are established 
voluntarily by industry sectors to share information and analysis for 
alerts, warnings and advisories, and act as a communication vehicle for 
best practices and other security information tailored for each sector.
    As a point of entry into the sector, sector leadership entities 
have the mission of facilitating sector strategy and policy as well as 
coordinating a wide range of critical infrastructure planning 
activities, that include national planning involving critical 
infrastructures, outreach and awareness, sector vulnerability 
assessments, requirements for sector information sharing, identifying 
sector-wide best practices, acting as the sector's point of contact 
with the Federal Government at infrastructure protection meetings, and 
serving as the strategic communication point back into the sector and 
to its members from the Federal Government.
    The critical infrastructure sectors are very diverse in their 
composition, culture, and operations. Consequently, their level of 
collaboration and coordination with the Federal Government, and with 
each other, varies widely between sectors. Recognizing these 
differences, IAIP has developed a facilitative process to work in 
partnership with the Federal sector-specific agencies (as defined in 
HSPD-7) to help the sectors organize themselves as inclusively as 
possible to identify or construct the ``sector leadership entity'' for 
critical infrastructure protection. This leadership entity could be an 
individual, entity or group. Examples of how IAIP actively engages in 
this sector development activity can be found today in the Agriculture 
and Food sectors (in partnership with HHS and USDA), the Public Health 
sector (in cooperation with HHS), the Postal and Shipping sector, the 
Water sector (in cooperation with EPA), and the Emergency Services 
sector.
    IAIP leadership met frequently with both the PCIS and the ISAC 
Council throughout the last year, and continues to meet with them, to 
understand and gain deeper knowledge of sector issues from the private 
sector representatives on various aspects of infrastructure protection. 
Out of one of the briefings provided by IAIP to the ISAC Council, the 
Council, on its own initiative, developed a series of white papers on 
information sharing for its own use in strategic planning, and shared 
them with IAIP.
    With the support of IAIP, the PCIS Board and the ISAC Council began 
holding joint meetings in December, 2003. They have worked jointly and 
independently on various initiatives. In joint sessions, DHS has 
provided comprehensive briefings on its initiatives and critical 
issues, which have led the joint PCIS/ISAC Council to begin identifying 
specific activities, tools/methodologies development, and programs 
undertaken by each specific sector and then shared across sectors as 
best practices to improve each sector's security. This study has helped 
each sector identify gaps as they compare their activities. This joint 
body represents a major forum for joint communication with the critical 
infrastructure sectors.
    IAIP has embarked upon national level planning efforts that will 
involve the private sector in the development and/or implementation of 
the plan. Under HSPD-7, IAIP has embarked upon the development of the 
National Infrastructure Protection Plan (NIPP). This National Plan will 
cover the 13 critical infrastructure sectors and four categories of Key 
Resources. Sector-Specific Agencies both internal to and external to 
DHS will have the lead for drafting these 17 sector-specific plans, 
which will be integrated into the National Plan. The public-private 
partnership in this Plan will be realized through engaging the private 
sector in the planning process as represented by their ISACs, sector 
coordinators, and other recognized sector stakeholders so that their 
knowledge and information will be reflected in the substance of the 
Plan itself.
    In a second national planning effort under HSPD-5, DHS's Office of 
Headquarters Integration Staff, along with the Department's 
directorates, is developing the National Response Plan. For the first 
time, the National Response Plan, which integrates the various federal 
response plans, will include the private sector as an essential element 
in preparedness, response, and recovery.
    Relationships must be maintained at this level in order to assure 
coordinated and integrated plans and programs that utilize resources 
optimally and to assure engagement of operational leadership within the 
private industry for mutual planning and goals setting.

    Operational Execution
    At the operational level, IAIP works on daily, periodic and 
situational basis with ISACs sharing information on threats, developing 
suggested protective actions, and alert and warnings. There are 
currently 14 ISACs spanning most of the HSPD-7 critical 
infrastructures. ISACs serve as a gateway between DHS and the industry 
for two-way information sharing and provide the industry with an 
information clearinghouse for each sector. Through the up-to-date 
distribution lists maintained by the ISACs, DHS is able to quickly 
disseminate threat warnings to identified entities within each sector.
    To a lesser degree, ISACs and their members provide DHS with 
incident and suspicious activity information. This type of information 
holds the potential for completing the situational awareness picture 
(together with Intelligence Community and Law Enforcement information) 
concerning possible threats to the nation's critical infrastructures. 
In my organization, the Infrastructure Coordination Division (ICD) and 
National Communications System (NCS) are the two IAIP divisions 
responsible for maintaining and enhancing relationships with the 
private sector through their ISACs, the latter with specific 
responsibility for the telecommunications sector. Staff from both 
divisions participate actively in ISAC related Advisory Groups, 
Committees, Task Forces and Working Groups and maintain day-to-day 
contact with the ISACs.
    In addition, the Protective Security Division (PSD), also within 
the Office of Infrastructure Protection, has worked with owners and 
operators of specific categories of critical assets to develop and 
tailor protective practices for these assets. An example of this type 
of product is the guidelines for protecting refineries that the oil 
industry published last year. This type of work complements the 
``buffer zone'' approach for communities that the division has 
developed and deployed over the last fourteen months. In addition, PSD 
is deploying regional/ field security representatives to work directly 
with the owners and operators of critical infrastructure facilities and 
community leaders to address protective measures. Together, these 
practices constitute a holistic approach to infrastructure protection, 
looking at the activity from a ``whole systems'' perspective, and 
providing for a ``layered'' defense for the nation's critical assets.
    In support of integrated operations, DHS's predecessor agencies 
have granted security clearances to industry representatives when the 
purpose is to help the Federal Government maintain and enhance our 
national security, which includes critical infrastructure protection. 
Clearances historically have been given to individuals who have unique 
expertise, not available in government, on critical infrastructure 
protection, operations, or technology or who must take specific 
protective actions in response to classified information. In the past, 
IAIP sector analysts have specifically relied on ISAC and industry 
experts, generally with secret-level clearances, to help them assess 
sector threat, risk, and vulnerability information. In particular, 
these industry representatives work closely with DHS analysts to ensure 
that government-generated warning products (e.g. Advisories and 
Information Bulletins), when declassified to permit broad industry 
distribution, still contain information that provides ``value added'' 
actionable intelligence when disseminated to sector members. DHS is 
continuing to refine and working to accelerate the process for granting 
security clearances to key sector individuals to assist DHS, and 
ultimately their own sectors, regarding the production and receipt of 
timely and actionable threat information.
    In February, 2003, President Bush issued the National Strategy to 
Secure Cyberspace (``the Strategy''). DHS recognized that in order to 
meet many of the mandates in the Strategy and other objectives 
addressing greater national cyber security, we needed to create an 
operational mechanism for building a cyber security readiness and 
response system. As such, through an initial partnership with the CERT 
Coordination Center (CERT/CC) at Carnegie Mellon University, we created 
the U.S. Computer Emergency Readiness Team, or US-CERT. Through that 
partnership, US-CERT is able to leverage, rather than duplicate, 
existing capabilities and accelerate national cyber security efforts. 
US-CERT provides a national coordination center that links public and 
private response capabilities to facilitate information sharing across 
all infrastructure sectors and to help protect and maintain the 
continuity of our Nation's cyber infrastructure. The overarching 
approach to this task is to facilitate and implement systemic global 
and domestic coordination of deterrence from, preparation for, defense 
against, response to, and recovery from, cyber incidents and attacks 
across the United States, as well as the cyber consequences of physical 
attacks. To this end, US-CERT is building a cyber watch and warning 
capability, launching the US-CERT Partnership Program to build 
situational awareness and cooperation, and coordinating with U.S. 
Government agencies and the private sector to deter, prevent, respond 
to and recover from cyber--and physical--attacks. Through its Internet 
portal, US-CERT is a crucial component of--and a distribution tool 
for--our cyber security awareness activities.
    On January 28, 2004, the Department of Homeland Security through 
US-CERT unveiled the National Cyber Alert System, an operational system 
developed to deliver targeted, timely and actionable information to 
Americans to secure their computer systems. As the U.S. Government, we 
have a responsibility to alert the public of imminent threats and to 
provide protective measures when we can, or least provide the 
information necessary for the public to protect their systems. 
Furthermore, it is also important to inform the public about the true 
nature of a given incident, what the facts are, and what steps they can 
and should take to address the problem. The offerings of the National 
Cyber Alert System provide that kind of information, we have already 
issued several alerts and the initial products in a periodic series of 
``best practices'' and ``how-to'' guidance messages. We strive to make 
sure the information provided is understandable to all computer users, 
technical and non-technical, and reflects the broad usage of the 
Internet in today's society. As we increase our outreach, the National 
Cyber Alert System is looking at other partners to distribute 
information to as many Americans as possible.
    As the strategy acknowledged, one of our most important 
constituencies is the private sector. It is estimated that eighty-five 
percent of America's critical infrastructure is owned and operated by 
private companies, and technology developed by industry continues to 
fuel the growth and evolution of the Internet. In December 2003, the 
National Cyber Security Division (NCSD) co-hosted the first National 
Cyber Security Summit in Santa Clara, California with the Information 
Technology Association of America, TechNet, the Business Software 
Alliance, and the U.S. Chamber of Commerce. This event was designed to 
energize the public and private sectors to implement the Strategy. The 
Summit allowed the Department of Homeland Security to work side-by-side 
with leaders from industry to address the key cyber security issues 
facing the Nation. Five interest areas were established to focus 
specifically in the areas of:
        <bullet> Increasing awareness
        <bullet> Cyber security early warning
        <bullet> Best practices for information security corporate 
        governance
        <bullet> Technical standards and common criteria
        <bullet> Security across the software development lifecycle
    Perhaps most importantly, the Summit served as a call to action. It 
represented a logical transition point from developing a national 
strategy to energizing the public-private partnership to implement 
concrete, measurable actions to improve the security of America's cyber 
systems. Over the past few weeks, summit participants have put forward 
options for potential solutions in each of these key areas for both the 
public and private sector. We are excited that the private sector is 
showing such initiative and we are committed to working together.
    DHS is also a sponsor of the National Cyber Security Alliance 
(NCSA) and StaySafeOnline, a public-private organization created to 
educate home users and small businesses on cyber security best 
practices. Other NCSA sponsors include: The Federal Trade Commission, 
AT&T, America Online, Computer Associates, ITAA, Network Associates, 
and Symantec. DHS is providing matching funds to expand the NCSA end-
user outreach campaign, which will include a Fall 2004 Public Service 
Campaign to increase awareness among Americans about key cyber security 
issues.
    In operational relationships of this kind, adding value, efficiency 
and customer orientation is the key to building trust and sustaining 
relationships. IAIP has worked hard to enhance its capabilities in this 
regard over the last year with these activities. These relationships 
represent on-going efforts that are essential for efficient planning 
and implementation coordination. The long term commitment of 
communications between the federal government and the private entities 
is an essential element of building successful public-private 
partnerships.

Private Public Partnerships Information Sharing
    Adequate, actionable information is an essential enabler for all 
facets of critical infrastructure protection, from deterrence to 
response. Congress recognized its importance in the new tools it 
provided to DHS to obtain and protect, analyze and disseminate 
information from a wide variety of sources. Private industry owners and 
operators of critical infrastructure have long understood their 
responsibility for assuring their operations under a multitude of 
circumstances ranging from accidents to natural disasters. They now 
must add terrorism to the list of natural and manmade hazards they must 
consider and accommodate in their investments and response 
preparedness. The Federal government alone cannot protect this nation's 
expansive and widely distributed national infrastructures. IAIP needs 
private industry to be fully engaged in our national CIP program. 
Consequently, two-way information sharing with the owners and operators 
of critical infrastructures remains one of our highest priority public 
private partnerships.

    Current Information Sharing Initiatives
    The Information Sharing and Analysis Center (ISAC) has emerged over 
the last several years as a primary conduit for information sharing 
between the Federal government and many critical infrastructures and 
key resource industries. Each ISAC structure and operations tends to 
reflect the culture, structure and operating processes of their sector. 
The ISACs continue to evolve. They began with a focus on cyber security 
vulnerabilities and incidents. Since September 11, 2001, most share 
information on physical incidents as well.
    ISACs have widely varying levels of maturity and capability. ISACs 
have served a valuable role in private partnership information sharing. 
The purpose of the ISAC is to provide an efficient conduit for 
dissemination, sharing and communications of indications, warnings, and 
advisories related to potential threats vulnerabilities and incident 
data.
    The Northeast Blackout of last year is a good example of 
cooperation and effective communications between IAIP and the Electric 
Power industry through the industry's Electric Sector--ISAC. At the 
time of the power outage the ES-ISAC had already been well established 
and lines of communication between the ISAC and IAIP were in place. By 
approximately 4:30 p.m. EDT, 15 minutes after the initiation of the 
power outage, the IAIP's electric sector specialist was on the phone 
with the ES-ISAC to establish a preliminary estimate of the extent of 
the outage and to determine whether it had ceased to spread. Following 
discussions with the ISAC, we were able to make an assessment that the 
outage did not appear to have been caused by terrorist activity. This 
information was immediately elevated to Secretary Ridge and to the 
White House.
    Every couple of hours throughout the night, and somewhat less 
frequently over the next several days, the ES-ISAC conducted conference 
calls with industry representatives to assess restoration efforts. 
These calls were summarized in a Situation Report that was provided to 
senior officials within DHS and to each IAIP Infrastructure Sector lead 
for cross-infrastructure sharing purposes (since every sector depends 
upon electricity). In addition, the ES-ISAC structure was used 
effectively to share information with other industry sectors that are 
dependent on electricity. For example, on the evening of the power 
outage, the IAIP electric power staff addressed a conference call of 
the Financial Sector-ISAC and was able (based on earlier ES-ISAC 
inputs) to estimate the duration of the interruption of power supplies 
to New York City. In summary, the August 14th power outage demonstrated 
that the ISACs are an effective mechanism for receiving information 
from the private sector as well as for providing information to the 
private sector during a crisis.
    A long standing example of the utility of ISACs is the National 
Communications Center Telecommunications-ISAC, which is the primary DHS 
interface with the Private Sector for the telecommunications 
infrastructure. Built on an existing information sharing body, the NCC 
Telecom-ISAC is grounded by well-established trust. This mature, close 
relationship with industry is Government-supported, which facilitates 
the ISAC's ability to provide a value-added service, reaching out to 
the entire sector. This has provided a great role model for other 
ISACs.
    In the past, the Federal Government would conduct readiness and 
terrorism exercise in the absence of private sector participation. For 
example, in the TOPOFF-1 and TOPOFF-2 exercise series, the private 
sector owners and operators of infrastructure were excluded from 
``exercise play'', with the sole exception of hospitals, which were 
always one of the key operations being "stressed and tested" in those 
types of exercises. In contrast, based on prior planning and 
coordination by the U.S. Secret Service component of DHS, a Financial 
Services (FS)-ISAC Table Top Exercise was held in New York, March 2003 
soon after the standup of the Department. DHS staff attended the 
exercise to observe the scenario play and to ensure that participants 
were aware of DHS's role, including ICD role, in aiding with real-world 
recovery operations. The event was well received by the financial 
sector participants.
    Building on this effort and working with the state homeland 
security advisors, DHS has continued these exercises in, Chicago, San 
Francisco, Houston, and now, concurrent with this testimony, from 19-22 
April 2004, the FS-ISAC is hosting its next Tabletop exercise in St. 
Petersburg, Florida. The exercise will include two days of interactive 
tabletop play. DHS is sponsoring this event and staff will be actively 
participating in the exercises.
    From the lessons learned of TOPOFF-2 and these other table top 
exercises, IAIP recognizes the need to engage our private sector 
partners in these planning and execution of these national level 
exercises. Exercises, of all kinds, tabletop, command post and full 
scale; are powerful 'best practice' training tools and provide another 
venue for information sharing. IAIP plans to continue to include the 
private sector in future exercises whenever it makes sense to do so.

    New Information Sharing Initiatives
    The Administration and Congress have provided additional tools to 
enhance information sharing with the private sector. I will now discuss 
IAIP's new information sharing initiatives.
    As the primary operational interface with the nation's critical 
infrastructures, ICD continues to pass timely and substantive threat 
information to the private sector. At daily and/or weekly 
teleconferences, sector analysts provide the critical infrastructures 
via the ISACs with unclassified threat updates on terrorist activities 
potentially affecting their systems and facilities. In addition, 
classified threat briefings are presented to cleared ISAC 
representatives and their industry members on a quarterly or semi-
annual basis. To maintain appropriate situational awareness for each 
sector--a key division objective--ICD analysts on an ad hoc basis also 
provide timely assessments of high threshold threats to critical 
infrastructures through the ISACs. In addition, ICD sector analysts 
routinely assist IA analysts in preparing warning products that 
identify and communicate infrastructure-specific threats and incident 
trends.
    The National Infrastructure Coordinating Center (NICC) uses the 
Infrastructure Protection (IP) Executive Notification Service (ENS) to 
quickly notify ISAC leadership and Sector Coordinators of critical 
infrastructure events ranging from notification of imminent threats, 
dissemination of sector-specific warning products, and changes in 
national threat level. ENS delivers rapid internal and external 
messaging capability among government and private sector partners and 
provides Interactive Secure Authentication, which ensures 
confidentiality of communications, as well as confirmation of receipt.

                 Protected Critical Infrastructure Information
    Critical to the Department of Homeland Security's mission is the 
ability to effectively share information with homeland security 
partners across the country to better protect the nation's critical 
infrastructure. The Critical Infrastructure Information (CII) Act and 
implementing regulations provide private industry assurances that 
critical infrastructure information they voluntarily share with the 
government will be protected from release to the public and from use in 
civil litigation. The PCII Program enables the Department to receive 
critical infrastructure information that would not have previously been 
available to the government, thereby allowing for a better 
understanding of threats, vulnerabilities and the security of the 
nation's critical infrastructure.
    With the protection from FOIA disclosure offered by the CII Act, 
the private sector can share sensitive and confidential information 
that can be analyzed to identify threats and vulnerabilities. Such 
analysis will provide the basis not only for developing measures to 
deter the threats and mitigate the vulnerabilities to which the 
critical infrastructure is exposed, but also for improving Federal, 
State, and local governments' emergency preparedness posture to respond 
to any attacks more effectively.
    The benefits to private industry are both practical and patriotic. 
Information sharing will result in better identification of risks and 
vulnerabilities, which individual companies can use to help protect 
their assets. By voluntarily sharing such critical information, private 
industry demonstrates responsiveness to Government need and the public 
good. Private industry is demonstrating good corporate citizenship that 
may save lives and protect our hometowns. By participating in the PCII 
Program, industry is helping to safeguard and prevent disruption to the 
American economy and way of life.

                National Infrastructure Coordination Center (NICC)
    The NICC is currently developing capabilities towards its targeted 
operational capacity. Now in its third month of official operation, the 
NICC is collecting and analyzing best practices. While this analysis 
begins with watch center models, it also includes management practices, 
information sharing systems, and other process development models from 
a broad range of industries. The NICC will also work with its IAIPs 
public and private sector partners to ensure that its operational 
models most effectively and efficiently meet their needs.
    DHS designed the NICC specifically to maintain operational 
awareness of the nation's critical infrastructures and key resources in 
collaboration with both private partners and counterpart government 
agencies. The NICC also, by design, provides DHS with the ability to 
coordinate information sharing between government, ISACs, and other 
industry partners. The NICC functions as an extension of the Homeland 
Security Operations Center (HSOC).

                Homeland Security Information Network
    With the announcement by the Secretary of the Homeland Security 
Information Network (HSIN) in March, DHS provides a new capability for 
enhancing many of the critical infrastructure ISACs' capabilities to 
communicate with their sectors. The system provides a secure encrypted 
backbone capability for participants to communicate Sensitive But 
Unclassified (SBU) information with DHS, with each other, and other 
communities of interest that have information that may be useful to 
them. It provides a collaborative feature that allows government and 
industry participants to work together in real-time on problem solving. 
It has alerting and notification features to disseminate information to 
members of a sector or across sectors. The system provides the 
capability for sectors to interact with each other on the system as 
necessity dictates. These features provide support for a basic and 
common communications service among ISACs.
    By providing access to these capabilities to the critical 
infrastructure ISACs, IAIP adds value as a partner to the ISACs by 
removing duplication of costs in implementation and operations, and 
accelerates the development of value of the ISACs to their sectors. 
From experience with its use through the JRIES community (consisting of 
law enforcement at Federal, state and local levels) the collaborative 
and real-time aspects of the system actually increases the pace and 
volume of information sharing. Pilots with volunteer critical 
infrastructure sectors will begin this year, with support from the 
Infrastructure Coordination Division.
    We have seen great progress in two way information sharing with the 
private sector and these examples are illustrative of our efforts.

                Conclusion
    This Administration has upheld a consistent policy that public 
private partnerships be one of the pillars of national critical 
infrastructure protection. Partnerships are an essential element 
described in every national strategy document that we have published on 
homeland security and critical infrastructure protection. This policy 
recognizes the new environment of terrorism, where both threats and 
vulnerabilities are continuously evolving in both physical and cyber 
space, will require an unprecedented adaptability and cooperation of 
the stakeholders. Since 85 percent of the critical infrastructures are 
owned and operated by private industry, how could a sustained effort be 
institutionalized to protect them? Only a full understanding by the 
stakeholders of their own vested interests related to this issue could 
sustain such an effort and commitment. Public-private partnerships are 
the only means that is responsive enough and adaptive enough to 
accomplish our national goals in a scalable, sustainable, and effective 
way.
    We have learned many lessons about developing effective 
partnerships both from our legacy agencies and from our own experiences 
since DHS was implemented in 2003. I would like to share three of these 
with you today. Lesson 1--Partnerships require a set of mutually 
determined objectives and deliverables to achieve a value proposition 
and trust. Lesson 2--Participation in planning and objectives setting 
is essential to the success of the partnership. Both sides must 
understand the expectations, values, concerns, risks and individual 
objectives of each participant. Lesson 3--Constant communication 
between all of the parties is an essential imperative.
    With years of experience by agencies that are now part of DHS, the 
successful partnerships built between federal lead agencies and their 
counterparts in industry were those where the federal lead agencies 
educated and learned, convened, listened and responded and then 
supported their industry counterparts who took the lead to implement 
programs to protect themselves. The Federal government sharing useful, 
actionable information on threats induces greater information sharing 
by industry in return. Making it easy for industry to receive and 
provide information, providing products and services in return, based 
on that information, and working with owners and operators to develop 
and implement consistent and generally accepted protection practices, 
will add value to any partnership.
    In all relationships, there are challenges. Strong long-term 
relationships depend, however, on how well the participants handle, 
learn from, and adapt to those challenges. Some lessons learned from 
the recent past in our dialogue with industry include involving them in 
planning, mutual goals setting and development of operational learning, 
such as input into our national plans, the NIPP and NRP, and direct 
participation in major exercises such as TOPOFF3. We have responded and 
adapted to many of the needs and expectations of industry in support of 
their protection strategies and programs.
    Some private institutions have committed tremendous resources in 
time and money to supporting this national initiative, not just for 
their individual institution but for their industry as whole. Even 
before 9/11, some were doing so. Terrorists have innumerable weapons 
and targets of choice in our open society. In order to sustain an 
effective national CIP program, we need critical infrastructure 
sectors' cooperation, expertise and creativity to find the most 
effective and efficient ways to protect their sectors. It is incumbent 
upon DHS to develop and strengthen these partnerships and we will do so 
because there is more to do to help secure our homeland.

    Mr. Thornberry. Thank you.
    Also on our first panel, we have Mr. George Newstrom, who 
is the Secretary of Technology and Chief Information Officer 
for the Commonwealth of Virginia. He also serves as the 
Chairman of the Security Committee of the National Association 
of State Chief Information Officers. Secretary Newstrom, thank 
you for being with us, and you are recognized for 5 minutes to 
summarize your statement.

   STATEMENT OF THE HONORABLE GEORGE NEWSTROM, SECRETARY OF 
              TECHNOLOGY, COMMONWEALTH OF VIRGINIA

    Mr. Newstrom. Thank you, Mr. Chairman and members of the 
committee. I will summarize my statement. You have the full 
text in front of you right now. The Chairman has already 
introduced me and the two hats that I come to you with today.
    At NASCIO, I serve as the Chair of the Security Committee. 
This committee addresses the role of information and 
communications technology, both in terms of how it supports the 
wider needs of state homeland security directors and how state 
governments should be protecting their critical information 
assets. We also oversee NASCIO's Interstate Information Sharing 
and Analysis Center, the ISAC, which arose from a 2002 
memorandum of understanding with DHS's Infrastructure 
Coordination Division led by Jim Caverly.
    Information infrastructure is only part of America's 
critical infrastructure that is under attack everywhere all the 
time. Unfortunately, cyber attacks on a national scale are 
still treated as secondary to any physical threat, whether it 
is chemical, biological, radiological, nuclear or explosive. 
NASCIO believes that while cyber terrorism per se is still an 
emerging threat, we must press forward toward a coordinated 
intergovernmental approach to protecting government's critical 
information assets if we are to ensure that critical government 
business functions, especially those supporting homeland 
security, will be available when needed.
    If we can secure our systems from hackers and organized 
crime, we will have gone a long way toward securing them from 
terrorist and enemy nation-states. NASCIO has long realized the 
interdependence of Federal, state and local information systems 
which drive the need for intergovernmental approach. Toward 
that end, we produced a document in 2002 titled Public Sector 
Information Security, a call to action for public sector CIOs 
that emerged from a forum convened by NASCIO in the wake of 9-
11. We also convened a roundtable discussion that included 
local, state and Federal participants here last July.
    The primary lessons we have learned are that government 
ICT, information and communications technology personnel, 
should be considered core competencies to state and local 
emergency response capabilities because without them, 
everything from databases to wireless communications first 
responders cannot do their job. Also, given the fact that 
states, counties and cities are the primary mechanism for the 
delivery of critical services to citizens, including Federal 
programs, if the information systems of states or local 
governments go down, the ability of the other levels of 
government to do business within jurisdictions will be 
significantly impaired, if not interrupted. This creates a 
cascading effect.
    While the CIO is charged with protecting the state's 
critical information assets, he or she is also charged with 
managing the day-to-day operations of a wide variety of 
information systems and infrastructures that support first 
responders in homeland security leadership. Up to now, homeland 
security has primarily been defined as those systems involving 
law enforcement and emergency managers. However, as state 
efforts fuse information from intelligence and all-hazard 
incident management purposes become more sophisticated, a wide 
range of information systems will be drawn together in an 
effort from public safety, public health, transportation and 
agriculture, among them.
    Homeland security at the state and local level is less 
about organizational change and more about cultural adjustment. 
Homeland security, like technology, requires an enterprise 
approach that synchronizes and harmonizes disparate parts under 
a common umbrella. Key to this success with this cultural 
change is achieving vertical and horizontal sharing and 
integration of information, something that requires effective 
application of technology. This will require the CIO, with 
statewide oversight, to help manage the development and 
deployment of systems that can meet the ever-changing needs of 
homeland security decision makers.
    As a caution and an urge to the Federal Government, we ask 
that the Federal Government consolidate its information-
disseminating capability. While it may be necessary to separate 
public safety, military and cyber efforts, we should not have 
multiple, uncoordinated information dissemination efforts 
within each of these categories as we do now. Virginia knows 
from first-hand experience that the FBI and DHS are issuing 
separate information products to law enforcement and non-law 
enforcement communities respectively. This makes it difficult 
for state homeland security directors and CIOs to understand 
the full spectrum of threats faced by states, without staying 
abreast of multiple channels and fusing the information 
internally.
    NASCIO knows by the work with other states that the other 
Federal agencies, particularly those in the Departments of 
Justice and Health and Human Services, are issuing cyber alerts 
to state and local programmatic counterparts which are not 
incorporated in the National Cyber Security Division, NCSD, of 
DHS. NASCIO would be willing to work with Mr. Amit Yoran and 
the Federal Chief Security Officers Council to develop an 
intergovernmental warning process so state CIOs, homeland 
security directors and program-specific leadership receives 
coordinated, consistent and timely alerts and notices.
    As the 9-11 commission has heard now on many occasions, the 
issue may be less on what and how much information we know, but 
how knows it and who they share it with. In the area of cyber 
security, we are doing well at countering attacks on 
infrastructure after they happen. Isn't our real objective to 
try to identify potential attacks in advance so that we can 
avert costly efforts to eradicate them once they happen? The 
only way to do this is by connecting the dots, sharing 
information across Federal and state agencies in a timely and 
focused manner.
    NASCIO has been actively engaged in sharing cyber threat 
and incident information with and among states as part of our 
interstate ISAC program. We have also gathered information and 
targeted requests from DHS and provided feedback on the 
effectiveness of various information sharing analysis 
practices. We have drawn on the goodwill of our corporate 
partners to provide the states with supplemental information to 
help them respond to fast-moving threats like worms and 
viruses.
    Regarding specific efforts by the Commonwealth of Virginia, 
as members of today's committee know very well, Virginia is 
home to the Pentagon, one of the three sites in the United 
States that were attacked on September 11. The memory of that 
day and its aftermath continue to permeate the consciousness of 
those serving in Virginia State government and the local 
community, while serving as a guide for Virginia's efforts in 
homeland security and critical information protection. To 
respond to this challenge, Virginia has three specific efforts 
under way. One is the Secure Virginia Panel. The second is the 
National Capital Critical Infrastructure Vulnerability 
Assessment Project. Three is the Virginia Alliance for 
Securing, Computing and Networking. You have all those in the 
detailed comments in my testimony.
    The first one is a public-private partnership that the 
Governor of Virginia established within 30 days of coming into 
office. The second one is the District of Columbia, the State 
of Maryland and the Commonwealth of Virginia working together 
to ensure the entire region's assets. The third is the Virginia 
Alliance for Securing Computing and Networking is in the 
educational community to secure our research networks that are 
very instrumental to all of us.
    Mr. Chairman and members of the subcommittee, Virginia and 
all the states represented by NASCIO are moving forward in the 
context of protecting critical infrastructure from physical and 
cyber vulnerabilities. This effort is requiring new ways of 
thinking and new types of relationships between Federal and 
state entities. Much progress has been made, but there is much 
to be done.
    I enjoy a close working relationship with Virginia's 
homeland security team, state as well as local, as well as the 
leaders of the Federal efforts in DHS. I know that we do not 
have all the answers. We may not even have all the questions. 
But we know that protecting our critical assets from cyber and 
physical threat is a key to ensuring the safety of Americans 
and protecting our economic security.
    My message to you, in conclusion, is first, despite the 
continuing daily attacks on our nation's information 
infrastructure, cyber security is still seen as a secondary 
threat and the interdependence of Federal, state and local 
systems absolutely requires closer and a more cohesive 
approach. second, we are encouraged by the organization and the 
leadership at DHS to move smartly and timely with the 
assistance of their state and local partners, and particularly 
the recent evaluation of the ISAC approach and the new 
opportunities for effective change that it represents.
    NASCIO will do what it can to assist by working with DHS, 
ICD and NCSD divisions to arrive at the most effective 
approach, and also by developing the states and local addendum 
to our national security strategy.
    Let me take a moment and thank Robert Liscouski, Assistant 
Secretary, sitting next to me, as well as Jim Caverly, who 
heads ICD, and Amit Yoran, the Director of the National Cyber 
Security Division, as well as Steve Cooper, the CIO of the 
Department of Homeland Security. These folks have worked with 
us, as well as George Foresman, Virginia's Assistant to the 
Governor for Commonwealth Preparedness, to meet the goals that 
we have outlined.
    Mr. Chairman, thank you, and members of this committee for 
the opportunity to be here with you today.
    [The statement of Mr. Newstrom follows:]

        Preprared Statement of the Honorable George C. Newstrom

    Chairman Thornberry, Chairman Camp and Members of the 
Subcommittees,
    Thank you for inviting me to appear before you today. I am before 
you today wearing two different hats: one representing the Commonwealth 
of Virginia as its Secretary of Technology and the second as the Chair 
of the Security Committee of the National Association of State Chief 
Information Officers (NASCIO).
    I would like to offer my perspective on the issues of partnership 
and information sharing with particular regard to Virginia's cross-
sector efforts to secure its critical and information infrastructures 
and NASCIO's efforts to coordinate DHS's interaction with the states on 
these matters. Virginia and NASCIO appreciate your attention to this 
important matter and willingness to get input from a state and 
organization that have direct stakes in the outcome. We believe that 
success in cross-sector infrastructure assurance and information 
sharing will be the result of persistent effort by many parties, 
advancing in spurts during times of urgency and more incrementally 
during times when trust and cooperation must be solidified for the long 
haul.

Efforts By NASCIO
    At NASCIO, as I indicated, I serve as chair of their Security 
Committee. This committee addresses the role of state Information and 
Communications Technology (ICT) both in terms of how it supports the 
wider needs of state homeland security directors and in how state 
governments should be protecting their critical information assets. We 
also oversee NASCIO's Interstate Information Sharing and Analysis 
Center (ISAC) efforts, which arise out of a July 2002 memorandum of 
understanding with DHS's Infrastructure Coordination Division (ICD), 
led by James Caverly.

Protecting Governments' Critical Information Assets
    The information infrastructure is the only part of America's 
critical infrastructures that are under attack everywhere, all the 
time. Unfortunately, ``cyber'' threat on a national scale is still 
treated as secondary to any physical threat whether it be chemical, 
biological, radiological, nuclear, and explosive. NASCIO believes that, 
while cyber-terrorism per se is still an emerging threat, we must press 
forward toward a coordinated, intergovernmental approach to protecting 
governments' critical information assets if we are to ensure that 
critical governmental business functions--especially those supporting 
homeland security--will be available when needed. If we can secure our 
systems from hackers and organized criminals, we will have gone a long 
way toward securing them from terrorist and enemy nation states.
    NASCIO has long realized the interdependencies of federal, state, 
and local information systems, which drives the need for an 
intergovernmental approach. Toward that end, we produced a document in 
2002, titled ``Public-Sector Information Security: A Call to Action for 
Public-Sector CIOs'' that emerged from a forum convened by NASCIO in 
the wake of 9/11. We also convened a roundtable discussion that 
included local, state, and federal participants last July here in 
Washington.
    The primary lessons we have learned are that government ICT 
personnel should be considered a core component to state and local 
emergency response capabilities, because without everything from 
databases to wireless communications the first responders cannot do 
their jobs. Also, given the fact that the states, counties, and cities, 
are the primary mechanisms for delivering critical services to 
citizens--including federal programs, if the information systems of a 
state or local government go down, the ability of the other levels of 
government to do business within that jurisdiction will be 
significantly impaired, if not interrupted. This creates a cascading 
effect.

Supporting State Homeland Security Decision-Makers
    While the CIO is charged with protecting the state's critical 
information assets, he or she is also charged with managing the day-to-
day operations of a wide variety of information systems and 
infrastructure that support first responders and homeland security 
leadership. Up to now, homeland security ICT has primarily been defined 
as those systems serving law enforcement and emergency managers. 
However, as state efforts to fuse information for intelligence and all-
hazards incident-management purposes become more sophisticated, a wide 
range of information systems will be drawn into the effort, including 
those from public safety, public health, transportation, and 
agriculture among others.
    Homeland Security at the state and local level is less about 
organizational change and more about cultural adjustment. Homeland 
security, like technology, requires an enterprise approach that 
synchronizes and harmonizes disparate parts under a common umbrella. 
Key to succeeding with this cultural change is achieving vertical and 
horizontal sharing and integration of information--something that 
requires effective application of technology. This will require the 
CIO, with statewide oversight, to help manage the development and 
deployment of systems that can meet the ever-changing needs of homeland 
security decision makers while maintaining appropriate levels of 
privacy and security. Our adversaries will continue to change their 
tactics. Therefore, our information systems must be able to help state 
homeland security directors and DHS gather the information they will 
need to counter these evolving threats.

Focused Action By The Federal Government Is A Necessity
    It is so important that the federal government consolidate its 
information dissemination capability. While it might be necessary to 
have separate public safety, military and cyber efforts, we should not 
have multiple, uncoordinated information dissemination efforts within 
each of those categories as we do now. Virginia knows from first hand 
experience that the FBI and DHS are issuing separate information 
products to the law enforcement and non-law enforcement communities 
respectively. This makes it difficult for state homeland security 
directors and CIOs to understand the full spectrum of threats faced by 
the state without staying abreast of multiple channels and fusing the 
information internally.
    NASCIO knows by way of its work with all the states, that other 
federal agencies, particularly those in the departments of Justice and 
Health and Human Services, are issuing cyber alerts to their state and 
local programmatic counterparts, which are not incorporated into the 
National Cyber Security Division (NCSD) of DHS alert products. NASCIO 
would be very willing to work with Mr. Yoran and the new Federal Chief 
Security Officers Council to develop an intergovernmental warning 
process so that state CIOs, homeland security directors, and program 
specific leadership receives coordinated, consistent as well as timely 
alerts and notices.
    As the `911 Commission' has heard now on many occasions, the issue 
may be less on what and how much we know but who knows it and who they 
share the information with. In the area of cyber security, we are doing 
well at countering attacks on our infrastructure AFTER they happen. 
Isn't our real objective to try to identify potential attacks in 
advance so that we can avert the costly efforts to eradicate them after 
they happen? The only way to do this is to `connect the dots'--share 
information across federal and state agencies in a timely AND focused 
manner.

Sharing Information with the States
    NASCIO has been actively engaged in sharing cyber-threat and 
incident information with and among the states as part of our 
Interstate ISAC program. We have also gathered information for targeted 
requests from DHS and provided feedback on the effectiveness of various 
information sharing and analysis practices. We have drawn on the 
goodwill of our corporate partners to provide the states with 
supplemental information to help them respond to fast-moving threats 
like worms and viruses.
    We applaud Amit Yoran's recent efforts at the National Cyber 
Security Division (NCSD) to engage the states directly and make the US-
CERT a valuable tool for the entire ICT-using community, including 
individual U.S. citizens. We are currently working with Jim Caverly at 
ICD to further refine our ISAC program. We know that DHS, NASCIO, and 
individual states have very limited resources to contribute to any 
information sharing effort. Therefore, we seek to have an information 
sharing and analysis program that is as transparent as possible between 
DHS and the states. We also want it to provide targeted services with a 
definable return on the sweat equity investment by the states. This 
will take time. But, NASCIO has found its partners at NCSD and ICD to 
be very receptive to our suggestions for improvement and we remain 
committed to ensuring the success of any information sharing efforts 
with the states.
    Our NASCIO Security Committee currently has two deliverables in 
progress for 2004, which might be of interest to you:
        <bullet> A state and local addendum to the National Strategy to 
        Secure Cyberspace. Following a meeting with DHS and White House 
        cybersecurity leadership, the National Governors Association 
        (NGA) began working with NASCIO to take on the joint role of 
        serving as ad hoc coordinators for the state and local sector. 
        In that role, we will be forming a task force or working group 
        to produce a brief addendum that will highlight the key sector 
        implications of the strategy. It will also provide an 
        opportunity to put forth some additional recommendations for 
        action by our sector. This group will include state, county, 
        and municipal chief information officers (CIOs) and chief 
        information security officers (CISOs) as well as participants 
        from the telecommunications directors, utilities commissioners, 
        and educational community.
        <bullet> Defining the role of the CIO in homeland security 
        decision support.NASCIO will shortly be releasing a detailed 
        brief on the role of the CIO in supporting intra-state 
        intelligence and situational awareness efforts, which combine 
        to provide homeland security leadership with what we are 
        calling ``decision support.'' It will include several calls for 
        very precise state and federal action that we hope will prepare 
        the states to fulfill the goals of the recently released 
        National Incident Management System (NIMS) as well as support 
        the ongoing deployment of new and enhanced information sharing 
        networks by DHS CIO, Steve Cooper.

Efforts Specific to the Commonwealth of Virginia
    The efforts undertaken by the Commonwealth of Virginia in securing 
its critical physical and infrastructure has been primarily focused on 
the development of partnership among key state and local agencies, the 
private sector and Virginia's institutions of higher education to 
develop and implement strategies for securing and maintaining critical 
infrastructure.
    As members of today's committees know very well, Virginia is home 
to the Pentagon one of the three sites in the United States that was 
attacked on September 11, 2001. The memory of that day and its 
aftermath continue to permeate the consciousness of those serving in 
Virginia's state government and local communities while serving as a 
guide for Virginia's efforts in homeland security and critical 
infrastructure protection component.
    To respond to these challenges, the Commonwealth of Virginia has 
three specific efforts underway that will be discussed today. These 
efforts are:
        <bullet> The Secure Virginia Panel
        <bullet> National Capital Region--Critical Infrastructure 
        Vulnerability Assessment Project
        <bullet> The Virginia Alliance for Secure Computing and 
        Networking (VA SCAN)

The Secure Virginia Panel
    As one of his first acts of office to respond to the challenge of 
protecting the Commonwealth, the Governor of Virginia, Mark R. Warner, 
signed Executive Order 7 on January 31, 2002, establishing the Secure 
Virginia Initiative and convening the Secure Virginia Panel. In 
bringing together state government, local government and the private 
sector, the Secure Virginia Panel and its working groups has served as 
the primary conduit for developing public-private partnerships to deal 
with the challenges in preparing for emergencies and disasters of all 
kinds, including terrorism.
    Through the Critical Infrastructure Working Group (CIWG) of the 
Secure Virginia Panel, Virginia is tackling many of the same challenges 
that are also being addressed by the federal government. Also comprised 
of members representing state government, local government and the 
private sector, the CIWG is specifically charged with making 
recommendations that strengthen cyber and physical security for 
critical infrastructure throughout the Commonwealth. By identifying 
failure and inter-dependency points in critical infrastructure security 
and developing a methodology for prioritization of those points, the 
CIWG is attempting to answer three critical questions:
        1. What critical infrastructure is needed to keep government 
        operational?
        2. How does the Commonwealth of Virginia best coordinate with 
        local government and the private sector?
        3. What organizational structure is best suited to ensuring a 
        coordinated approach to both cyber and physical security of 
        critical infrastructure located in Virginia?
    To answer these questions, the CIWG has outlined six objectives 
that it plans to meet by December 2004. These objectives are as 
follows:
        1. Development of a governance model that can best coordinate 
        critical infrastructure protection and risk mitigation.
        2. Identification of critical infrastructure.
        3. Identification of inter-dependency and failure points in 
        critical infrastructure protection.
        4. Development of a methodology to prioritize critical 
        infrastructure protection initiatives.
        5. Assignment of responsibility within state government for 
        coordinating critical infrastructure cyber and physical 
        security efforts.
        6. Coordination among the public sector, private sector and 
        institutions of higher education to ensure the development and 
        utilization of a consistent assessment methodology.
    These efforts are facilitated by prior recommendations that have 
been developed by the Secure Virginia Panel. Specifically, in 2002, the 
Panel recommended legislative changes that would protect from FOIA the 
disclosure of critical infrastructure information submitted to state 
government by the public sector. Titled the `Sensitive Records 
Protection Act' (HB 2210), the legislation was passed by the 2003 
General Assembly and subsequently signed into law by the Governor.

National Capital Region--Critical Infrastructure Vulnerability 
Assessment Project
    The vulnerability of the National Capital Region was made painfully 
obvious on September 11th, 2001. The coordinated partnership by the 
federal government, the states of Virginia and Maryland and the 
District of Columbia to the unique situation of our Capital region 
demonstrates the cooperative approach towards homeland security and 
critical infrastructure protection that is being pursued today.
    Under the auspices of the post 9 /11 funding provided by Congress, 
Urban Area Security Initiative Grant Program as well as the Department 
of Justice Community Oriented Policing (COPS) program, funded through 
the Department of Homeland Security's Office for Domestic Preparedness, 
a leading regional effort for critical infrastructure protection in the 
National Capital Region is being lead by George Mason University. This 
effort is part of a broader set of NCR initiatives being orchestrated 
by the Mayor of DC and Governor's of Virginia and Maryland under the 
auspices of their representatives on the Senior Policy Group in 
partnership with community leaders.
    The Urban Area Security Initiative (UASI) is a program that helps 
develop sustainable models to enhance security and overall preparedness 
to prevent, respond to, and recover from acts of terrorism in high-
density population centers. Specifically, UASI was created to ``enhance 
the ability of first responders and public safety officials to secure 
the area's critical infrastructure and respond to potential acts of 
terrorism. Initially, seven metro areas were identified: New York City, 
Washington, D.C., Los Angeles, Seattle, Chicago, San Francisco, and 
Houston. For the 2004 fiscal year, this number increased to 50, now 
including smaller cities such as Orlando, Florida, and New Haven, 
Connecticut.
    For the National Capital Region, a strategy was developed to 
provide a strategic direction for preventing and reducing vulnerability 
in the region. The strategy was developed based on a number of inputs: 
the results of an assessment completed by communities in the National 
Capital Region in July 2003, the National Strategy for Homeland 
Security, the Eight Commitments to Action for the National Capital 
Region, and the State Template published by the Homeland Security 
Council. The Strategy focuses on four areas: planning, training, 
exercise, and equipment. George Mason's activities fall within the 
planning area.
    The grant from the Department of Justice Community Oriented 
Policing (COPS) program, complementing the efforts undertaken through 
the UASI initiative, focuses on the telecommunications, water, energy, 
and transportation sectors in the Commonwealth of Virginia.
    In cooperation with five universities, including James Madison 
University, the University of Virginia, Virginia Polytechnic Institute 
and State University (Virginia Tech), the University of Maryland, and 
Howard University, the NCR Critical Infrastructure Vulnerability 
Assessment Project focuses on improving regional and sectoral 
methodologies for conducting vulnerability assessments. The ultimate 
objective of the project is to raise the level of security in the 
National Capital Region by ensuring that critical infrastructure 
sectors address the most important security concerns. The project seeks 
to enhance the capability and capacity of the National Capital Region 
to reduce vulnerability, minimize damage and increase resiliency. In 
addition to the regional universities engaged in this initiative, GMU 
is also working collaboratively with industry and government.

The Virginia Alliance for Secure Computing and Networking (VA SCAN)
    The Virginia Alliance for Secure Computing and Networking (VA SCAN) 
is a partnership of universities that seeks to strengthen information 
security programs within the Commonwealth of Virginia. The partnership 
includes security professionals from George Mason University, James 
Madison University, the University of Virginia (UVA), and Virginia 
Polytechnic Institute (VA Tech) as well as researches and staff from 
the Institute for Infrastructure and Information Assurance (3IA) at 
JMU, the Center for Security Information Systems at GMU, and the joint 
GMU/ JMU Critical Infrastructure Protection Project (CIPP). 
Representatives from other Virginia institutions, including Mary 
Washington College, Radford University, The Virginia Institute of 
Marine Science, The College of William and Mary, Virginia Commonwealth 
University, and the Virginia Military Institute serve as advisors to 
VASCAN partners.
    VA SCAN began offering products and services in March of 2003. The 
offerings are based on the principle that the most lasting improvements 
to security programs can be made not by performing security functions 
for organizations, but rather by educating and guiding management and 
staff teams in defining and carrying out their own security strategies 
and operations. Some of the products and services offered include:
        <bullet> A Virginia--Critical Infrastructure Response Team 
        (CIRT) group for tracking security threats
        <bullet> Self-assessment checklist for Commonwealth of Virginia 
        security standards
        <bullet> Security policy development and security awareness 
        training
        <bullet> Onsite training and security instructional materials
        <bullet> Onsite consulting on a variety of security topics and 
        an ``ask the expert'' email service
        <bullet> Web-based toolkit of security tools and best practices

Concluding Remarks
    Mr. Chairman and members of the subcommittees, Virginia and all the 
states represented by NASCIO are moving forward in the context of 
protecting critical infrastructures from physical and cyber 
vulnerabilities. This effort is requiring new ways of thinking and new 
types of relationships between public federal and state efforts. Much 
progress has been made but there is much more to do. I enjoy a close 
working relationship with Virginia's homeland security team, state as 
well as local, as well as the leaders of the federal efforts at DHS. I 
know that we do not have all of the answers and we frankly do not have 
all of the questions. But we know that protecting our critical assets 
from cyber and physical threats is key to ensuring the safety of 
Americans and protecting our economic security.
    In conclusion, my message to you is that, despite the continuing, 
daily attacks on our nations information infrastructure, cybersecurity 
is still seen as a secondary threat, and the interdependence of 
federal, state and local systems absolutely require a closer, more 
cohesive approach. Secondly, we are encouraged by the organization and 
leadership at DHS to move smartly and timely with the assistance of 
their state and local partners, and in particular, the recent re-
evaluation of the ISAC approach and the new opportunities for effective 
change that represents. NASCIO will do what it can to assist by working 
with DHS's ICD and NCSD divisions to arrive at the most effective 
approach, and also by developing the state and local addendum to our 
National Strategy.
    Let me take a moment to thank Robert Liscouski, Assistant Secretary 
for Infrastructure Protection, DHS; Jim Caverly, director, 
Infrastructure Coordination Division; Amit Yoran, director, National 
Cyber Security Division; Steve Cooper, chief information officer, DHS 
and George Foresman, Virginia's Assistant to the Governor for 
Commonwealth Preparedness for all that they do towards our common 
goals.
    Mr. Chairmen, I thank you and the members of your committees for 
the opportunity to testify before you today.

    Mr. Thornberry. Thank you. Some very good points.
    I yield to Chairman Camp.
    Mr. Camp. Thank you, Mr. Chairman.
    I appreciate both of your testimonies here this morning. 
Assistant Secretary Liscouski, obviously we are very interested 
in the role of the ISACs or the Information Sharing and 
Analysis Centers in being a link to the private sector in terms 
of infrastructure protection. I wonder to what extent you feel 
that they have fulfilled their expectations. Do you still view 
them as the primary public-private partnership link? To that 
extent, I know that under your authority there is a significant 
budget for public outreach, nearly $50 million. It is my 
understanding none of that has gone to the ISACs. I think a 
little bit of funding might help them in their role.
    So I am really interested in to what extent you consider 
their role important, and still that key link.
    Mr. Liscouski. Mr. Chairman, thank you for the question, 
and to the point about the partnership with the ISACs. We view 
them as critical, along with the other sector-specific agencies 
and the sector coordinators, to ensuring that we have not just 
the good links to the private sector, but most importantly the 
information coming back into DHS to understand what their 
concerns are.
    Let me just take a moment to address your question by just 
taking a step back for a second to say that we recognize that 
when PDD-63 was established, the direction the ISACs were going 
into was a very good direction, but there was very little 
leadership from the private sector to step up to really help 
guide those ISACs to provide to the government what their 
requirements were.
    When we established DHS and I became responsible for those 
ISACs, and particularly based upon my private sector 
background, it was clear to me that the model we had to change 
had to be one which was much more of a private sector-led 
model, rather than a government-led model. To that end, and it 
is a philosophy we live by today, we established a capability 
within my organization for Infrastructure Protection, and 
specifically with the Infrastructure Coordination Division, to 
be that central point of contact for us into the ISACs; to 
establish the links, to formalize those links, but most 
importantly to develop or receive the requirements back from 
those ISACs.
    Based upon that, we developed our fiscal year 2004 funding 
profile to ensure that the funding stream that went to the 
ISACs met their initial requirements and their evolving 
requirements. So we set aside $16 million for outreach that 
would be used to assist the ISACs in developing and forming 
themselves, as well as assisting them in their communications 
capabilities. To date, we have spent approximately $6.5 million 
to support the ISACs in the form of creating a common 
communications mechanism under the Homeland Security 
Information Network, which is a common platform for 
communications which we are rolling out to the ISACs, which 
effectively provides a no-cost entry for companies to form an 
ISAC and then gain access to this information, as well as other 
outreach efforts to include administrative support and research 
support vis- -vis George Mason University's Critical 
Infrastructure Protection Project, which is something we also 
fund.
    We have been working with the ISACs. Specifically back in 
December, we had an ISAC sector summit in which we solicited 
from the ISACs their very specific requirements for how they 
thought they needed to be funded and where their funding 
priorities are and where they remain.
    Mr. Camp. What do you think the principal challenges are in 
having the ISACs reach their fullest potential?
    Mr. Liscouski. It depends upon the ISAC. It is not a one-
size-fits-all model. I think the expectation we have is that we 
really need their requirements to be well defined as it relates 
to both information sharing on the two-way street. I think we 
have overcome many of the big challenges, for instance the 
establishment of the ISAC Council, which as it relates to the 
ISAC is our point of entry into the broad ISAC community to 
make sure we get collective thought well represented back into 
the government so we understand what those needs are. That is 
one challenge we have overcome.
    I think the other challenge is them defining specifically 
what their requirements are in terms of not just linking up 
with DHS, but most importantly conveying to us what their 
information-sharing requirements are.
    Mr. Camp. I think one of the critical things is the 
coordination of risk assessment by DHS. I think that is 
probably one of their most crucial roles. It appears as though 
there are multiple requirements for risk assessment depending 
on the agency, TSA or Coast Guard, or whatever. What steps are 
being taken to resolve this overlap and multiple levels or 
layers of risk assessment that really can be an undue burden on 
the private sector?
    Mr. Liscouski. I agree with that statement. As you know 
when DHS was formed, TSA had already been in existence and had 
been moving out in its effort very, very aggressively to try to 
connect up with the private sector; similarly with the Coast 
Guard going out and doing what they were doing; similarly with 
Secret Service and others.
    So we immediately began to coordinate the efforts for 
critical infrastructure protection and come up with common 
vulnerability assessments and risk analysis and capabilities 
that could be spread across the entire spectrum. Over the past 
year, we have been working on that, but we have really been 
able to even more consistently address this through the 
implementation of the Homeland Security Presidential Directive 
Number Seven, which has really given us the impetus to bring 
together all the various Federal agencies, not just within DHS, 
but across the Federal Government, to understand these programs 
and what their priorities are and how each respective sector-
specific agency is going to be addressing those priorities. 
That is a normalization effort that we are currently engaging 
in right now.
    Mr. Camp. OK, thank you. I see my time has expired.
    Mr. Liscouski. Thank you, sir.
    Mr. Camp. Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you.
    The gentlelady from California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Just a note, we have both Secretary Ridge and Secretary 
Powell downstairs in the Judiciary Committee, so even though I 
am very eager to hear what you have to say, I may be bopping 
down there in the near future.
    I hate to be a nag, but I am going to complain again, Mr. 
Liscouski, about the lateness of your testimony. The committee 
rules require that testimony be submitted 48 hours in advance. 
Once again, yours was received last night at 7:04 p.m., as a 
matter of fact is when we go the email. It is just not 
sufficient time for the committee members to review the 
testimony. There is a reason for the rule and I think it is 
offensive for the whole committee. I hope that that is the last 
time that this occurs. It is just not acceptable to me. I hope 
that that will not occur again.
    I want to ask a broad question, if I may. We need a 
comprehensive risk assessment of our nation's critical 
infrastructure. It seems to me that that has not yet been 
completed. I would like to know when the comprehensive critical 
infrastructure risk assessment will be completed. Specifically, 
I would like to know who within the IAIP is in charge of this 
risk assessment work. I would like to know the number of 
employees that are assigned to its production and the number of 
contractors and the number of detailees, the specific dollar 
amount that is assigned to produce this analysis.
    I would like to note that I have a number of questions. We 
probably will not be able to get through with them. In the 
past, we have submitted questions to the Department and 
generally we never get answers to them from any of the 
witnesses, including yourself. So I would like a commitment for 
those questions that we cannot get through that we actually 
will get written responses from you. I will not hold you 
accountable for our friend Asa Hutchinson and the others who 
have not responded, but I hope that the answers can be prompt.
    And if you could address the questions that I have asked 
now, I would be very appreciative.
    Mr. Liscouski. Yes, ma'am. I apologize again for the 
lateness of the submission of the testimony. With respect to 
the questions that you just referenced, I know I personally 
reviewed questions that you have submitted to me, so I know 
that they are a work in progress and we will check on what the 
status of those is so you can get them in a timely way.
    With respect to the comprehensive risk assessment, as I 
have said prior when I have appeared before this committee and 
others, that is an ongoing process. If we do our job right, and 
I know this can be taken out of context, we will continuously 
revise that list. We have over 33,000 assets identified in our 
national asset database, for which we are doing analysis on 
those risk assessments and continually updating those things.
    As you are aware based on my previous testimony, the 
interdependencies between all those assets continuously change 
based upon the threats. So we will never be satisfied based 
upon the evolving threat environment, that we should sit back 
and say that because we have done one risk assessment for one 
particular asset, that we should not go back and revisit that. 
So that is a continuous process.
    I know it is a difficult thing, but the enormity and the 
complexity and the scope of our critical infrastructure 
protection mandates that we continuously revise and review our 
risk posture and the changing threats, both of group 
capabilities, as well as their intent. second, this is not just 
a DHS effort, but this is a Federal Government as well as a 
state and local and a private sector effort. So many of those 
things over which we have responsibility, we do not directly 
control and therefore our ability to get fidelity in the 
comprehensive listing of all the assets is dependent upon the 
cooperation we have with the various entities who play in that 
space.
    Homeland Security Presidential Directive Number Seven gives 
us a significant leg up on our ability to coordinate these 
activities within the Federal sector. So it is not just DHS in 
the context of TSA and other responsibilities that Under 
Secretary Hutchinson may have, as well as my own group, but it 
is clearly those within DOT, Department of Agriculture, HHS, 
and others, which have similar types of responsibilities.
    So this is a national problem, as you well know, and not 
just a Federal problem. So I would suggest to you that we are 
working extremely hard and we have made significant progress 
over the past year in really aggregating a list. That has given 
us a very clear understanding of the major priorities that we 
have to address and we are addressing those priorities.
    Ms. Lofgren. If I could, we do understand that we are not 
going to come up with a list and then never revisit it. 
Obviously, it is an ongoing process. Am I to understand from 
your testimony that the critical infrastructure risk assessment 
has been completed and now it is a matter of updating it? Or if 
not, what are the milestones?
    Mr. Liscouski. The milestones are the outreach program that 
we have with the state and local and Federal sectors. We have 
tasked them specifically to identify what they believe are 
critical, based upon the definition in the Patriot Act, which 
is what we always go back to, to ensure that we have clarity of 
what that list is. Oftentimes we find that what we have done to 
identify critical assets in the United States and what the 
states and local municipalities and cities have done often do 
not reconcile. So we spend a significant amount of time 
reconciling those assets, doing the consequence analysis and 
the impact of attack on the exploitation and vulnerabilities of 
those assets. So no, ma'am, it is not complete, but much of 
that is outside the control of DHS per se, but based upon the 
input that we get from folks in the respective jurisdictions 
that you all represent, as well as other Federal agencies.
    Ms. Lofgren. My time has expired, but I would ask that you 
respond to me. By the way, you did not give me the number of 
employees and detailees.
    Mr. Liscouski. I would be happy to get back to you in 
writing, if I may.
    Ms. Lofgren. If you could also provide a list of what you 
have prepared, the milestones that you have achieved, your 
timelines for the rest of it, and then to the extent that there 
are departments that you are dependent on that have not 
actually produced, list them and tell us what they have not 
produced so that we can then inquire with them. I think that is 
essential.
    Mr. Liscouski. I think it is. Let me just level-set the 
expectation here. We are asking questions for which are not 
quite sure what the answers are necessarily. I could ask each 
one of the Representatives for input on what they think is 
critical. There might be things in there that you know about, 
that I do not know about. So I am asking a question on which I 
am totally dependent upon the folks at the local level for the 
answers.
    So to suggest that there is a finite number of assets over 
which I have some clarity in terms of a number, then I can 
measure a milestone that I am at the 80 percent level or the 90 
percent level, to be quite candid with you, is a little 
unrealistic. We do not know all the assets out there.
    Ms. Lofgren. My time has expired, Mr. Chairman.
    Mr. Thornberry. Thank you.
    The gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you once again for being before us. I know that we 
had an opportunity, Chairman Cox and Chairman Camp and myself, 
to sit down with you about two or three weeks ago to discuss 
this whole list of 1,700 critical sites. I did gain a lot of 
information, but we were the only ones, and I know some of it 
is secret information. But I think for the ability for some of 
the committee members here today, if you could share with us 
what intelligence or other information is used to determine the 
priorities by which you are putting these critical pieces of 
infrastructure on this list that you are working on.
    Once the infrastructure is prioritized, what happens to it 
when it is on this list? I know that you and I talked about how 
you discuss this with local law enforcement, where this 
critical infrastructure might be, and that they then are 
supposed to approach in particular private businesses. Can you 
tell us how that is going? How do you follow up on whether 
anything gets done? Maybe some private business does not really 
respond to local law enforcement when they come forward and say 
you need to secure this particular area in a better way, and 
here might be some ways in which you could do that. Have you 
provided assistance to these local law enforcement agencies to 
help them get that job done, of implementing it on the ground?
    Mr. Liscouski. Thank you for your question. I always enjoy 
the opportunity of explaining this methodology. Just to 
underscore the complexity of this effort, in working with the 
private sector and our colleagues on the state and local level, 
we have developed a methodology which we are putting out as 
widely as we can in terms of best practices, of understanding 
what those risks are and how to assess those risks.
    When we come up with a prioritized list, it is typically 
based upon a five-step process. The first step in that process 
is clearly identification of those assets, those things that 
need to be protected. Although that sounds like a very simple 
thing to do, it is who owns those things, and really what is 
the definition that we are putting around that infrastructure 
component, what are the interdependencies. There is a 
significant amount of analysis that goes on to the front end of 
this process to identify the asset.
    Ms. Sanchez. And you are doing this? Or are you using the 
state and local people's input into these assets in trying to 
understand what they are?
    Mr. Liscouski. It is actually all of that. It is DHS. It is 
our state and local partners. It is the private sector. This is 
a highly interdependent process. The second step in that 
process is clearly understanding the vulnerabilities, what can 
be exploited. The third part of that process is understanding 
the consequence of the exploitation of that vulnerability. The 
consequence analysis is based upon a number of factors, not 
least of which is the consequence of loss of life or economic 
impact, or the threat to our national security.
    That gives us a prioritization around then what do we need 
to be looking at first, independent of a threat environment, 
because there are many different continuums upon which we have 
to operate. But the baseline, the sort of steady-state 
continuum that we operate under is one which is an absence of 
threat. So we look at one from a vulnerability and consequence 
of loss perspective.
    The fourth step in our process is understanding what 
programs we have to put out around to remediating or mitigating 
those vulnerabilities. The fifth step, which if you asked about 
challenges, is the most challenging. That is the metrics 
component, the output, the output of understanding not just 
what programs are being implemented to address those 
vulnerabilities, but are they actually being implemented. More 
importantly, are they being implemented well enough to address 
the vulnerabilities themselves.
    Then we layer on top of that threat information. So as we 
get a better understanding of what vulnerabilities are, we then 
understand how groups can exploit those vulnerabilities based 
upon their capabilities and their intent, and our ability to 
understand from an intelligence perspective who is operating 
against us that might be targeting those vulnerabilities in a 
particular sector.
    That is how we prioritize them. We are actively engaging in 
revising that prioritized list to make sure that we can 
understand from a threat perspective what we need to address 
first. That is done in concert with our counterparts, 
particularly in the Information Analysis Division of IAIP and 
other members of the community, and then clearly with the 
ability to understand what is going on at the state and local 
level from their priority perspective.
    One part of your question also addressed what are we doing 
to help state and locals. That becomes a part of what their 
capabilities are. We find out, again, the rising tide, so to 
speak, of DHS does not float all the boats. We have to ensure 
that we can address some specific gaps with the state and 
locals, particularly at the local level, again working with the 
homeland security advisers in partnership in addressing those 
gaps. DHS may provide best practices. We may work with them on 
the ODP grant process, or we may go in there, depending on the 
specific sector and the specific vulnerability against the 
threat, to assist them in training and practical applications 
of technology to ensure that we can counter that threat.
    Ms. Sanchez. I think my time is up, Mr. Chairman.
    Mr. Thornberry. Does the gentlelady have a quick follow-up?
    Ms. Sanchez. A really quick follow-up. In looking through 
your plans and your goals for this year, I just pulled out an 
example. You had in there a desire to send out your team to 
take a look at about 270 specific sites with relationship to 
chemical possibilities. Of those 270, you have so far this year 
visited 17, two of which are now non-active sites. Given that 
record, just how far along are you on this plan of identifying 
and actually taking a look and making back recommendations?
    Mr. Liscouski. Again, thank you the opportunity to address 
a misperception. The last number you just addressed, the 17 or 
the top-most identified critical sites that we saw around the 
United States from a chemical sector perspective, they were 
addressed in fiscal year 2003, actually. The ones that we 
thought we needed to have the greatest impact on very shortly, 
we did that very early on in the creation of DHS. The number 
actually of 360 sites we are addressing in fiscal year 2004 
through our Buffer Zone Protection Plan. We have been very 
aggressively going out there and visiting sites, providing 
common vulnerability assessments.
    Our assistance to these sites is one which is either a 
physical visit, coordinated with state and locals and our 
homeland security advisers, in which we will send DHS teams out 
to conduct an assessment if we believe it is necessary, or we 
will provide other types of assistance, such as common 
vulnerability assessments, best practice methodologies, 
interaction with them in a way that allows them to bolster 
their own security without us having to actually make a site 
visit, working with our state and local partners to do the site 
visits.
    We do not have enough bandwidth within DHS, nor was the 
model ever envisioned that we would actually go out and do 
assessments for the entire industry. We are working with our 
industry partners, with our state and local authority partners, 
to ensure that they know how to do vulnerability assessments 
and report that information back to us. So we are making very 
good progress. I do not have the exact number. I will be happy 
to get back to you on that number. But the number for fiscal 
year 2004 is on track, and I am putting significant pressure on 
my team to make sure they stick with that number.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you.
    Chairman Cox?
    Mr. Cox. Thank you.
    I want to thank both of our witnesses for outstanding 
testimony. This is a very, very important aspect of what we are 
doing. In fact, I think it is fair to say that infrastructure 
protection, and IAIP is the heartbeat of this new Department. I 
want to thank you, the Assistant Secretary, Mr. Liscouski, and 
Mr. Newstrom for helping us focus on this today. Mr. Liscouski, 
you and Secretary Ridge, Under Secretary Libutti and all the 
men and women of IAIP deserve our congratulations and our 
thanks for what you are doing in this critical area.
    You have had to build your capability from scratch. This is 
not one of the 22 agencies that were merged together to form 
this Department. You have had to face enormous expectations 
through periods of heightened alert and of course intense 
scrutiny from the Congress because there is nothing more 
topical or more urgent before the Congress. I think mostly you 
get all of this attention because IAIP is in fact the nerve 
center of this enormous new Department and you are the heart of 
the Department's core mission.
    With 85 percent of what we are denoting as critical 
infrastructure key assets to preserve our way of life in the 
event of attack in the private sector, this kind of 
coordination that we are talking about today is just absolutely 
important. The ISACs are not creatures of either the Homeland 
Security Act or any other Federal statute. To a certain extent, 
there is some experimentation going on with this. ISACs are 
constructed along an industry model. They are stovepipes in 
that respect. They are not cross-jurisdictional. We have other 
councils that you are also sharing information with that are 
cross-jurisdictional.
    I want to ask, as the first of my two questions, whether or 
not you think that we should continue this experimental 
practical R&D process, or whether it is time for us to 
formalize legislatively the ISAC process and fund it. The 
second question I have relates particularly to a portion of 
your testimony, Mr. Newstrom. You brought to our attention that 
you know by way of your work with all the states that other 
Federal agencies, particularly those in the Departments of 
Justice and HHS, are issuing cyber alerts to their state and 
local programmatic counterparts, that these are not 
incorporated into the national Cyber Security Division of DHS 
alert products. At the same time, there is not an 
intergovernmental warning process that focuses everything from 
one place in the Federal Government.
    You bring to our attention that among others, the 9-11 
Commission has emphasized that it is not just how much we know, 
but how knows it, that is really important. The vastness of the 
Federal Government, complemented by the vastness of all our 
state governments, and then the private sector on top of it and 
cross-jurisdictional concerns that we have makes this vitally 
important.
    Mr. Liscouski, you have told us, and I have every reason to 
believe you, that DHS is now able to quickly disseminate threat 
warnings to identified entities within each sector. It seems to 
me that is a very significant accomplishment. The next step is 
to consolidate warnings issued by IAIP to a single node for 
dissemination to our private partners. The ultimate step would 
be to consolidate warnings issued across the Federal Government 
to a single node, which the Homeland Security Act contemplates. 
I want to ask you both also to address that.
    If you could, I hope that you did not forget my first 
question. Talk first about whether the ISAC model is one still 
under development and whether we ought to consider other 
complements to it, or whether we are starting to get a feel for 
exactly what we want to do in this area.
    Mr. Liscouski. Thank you, Chairman Cox. I will give you my 
private sector perspective, if I could, to add some fidelity 
around my thinking. I think it is important to understand, as I 
said earlier, this is not a government model. This really needs 
to be a private sector model.
    To your point about the formalization of the ISACs, I think 
they are clearly making some very, very good progress in 
developing a way that the industries can come together through 
the ISAC model. My philosophy that I am providing as guidance 
to the implementation of this and working with the ISACs and 
the private sector, is one which really puts the onus on them 
to define what their requirements are.
    For a moment, I just want to digress to talk a little 
philosophically about how information flow goes within the 
industries, and how the information flow that goes through 
industries is oftentimes predicated upon what types of problems 
they solve. Because industries themselves, companies themselves 
have many diverse problems over which they have to share 
information as well. My personal background within aFortune 50 
firm that I worked for, was that we often looked at not just 
problems of manufacturing processes and the threats that they 
might be subjected to. That might require us to go out to one 
information pool to figure out how we do that, but then the 
supply chain that feeds that manufacturing process might put us 
into a different information pool or a different community of 
interest. Similarly in the cyber world, that may also put us 
into another community of interest; similarly with the HR 
world.
    We have to provide the capability for the private sector to 
align itself with information or communities of interest based 
upon their needs. We need to facilitate that process as best we 
can. My fear in terms of legislating the ISACs would be from 
the perspective of making it more rigid than the process really 
should allow. Information flow really needs to be as free-
flowing, and we need to, from my perspective, facilitate 
information flow processes. If we put labels on what that 
process is at a top level based upon some sector alignment, I 
think that is appropriate. If we get too down to a granular 
level, we will create artificial stovepipes that will not 
facilitate the collaborative process between companies and 
between industries that is so necessary today.
    Industries create this process irrespective of what the 
government involvement is. That is why industry associations 
are out there. That is why we do things at a level between 
security officers between companies at a very high level to 
ensure we have very informal networks for information. I think 
the important model here is one that represents a very highly 
integrated network model, meaning that if you notice terrorist 
groups today operate in a highly networked environment 
themselves. They leverage technology to be able to communicate 
and develop expertise in areas that they can share in a highly 
diverse networked way, which puts the information at the edges 
of their organization.
    Similarly with information we need to be sharing here in 
the private sector, facilitated by the government, needs to be 
equally diverse and robust in terms of its flow. It has to be 
highly networked, highly capable of changing as situations 
change. Frankly, I do not think the government can facilitate 
that in any way that would allow us to do anything but create a 
stovepipe if we get too involved in the process. I would be 
interested in Mr. Newstrom's comment about that.
    I think the government's value-added in this process is 
relevant information. I think if we can provide information 
into the process that allows us to know with some degree of 
confidence that the private sector knows what they need to be 
doing and they are sharing information and solving the 
problems, we have ourselves a successful model.
    I think we are going to wind up having to look at this very 
carefully. I think you are going to hear on the second panel 
today from Diane VanDe Hei how they are implementing their 
information-sharing analysis center in an extremely diverse 
sector. It is representative here. I think one thing we have to 
be careful of is, these sectors are extremely diverse and we 
have to ensure that whatever we create today can survive not 
just in what we know about current diversity, but emerging 
diversity.
    I do not know if that answered your question fully enough. 
I would be happy to add more, but I do not want to take any 
more from Mr. Newstrom's time, but I would be happy to address 
this more.
    Mr. Newstrom. Thank you, Chairman Cox, for the question. I 
was hoping to get away without getting a question. Mr. 
Liscouski was doing such a great job in answering the others.
    Let me talk about the second part of that question, which 
was how it work together; what kind of fragmented information 
we are getting right now. As I say that, I also commented about 
how it has gotten substantially better. In fact, it has gotten 
exponentially better in the last 12 months since the inception 
of DHS and the creation of ICD and NCSD. Prior to that, let me 
suggest the information flow was fragmented. It was not 
focused. Around cyber security, it almost did not exist or it 
was sporadic at best.
    Now, with ICD, with NCSC, what Mr. Yoran is doing, what Jim 
Caverly is doing, it is programmatic. It is institutionalized. 
Even better, they have developed a partnership model with state 
officials, with local officials as well as the private sector. 
It is very apparent that that is the methodology, that is the 
direction that DHS is going. So we applaud that direction. We 
ask that we continue that direction.
    Certainly, there is still some fragmentation that I 
addressed in a couple of my comments. I hope that over a period 
of time, hopefully of a short period of time, we can even 
address those. But I do want to comment that the communications 
in the last six to eight to twelve months has been 
substantially better than it was prior to that.
    Does that answer the question, Chairman Cox?
    Mr. Cox. I think what Mr. Liscouski wants to know, let's go 
to that question.
    Mr. Liscouski. Let me just address how we are trying to 
better coordinate. Let me just qualify this as a preface by 
saying, I clearly understand that there were gaps in our 
information flow in the past. We did not know what the FBI was 
sending out. The FBI did not know what we were sending out when 
we first got started, as well as all the other agencies. We 
addressed that very quickly with the FBI. We have coordinated 
alerts going on. We still may send them out independent 
channels. The FBI has the responsibility of sending it out to 
the state and local law enforcement authorities, over which DHS 
does not have domain, and we with the private sector and our 
state and homeland security advisers.
    We are reconciling the fact that the creation of the 
messages that go out now are coordinated and co-developed and 
cleared off on by both agencies. That is a step in the right 
direction. As Mr. Newstrom pointed out, we still have other 
agencies in the Federal Government that are sending out alerts, 
and we are reconciling that through the Homeland Security 
Presidential Directive Seven effort, which is really 
articulating some of the rules of the road, not just the lanes 
in the road, of how we need to communicate so we have a good 
message.
    In the past, I was concerned that when messages went out, 
one message said black, the other one said white, to the same 
audience from two different senders, that would cause 
confusion. Now, we may have two different senders or multiple 
senders, but a much more consistent message says white from all 
the senders or black from all the senders, so we have 
consistency around the messaging.
    To that end, and getting more consistency around that, let 
me just address a couple of different ways we are doing that. 
When it comes to a significant incident, particularly in the 
cyber arena, Mr. Yoran has created the Cyber Interagency 
Incident Management Group which stands up with not just the 
Federal partners, but state and local and the private sector to 
address incidents that have to be actively and dynamically 
managed. He chairs the Chief Information Security Officer 
Forum, or CISO Forum, which is an education and networking 
venue for government security executives. Again, it is not just 
alerts and warnings, but we are getting consistency around best 
practices through that forum, as well as the G-FIRST, the 
Government Forum of Incident Response and Security Teams, which 
is a 24/7 government-oriented group that does an analysis that 
accelerates and enhances an agency's ability to identify a 
cyber crisis.
    So we have a number of forums, depending upon the 
particular audience, that gets more coordination and 
centralization of the problem-solving approach and the alert 
mechanisms that are going out there. We have work to do, but we 
are on the right path. I am confident that as we continue to 
move along this path, we will get more consistency, so that 
stakeholders like Mr. Newstrom and others will not have to 
worry about getting multiple messages from multiple providers.
    Mr. Cox. Thank you.
    Mr. Thornberry. The Chair recognizes the Ranking Member of 
the full committee, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Secretary, I continue to be amazed at the challenge 
that you face. I sometimes wonder if we are really serious 
about carrying out the task that was given in your directive in 
the Homeland Security Act, which calls for development of that 
national assessment of threat and vulnerability, from which the 
Congress envisioned being able to then set priorities for 
funding, and also to allow the Department and the government 
generally to know where to allocate its resources in terms of 
protecting against terrorist attack.
    We know the Presidential Directive Number Seven that you 
referred to postponed in my view the development of the 
identification of the critical infrastructure by at least, as I 
can read it, a year, because it says by the end of 2004, you 
are required to develop a plan to develop a strategy to 
identify, prioritize and protect critical infrastructure. I 
know Admiral Loy mentioned on one occasion that he thought this 
job ought to be done in a year. You were before this committee 
a few months ago. You said 5 years was a reasonable timetable.
    When we look at the staff that you have available to you, I 
believe you have, if my numbers are correct, about 172 people 
on board, with the responsibility of trying to carry out this 
task of assessing and identifying our critical infrastructure. 
It just seems to me you have a task that really requires you to 
come in here and tell us what it is going to take to really get 
this job done in a reasonable period of time. I think I hear 
you saying to us that you are relying a lot on the ISACs and 
the voluntary cooperation of the private sector. That is good. 
That is important and I support you in that. But to really do 
what the Congress mandated in the Homeland Security Act in any 
reasonable time it seems to me it is going to require much 
greater commitment in terms of personnel to ever get this job 
done right.
    I look just at the chemical industry, where you mentioned 
you plan to visit, or have identified 360 sites that you think 
are at high risk. I think you visited a few of those sites. I 
think I saw the numbers here earlier. You have a lot of work to 
do. I think I just heard you say you may not even be able to 
visit them all. You may rely on our state partners to do that. 
I am not even sure we have the authority to go look at those 
chemical sites, in terms of getting onto the premises and to 
evaluate them.
    So you have that responsibility that seems to be virtually 
in a posture where you are going to have a very difficult time 
accomplishing it in any reasonable period of time. Then you 
have this responsibility of trying to solicit information from 
the private sector under the Protected Critical Infrastructure 
Information Program that you have just issued rules on, which 
is supposed to encourage industry to voluntarily tell you about 
their vulnerabilities. Yet all I am hearing is that industry is 
not satisfied with the regulations and are not sure they can 
trust this agency, so they do not know if they want to tell you 
anything or not. You have 32 employees dedicated to that 
program, with collecting that sensitive information. The budget 
is $3.9 million. My notes say that we have only received 
information from two companies and two associations to date.
    So I really think that what I would like to hear from you 
regarding is, what do you really, in your gut, feel it is 
really going to take to do this job in a reasonable period of 
time? I know it is easy to say, well, I have my budget and this 
is all they have given me to do this job and I am going to try 
to do it the best I can and put the best face on it I can. But 
you are the person there that is in charge of all this. What I 
would like to have from you is some candid assessment regarding 
what you really need to do to get this job done in a reasonable 
period of time. I do not believe you have the staffing or the 
capability or the momentum or the support of the private sector 
yet to really ever get it done.
    Mr. Liscouski. I was hoping you would ask me that question, 
because this seems to me a perception we have to kill. The 
comment that I made last time, the first time I testified 
before you and said it was going to take us 5 years. I think 
that was taken entirely out of context. As I stated to Ms. 
Lofgren earlier, if we are doing our job right, we will 
continually revisit that process. The national assessment of 
our critical infrastructure is not just dependent upon what DHS 
is doing. It is clearly dependent upon what the state and local 
governments are doing; what the private sector is doing; and 
our other Federal agencies.
    That process has been ongoing and we have created a list. 
We started this process back in March 2003 with 160 sites based 
upon the Liberty Shield list that we stood up for, the Iraqi 
war back in March. We have grown that list to over 1,700 high 
priority sites, and a total list of 33,000 sites and are adding 
to it daily. We are continuing to add to it because we get a 
lot of input from our state and local partners and the private 
sector on what is critical and what is not. That list is going 
to continue to grow and we are doing assessments, both economic 
as well as physical and cyber vulnerability assessments on all 
those.
    It is a significant amount of work, but I think we are 
making very good progress on it. And yes, we are wholly 
dependent upon the cooperation we get from the private sector 
and state and local government. But I will tell you right now, 
the private sector, and this is another perception that if I do 
nothing today but tell you how much the private sector has 
stepped up to the plate to help us and had been doing this long 
before DHS came along, they have been doing a heck of a job. 
When I was in the private sector, we regularly cooperated with 
state and local law enforcement and the Federal Government to 
ensure that we could coordinate and communicate our 
vulnerabilities.
    So, is there hesitation? Yes, there is hesitation because 
it is a trust model that we have to build, but I think we have 
a good stab at it. We are doing a very good thing with the 
congressionally enacted PCII. Are we getting a low response on 
it? I am thankful we are, because we have to do a lot of 
marketing and outreach to the private sector to ensure that we 
create the right model for them to ensure that they have the 
trust model for DHS, but I think the mechanism is there. The 
public comment period is still open, which I think will be open 
until mid-May.
    I am not surprised we had a slow start out of the block. I 
was hoping for a slow start out of the blocks because I was 
fearful that we would get too much information to be able to 
handle it. Thankfully, we have not. So I am very pleased with 
the mechanism we have created based upon congressional guidance 
to ensure that we could provide better protection for the 
private sector based upon their requests. I am confident that 
we will continue to grow that program over time.
    Let me just go back to the beginning of the question, the 
very first question. I would like to take as much time with you 
personally to get you to understand our methodology in this 
process. The quantification of the metrics that we are trying 
to use to get output from the activities that we are engaged in 
is one in which there still has to be some research on. When we 
look at critical infrastructure protection, there are three 
major components against which activities have to be applied: 
physical, cyber and people. When we look at the vulnerabilities 
that are represented in those broad domains, we very 
aggressively identify the assets the vulnerabilities 
represented in those assets across each one of those common 
themes, from people, physical, as well as cyber. We put 
programs to be able to remediate and lower those 
vulnerabilities.
    But the output and the measurement of what is being done, 
and to be candid with you, from a very private sector 
perspective, it is not just putting money into the program; it 
is making sure we have the right activities going on that can 
be consistently measurable and consistently applied over time, 
that the outputs can give us good indicators about what is 
being done, and not just what is being done and is not being 
done, but is it being done well enough to address the threat.
    My vision on this, and this is going to take some time 
because the technology does not exist yet, is to create a 
national scorecard that allows us to identify where are we in a 
given sector; how well does it look. Those metrics and that 
quantification of these things, which has never really been 
done before in the security industry, is something with which 
we have been working in the academic and the private sector on 
identifying.
    So to your point, my goals in terms of what we can do with 
this progress and this approach, is precisely to your point: 
identifying the key priorities; where do we need to put the 
funding stream; identifying who is doing what program and well, 
so with our Federal partners in HSPD-7, we are working with OMB 
to ensure that we get the metrics outputs to ensure that if a 
department has X million dollars placed against a specific 
requirement, that they are performing that. And ``performing'' 
does not mean are they spending money on time; ``performing'' 
means are they actually addressing the vulnerabilities and 
reducing vulnerabilities, and is there a measurable way that we 
can identify the outputs to ensure that we get some high degree 
of confidence of how well we are doing our programs.
    So you are precisely on the right track in identifying what 
are the major priorities and challenges here, and that is 
exactly what we are addressing. It is not an overnight process. 
I am very prideful of the fact that what DHS has done over the 
past year has been something that we can measurably identify 
how we have addressed the vulnerabilities. It is more than just 
a few chemical sites. Across all the sectors, we have done a 
great job. The folks working for us, they have really worked 
hard and they are working hard. It is not about DHS. It is 
about working with all of our Federal partners and state and 
local.
    So I think the things that we are doing, we can tell a good 
story. The biggest challenge we have is getting those metrics 
that allow us to in quantifiable terms measure the progress 
over time and identify the funding profile that you and your 
committee is so concerned about. We are doing the right thing 
and we can show what we are doing.
    Mr. Thornberry. I thank the gentleman.
    The gentleman from North Carolina, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    A couple of questions. Mr. Liscouski, I am going to start 
with you because you talked about the risk assessment 
vulnerabilities. Let me ask you one question. You talked 
earlier about coordination with other Federal agencies. What is 
the nature of the coordination between DHS and other Federal 
and state agencies as it relates to developing the national 
plan to deal with the appropriate countermeasures to combat 
agri-terrorism, which deals with our food supply and a host of 
other areas. Can you give us an update on where that is?
    Mr. Liscouski. Yes, sir, I can. Recently, another 
Presidential Directive, HSPD-9 addressed bioterrorism and 
specifically the responsibilities in the agricultural industry 
that needs to be addressed by Agriculture and HHS and others 
that are partnering up in that space. We are coordinating that 
effort again under HSPD-7. I apologize for using these 
different directive numbers, but for critical infrastructure 
protection, to ensure that we have a holistic look on all the 
critical infrastructure sectors.
    So in direct response, I would say that this is an area 
that we really need to give some very sharp focus to in terms 
of not just working with state and locals, but with the Federal 
agencies and ensuring that Agriculture and HHS would have 
respective leads in this space, and have the appropriate 
outreach, the appropriate mechanisms to ensure that the state 
and local governments are doing what they need to be doing, and 
they are facilitating that process.
    Mr. Etheridge. I do not want to interrupt you, but do you 
have a timeline?
    Mr. Liscouski. A timeline for?
    Mr. Etheridge. Completion, or at least a marker of where we 
can work from. This happens to be very important, because it 
fits what you talked about and deals with our food supply, not 
only here, but internationally in what we ship.
    Mr. Liscouski. That specific plan is in process. I cannot 
give you an accurate timeline at this point because that plan 
is in process. I am afraid whatever I tell you today is going 
to be inaccurate.
    Mr. Etheridge. Would you get back to me?
    Mr. Liscouski. I welcome the opportunity.
    Mr. Etheridge. Let me follow that up, because it follows 
that same thinking to some extent. I will not ask that 
question, but I will just put it in so you can follow later, 
because it deals with, several years ago we had a problem with 
our school lunches and the food supply and the problems that 
fell out from that. Let me ask what DHS is doing as it relates 
to, you said earlier, its products, facilities and people. We 
have seen in just the last couple of days what happened in Iraq 
with the bombing that took place there and a number of school 
children were killed. Can you tell me what is being done or 
what coordination is being done as it relates to our schools if 
a terrorist attack should hit?
    Because we are looking at millions and millions of children 
in this country who go to school every day. Many are in 
buildings, but a large number now find themselves in what we 
call makeshift trailers. I hate to call attention to it, but 
there is a tremendous problem because they are isolated. What 
is being done? Has any assessment been done as to the 
comparability of protection within a brick and mortar building, 
to students who happen to find themselves, along with staff, in 
an isolated makeshift structure?
    Mr. Liscouski. Yes, sir. I can address that specifically. 
We have been working with the Department of Education, which as 
you know has a significant outreach capability broadly across 
the United States in K-12 as well as the university system. We 
met recently with Under Secretary McPherson and Deputy Under 
Secretary Price to incorporate them into our planning for HSPD-
7, to directly ask them for their plan. In fact, we are working 
very collaboratively with them.
    As you know, the education system is not identified as one 
of the critical infrastructure components of the Homeland 
Security Act, but we have the latitude of identifying other 
sectors as necessary. That sector is being addressed both 
directly and indirectly through my office's Soft Targets 
Branch. We regularly look at soft targets, which schools are 
one of, to address those specific types of requirements.
    I cannot tell you specifically if we have looked at the 
analysis in the school environment of the impact of a trailer 
versus brick and mortar. I know we have done that in others.
    Mr. Etheridge. Would you follow up on that?
    Mr. Liscouski. I certainly would, sir.
    Mr. Etheridge. I appreciate it.
    I know my time is almost up, but Mr. Newstrom, I have one 
for you. As Virginia's Chief Information Officer, what specific 
support would you expect from DHS or other Federal agencies, 
for that matter, if you computer system was attacked and was 
down for more than several days, and you were out of business, 
knowing that you have to have an off-site facility, but let's 
say it was damaged and out of space. Do you think the Federal 
Government could give you the expectations that you have? If 
so, what would you like to see us do?
    Mr. Newstrom. I am not sure that we look toward the Federal 
Government in that specific scenario. We have established 
backup plans. We have established backup facilities. We have 
been redundant in those facilities and those plans. We work on 
and practice those plans. We also go to the private sector to 
ensure that we have not only internal Commonwealth resources 
that are backups and redundancies, we also have backup with the 
private sector.
    From a Federal Government perspective, what I would see if 
there is a catastrophic outage in a region of the country. For 
instance, if there is an electrical outage; if there is a major 
telecom outage; I would ask that our resources work together 
very, very closely on that. But on the normal outages that you 
described, I think it is our responsibility to address those.
    Mr. Etheridge. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Thornberry. I thank the gentleman.
    The Gentlelady from the Virgin Islands, Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I want to welcome our witnesses this morning. I have a 
concern, as I always do, about where health fits into the 
picture. My first question would go to Mr. Liscouski. We had a 
hearing or a briefing about a month ago on ISACs. At that time, 
health was not established. In the GAO report which we will 
hear about in a little while, health is not listed. I am 
assuming that is because it is not established.
    Where are we? Is health not a priority in this area? Has 
something happened between the last briefing and today?
    Mr. Liscouski. Yes, ma'am. I think the ongoing work that is 
in progress there is that we have been working with the general 
health sector, both within HHS and with the other more diverse 
components, to establish their ISAC. It is a work in progress. 
It has not been listed by GAO, nor is it on our list because it 
is a work in progress. We do not believe we have consensus 
around who establishes what. I recall from my notes, and 
forgive me, I am not going to go through them, but I believe, 
as you well know, it is one of the more diverse communities in 
which to work. One of the challenges is establishing leadership 
in that community within one particular organization for the 
ISAC.
    My sense is, and I would be happy to correct this later in 
subsequent research to get back to you in writing, but my sense 
is because it is so diverse we may wind up creating many sub-
components of the ISAC, which may be aggregated up into one 
larger health ISAC. It is clearly on our radar screen as a 
priority, ma'am. So I just indulge you to not make a judgment 
that it is not a priority for us. It is.
    Mrs. Christensen. OK. Is there lead responsibility in the 
Department? Has that been identified? Or the divisional 
responsibility within DHS?
    Mr. Liscouski. The Infrastructure Coordination Division, of 
course, has the coordination requirement. Under HSPD-7, the 
sector-specific agency is HHS. Correct me if I am wrong on 
that. I should know this off-hand. But there is a sector-
specific agency established under HSPD-7 for the health sector. 
We are working with them to ensure that we have the sector 
aligned and coordinated to establish the ISAC.
    So to answer your question, yes, ma'am, there is a sector-
specific agency responsibility for health.
    Mrs. Christensen. OK. Mr. Newstrom, is health fully 
integrated into NASCIO's program within the State of Virginia?
    Mr. Newstrom. Health?
    Mrs. Christensen. The health sector.
    Mr. Newstrom. It is fully coordinated and integrated right 
now. We are still working with HHS particularly on some of the 
communications capabilities through the states. They have a 
very good program within their sectors, but it is very 
programmatic. We are encouraging HHS particularly to focus 
through NCSD to channel their communications to the states. Our 
entire issue is fusing the information, rather than the 
stovepipes that Mr. Liscouski has talked about.
    Mrs. Christensen. OK.
    Mr. Liscouski, you have said that there is a great reliance 
on the private sector in the development of the assessments, 
and 85 percent of the assets are owned by them. Are there any 
inherent conflicts between the objectives of the private sector 
and the objectives of government and the Department that have 
been identified, that had to be resolved as this process has 
been developed? And how did you resolve them?
    Mr. Liscouski. No, ma'am. I think the biggest challenge we 
have had is on the information-sharing side, with the 
vulnerability assessments back from the private sector and back 
into DHS. That is what is being addressed through the Protected 
Critical Infrastructure Information Act, the implementation of 
that.
    As I pointed out earlier, to make a general statement, and 
you can always find exceptions to this, but the private sector 
is stepping up to the plate of their responsibilities to ensure 
that they understand what is vulnerable for them and in sharing 
that with state and local governments, those who are 
responsible for protecting, and ultimately with DHS. So again, 
just to reiterate, I believe the one challenge which I think we 
are addressing is the information sharing between the private 
sector and DHS.
    Mrs. Christensen. OK. My last question, and you have 
probably been asked this both at the budget hearings and in 
several different ways here today, but you said you do not have 
sufficient bandwidth to do the assessment. That is why the 
private sector is really responsible for doing that and getting 
that information to you. Other testimony says that DHS has 
limited resources. We have seen very close progress. A lot of 
the questions have been around when is the assessment going to 
be in place. You have said the synchronizing and harmonizing of 
disparate parts is something that is still ongoing, and getting 
a complete situational awareness picture is something that you 
are still working on.
    The Department has the primary responsibility for the 
protection of our critical infrastructure. I am just concerned 
that if these limitations exist and that we are not getting the 
full picture of what you really need in your budget to ensure 
that you are able to carry out the mandate of your directive 
and the Department.
    Mr. Liscouski. No, ma'am. I need to correct your statement. 
I do not mean to be presumptuous, but the comment I made about 
sufficient bandwidth is not relevant to do we have the 
capability and the necessary resources. We do. You could give 
me more money. It is not a money issue. What it is is that the 
information that has to be collected is not about what DHS can 
do. Nor would I suggest to you that this is a responsible role 
for the Federal Government to do it all. The Federal 
Government, and this is a national problem, you would not 
create a mechanism as big as you would need to collect all the 
information you want.
    So the appropriate approach is the one that was created 
with the Department of Homeland Security, which is clearly a 
coordination-collaborative approach with our state and local 
partners, with other Federal agencies to ensure that we can get 
them to do what they have to do. That is precisely what we are 
doing. It is leverage. It is not about bandwidth, necessarily. 
What I meant about bandwidth is all the things that would scope 
into that, time, and the enormity of the complexity of the 
task.
    This is not, do we need to have more resources at the 
Federal Government level to do all this work. This is about 
working with our partners and our stakeholders to get them to 
do what they need to be doing. That is the essence of this. At 
the end of the day, the questions and the concerns we need to 
be addressing here are developing and creating consistent 
sustainable programs which are effective and measurable over 
time, that can answer the big questions of, are we protecting 
what we need to be protecting? And are we really doing it well?
    That is the process we are developing. Again, level-setting 
the expectations here, this is not going to happen overnight. 
If I had a magic wand, if you all could tell me if there is one 
thing you could give to me that would allow me to do my job 
better, it would have to be a want that I could just broadly 
push across the United States and say, it's protected. But it 
is a process. It is a process because our economic system and 
everything we have built in this country is predicated on being 
open. Our openness which is our greatest strength is our single 
biggest vulnerability.
    So it is an enormous thing to address. It is not about what 
DHS can do. It is about mobilizing the American public. It is 
about engaging with the private sector and the state and local 
governments to ensure that we all know what we have to do and 
we can measure it in a way that we can tell with confidence 
that we are doing the right thing.
    So again, I just want to correct a misperception I have 
created, which is not about do I have enough resources. It is 
about we all have to mobilize at all the levels of Federal and 
state and local governments to do the right thing.
    Mr. Thornberry. I thank the gentlelady.
    The new member of the committee, the gentleman from 
Kentucky. Welcome. You are recognized for 5 minutes.
    Mr. Chandler. Thank you, Mr. Chairman. It is nice to be 
here.
    Mr. Liscouski, thank you for your testimony. Thank you for 
being here today. I am interested in some information regarding 
our efforts to protect and secure critical Federal facilities. 
For the past several decades in Central Kentucky, our citizens 
have lived next to a potentially dangerous chemical weapons 
stockpile. This is the Bluegrass Army Depot near Richmond, 
Kentucky. It contains well over 500 tons of chemical weapons, 
nerve gas, mustard gas, that sort of thing.
    In 1988, in its environmental impact statement, the 
Department of the Army identified that in a worst-case 
scenario, an incident that would occur at this depot could 
result in plus or minus 15,000 fatalities in our area. So you 
can imagine that this is something of great concern to us.
    What I would like to know is what type of information-
sharing activities are occurring right now between the 
Department of Homeland Security, the Department of Defense, 
state and local governments, first responders, all those folks, 
to ensure that we prevent and are prepared to respond to an 
accident or a deliberate attack on facilities like this one, 
Federal critical infrastructures.
    Mr. Liscouski. Sir, you pointed out a key stakeholder in 
your question, and it is the Department of Defense which has 
responsibility for the defense industrial base and the supply 
chain that feeds that, and that is clearly a component of that. 
But we partner up very closely with DOD. They have a very 
robust capability on critical infrastructure as it relates to 
their facilities. Their partnership with state and local 
governments is something we have integrated our efforts with, 
as well as our response and recovery efforts.
    I can speak to them at a top level. As you well know, that 
is outside my directorate, but working with state and local 
first responders under the directorate for EP &R, I do not know 
if exercises have been held directly in that jurisdiction, but 
I can get back to you on that.
    Mr. Chandler. If you would, please do. That was another one 
of my questions, whether exercises would be held. I do not 
believe that they have been. I am very curious to know whether 
there are plans in the works to hold exercises to make sure 
that our folks are ready.
    Mr. Liscouski. Yes, sir. I would be happy to get back to 
you on that.
    Mr. Chandler. I appreciate that very much. You all are 
working with the Department of Defense, though, on these sorts 
of issues; working very closely, but as I understand it, you 
are not aware of precisely what has been going on.
    Mr. Liscouski. At that particular site, sir, I do not know. 
I cannot tell you that specifically. I would be happy to get 
back to you on that one.
    Mr. Chandler. OK. If I may just add one other question. You 
may want to get back to me on this as well. If there was an 
attack on that depot, we have already in place, and this is a 
team that pre-dated the creation of the Department of Homeland 
Security. It is the 41st Weapons of Mass Destruction Civil 
Support Team. It is based in Louisville, Kentucky. It is 
currently responsible for responding to a disaster at that 
facility. I am interested in knowing whether DHS has gone back 
to that team and checked on working out some sort of 
information-sharing arrangement with them.
    Mr. Liscouski. Sir, I will have to get back to you on that.
    Mr. Chandler. OK.
    Mr. Liscouski. Thank you.
    Mr. Chandler. Thank you very much.
    Mr. Thornberry. I thank the gentleman.
    The gentleman from Maryland.
    Mr. Cardin. Thank you very much, Mr. Chairman.
    Let me thank both our witnesses for their testimony here 
today. I find it very informative and very helpful.
    I want to talk about the National Capital Region for one 
moment, if I might. Tomorrow, the House of Representatives is 
going to be talking about the continuity of the House of 
Representatives in the event of an attack against us. I have 
many concerns about how well we are prepared in the National 
Capital Region itself. I know that there are committees that 
have worked on it. I know there is cooperation between Maryland 
and Virginia and the District of Columbia and the Federal 
Government. I am concerned somewhat that I believe the region 
that has been included in the studies are somewhat small, with 
a restricted number of counties within Maryland and Virginia. I 
represent Annapolis. I represent Baltimore. I know that there 
is an episode that occurs at a chemical plant in Baltimore and 
it will have an impact on the National Capital Region. I know 
that on any given day trying to get out of the nation's capital 
is a challenge. If we have a national emergency, it is going to 
be impossible.
    I just want to get some assurances from you that clearly 
progress is being made here as to how we can prepared. We know 
that this is the seat of government. We know that it has been a 
target of terrorist attacks. We know the tremendous interests 
of this area in disrupting our government. So can you just 
share with us as to what special considerations are being made 
in regard to the National Capital Region and how it is 
affecting the surrounding jurisdictions beyond just the 
immediate counties in Virginia and Maryland that are directly 
working with you.
    Mr. Liscouski. Sir, I appreciate your question. I am going 
to have to defer to Under Secretary Mike Brown who is 
responsible for the response requirements through the NCR. I 
can tell you just based upon my level of understanding and 
engaging on the critical infrastructure protection side, that I 
have knowledge that there are regular exercises being conducted 
throughout this region, which address some of the concerns you 
have. But to give you more confidence, I just request to defer 
that to Under Secretary Brown for a response.
    Mr. Cardin. Let me bring you into this discussion, because 
you are making assessments of the nation's infrastructure 
sensitivities and priorities. I would just urge you that the 
Federal facilities located in the National Capital Region and 
surrounding areas are particularly vulnerable. The stress on 
local governments is particularly great. The chemical plants in 
Baltimore present an extra challenge. All chemical plants 
present challenges. The fact that it is located close to the 
nation's capital makes it an even more sensitive target. The 
Federal facilities located in Annapolis or located along I-95 
close to the nation's capital are particularly vulnerable 
because of location.
    As you are making your national needs assessment, is 
location, those types of considerations, going into the 
equation as to the type of fences that we need to put in place?
    Mr. Liscouski. Yes, sir, it is. We have been doing a lot of 
work, as you are probably well aware, with state and locals 
here in the National Capital Region, doing the assessments for 
the various infrastructure components to include the Federal 
facilities. We have I think a robust capability there in 
understanding not just what we have to do to protect, but the 
actual protection of those facilities has been equally as 
robust.
    So yes, sir, to answer your question, we are working very 
closely with the state and locals. We understand that there are 
some limitations. We are trying to supplant those limitations 
through the ODP grant process, but we are working very closely 
with them. So from a protection standpoint, we have very good 
clarity around the vulnerabilities that are here, as well as 
the protection requirements that are needed to mitigate those 
vulnerabilities.
    Mr. Cardin. Did you want to respond?
    Mr. Newstrom. Congressman, in my written remarks I address 
the NCR specifically. In addition to what DHS is doing, the 
Governors of Virginia and Maryland and the Mayor of the 
District of Columbia have met together on this specific 
subject. In fact, because of funding through and by DHS, we 
have an initiative called the Urban Area Security Initiative, 
which specifically focuses on the National Capital Region and 
first responders. We have come a long way since 9-11.
    Mr. Cardin. I was just going to point out that the concern 
we have with that is it s the restricted jurisdictions that can 
participate within Maryland and Virginia. When you look at 
trying to evacuate people from the nation's capital, you need 
to look beyond just the immediate counties in Maryland and 
Virginia. As you look at protecting infrastructures, you need 
to also look beyond those counties.
    If you live in Anne Arundel County, Maryland, where many 
people commute into Washington, D.C. or you live in Frederick 
County, you are very much impacted also. We are concerned that 
there is a limited interest and it needs to be expanded.
    Let me let you continue on that.
    Mr. Newstrom. Congressman, you are absolutely right. I 
could not agree with you more. In fact, the initial steps were 
originally around communications and the lack of ability by 
policing entities from the different jurisdictions to be able 
to communicate during and after 9-11, including the military. 
So that was addressed very, very early. But around 
transportation and the issues that you bring up, we are still 
in the infancy stages of trying to define that.
    Mr. Cardin. I would just urge you to give it a higher 
priority.
    Thank you, Mr. Chairman.
    Mr. Newstrom. Yes, sir.
    Mr. Thornberry. I thank the gentleman.
    The gentleman from Washington.
    Mr. Dicks. Thank you.
    Mr. Liscouski, I am very concerned about something. It is 
my understanding that your directorate has compiled a critical 
asset target list for each state, and forwarded that list to 
each state's primary point of contact to begin planning 
security enhancement activities. I have reviewed this list of 
critical assets in Washington State and I am deeply concerned 
by several obvious omissions that fit well within the criteria 
presented.
    I have discussed this issue with my state's homeland 
security adviser, who has told me that there was very little 
opportunity for comments and revisions coming from the state 
and local level. It is absolutely imperative that a list of 
critical infrastructure be developed. I could do this. I think 
any member of Congress could sit down in about 10 minutes in 
their own district and write down a list of critical 
infrastructure. If you have 170 people down there, I cannot 
understand why it is taking so long to get this job done. I 
worry about the gaps.
    When you have a list that does not. . .you have the Seahawk 
Stadium, you have the Husky Stadium, but you do not have Safeco 
Field, the Tacoma Dome, the Port of Seattle, the Port of 
Tacoma, Grand Coulee Dam. . .talk about a national icon. . .the 
Boeing Company and Microsoft. None of them are on the list, 
including the Puget Sound Naval Shipyard in my hometown of 
Bremerton, Washington, which overhauls and repairs every major 
nuclear ship on the West Coast; the Trident Submarine base, we 
have nuclear missiles and nuclear weapons.
    What is going on here? This list that I saw is the most 
pathetic exercise I have ever seen since I have been up here. 
There are a lot of pathetic things I have seen in 28 years in 
Congress, but this is the worst I have ever seen. I could have 
done this myself and done a better job. I do not understand who 
is doing this. Who are they talking to? This is serious. It is 
not getting done and I am very concerned about it. Can you give 
me some assurance that we are going to get this thing 
straightened out, that somebody will talk to the people in the 
State of Washington? To General Lowenberg who is the Governor's 
assistant, and get a credible list of things put on this thing? 
Why is this not happening?
    Mr. Liscouski. Thank you, Mr. Dicks. I am a little 
surprised at the characterization from the homeland security 
adviser that he has not been contacted or has not had any 
input. In fact, the purpose of sharing that list is to solicit 
the input.
    Mr. Dicks. But the list has already been put out. Here it 
is. They should have consulted with them before they put out 
the list.
    Mr. Liscouski. I will certainly get back to you to find out 
if they had or had not been consulted.
    Mr. Dicks. I have the list right here. None of these things 
are on there. This is like the crown jewels of Washington 
State. Every one of them is missing from this list. I just 
cannot believe that this is happening.
    Mr. Liscouski. Mr. Dicks, I just want to caution. We 
typically do not publicly disclose the assets on that list. So 
to talk about it in any degree of fidelity here, I would 
suggest--.
    Mr. Dicks. None of them are on there, so I have not 
discussed anything that is on there.
    Mr. Liscouski. To my point, I would be happy to discuss 
with you in a separate setting--.
    Mr. Dicks. To discuss the things that are not on there?
    Mr. Liscouski. Sir, to my point, I would be happy to 
discuss with you in a private setting where we can talk about 
specifically what is on the list and what is not on the list, 
but I do not think this is the appropriate forum right now.
    Mr. Dicks. Can you answer this question? Let's go to the 
process. Why is this thing so screwed up? With all due respect, 
I do not get any sense of urgency here.
    Mr. Liscouski. There is a significant sense of urgency, 
sir. Again, without commenting on the specifics of that list, I 
will go back and review the process and I would be happy to sit 
down with you and talk to you about how that list was 
developed. If there are gaps, we would be happy to correct 
them. The mandate is for my folks to make sure we absolutely 
engage with all the respective stakeholders at the state and 
local sectors to ensure we have it right. I will be happy to 
review it and get back to you, sir.
    Mr. Camp. Would the gentleman yield just for a brief 
moment?
    Mr. Dicks. Yes, I yield.
    Mr. Camp. The subcommittee did hold a classified briefing 
where the Secretary did bring the full list. It was available 
for all members to review who attended that briefing. I would 
be happy to work with you to try to make sure so that not only 
there, but other places--.
    Mr. Dicks. The list that we have right here, this is not--.
    Mr. Camp. It is classified, so we did not take any paper 
out of the room, but I know that Ms. Sanchez was there and it 
might have been difficult for other members' schedules to 
attend that particular classified briefing. I know the Chairman 
was there and others. But we had an opportunity to review this 
list and we all looked at various assets from our states and 
made comments.
    Mr. Dicks. Apparently we were only given 24 hours notice of 
that, but I appreciate the fact that you did it. I do not want 
to be critical of that.
    Mr. Camp. We did have more notice than that because we 
worked on it for a long time to get it put together. So I would 
dispute that it was only 24 hours notice, frankly.
    Mr. Dicks. That is the actual time of the meeting.
    Mr. Camp. Yes.
    Ms. Sanchez. Would the gentleman yield?
    Mr. Dicks. Yes, I yield. I am just worried about this.
    Mr. Camp. We did have an opportunity to look at that.
    That is just my point. Thank you.
    Mr. Dicks. OK. I yield.
    Ms. Sanchez. We are trying, I believe, to set up another 
meeting with more notice to do the same thing. It is a 
classified list. There are things that are omitted from that 
list, even from my own district. You only get to look at it 
when you are in there, but hopefully you can attend the 
meeting; you can take a look at what is really on the list. I 
do not know if that list is what is the list that we took a 
look at when we were in the private meeting.
    Mr. Dicks. Maybe there is a separate list that we were not 
told about. This is what I was presented. The reason I am 
concerned is there are a lot of things that should be on that 
list that are not on there.
    Mr. Liscouski. Sir, maybe if I can just have one final 
comment, without drawing this out. The states were required to 
submit their list, sir, so I suspect if we did not receive 
their input, and again I will go back to our group to address 
this, but there are a couple of different reasons as to why the 
list you may have, it may be old or out of date, I am not quite 
sure what, but we did not do anything without the state's 
input, sir.
    Mr. Thornberry. Does the gentleman yield back?
    Mr. Dicks. Just for one second. The list we have is the 
list that was given to the Adjutant General. He was quite 
concerned about it and made that clear and made it clear to us, 
the members of the delegation for the State of Washington, that 
he was quite upset about it. Washington State has been as 
forward-leaning as any state that I know of. They have done a 
complete statewide plan. In that plan, it talked about all 
these other issues that I mentioned that are not on this list. 
So to me, I just hope we can get this straightened out.
    Mr. Thornberry. I thank the gentleman. This is obviously 
not an issue before my subcommittee. It is Mr. Camp's 
subcommittee. When we are talking about information sharing, if 
there are classified lists that are floating around in a way 
that classified information is not supposed to be handled, I am 
a little concerned about that.
    Mr. Camp. Would the Chairman yield?
    Mr. Thornberry. Sure.
    Mr. Camp. I would be very concerned if the Adjutant General 
is sharing that list in that format in an unclassified way, 
frankly. That is not appropriate. So if that is the way that 
information is getting out, I would question its accuracy and I 
would certainly question the process.
    Mr. Dicks. It was not presented to him in a classified 
format.
    Mr. Camp. It is probably not the correct list. So I think 
what we need to do is have another classified briefing.
    Mr. Dicks. We have to sort this out. I will glad to 
apologize to anyone if this is not the list, because when I saw 
this list I frankly was outraged, as you can tell.
    Mr. Camp. The purpose of the meeting was to make sure that 
members did have an opportunity to review lists from their 
states, because we do think that it was in a classified setting 
inside the skiff so that it was a confidential meeting. I will 
be glad to work with the gentleman to try to set up an 
opportunity.
    Mr. Dicks. Let me just for the record, the person who 
presented this list to the state was James McDonnell, 
Protective Security Division, U.S. Department of Homeland 
Security.
    Mr. Camp. It may not be a complete listing of all of the 
assets on the classified list. We will get to the bottom of it.
    Thank you, Mr. Chairman.
    Mr. Dicks. I appreciate the gentleman's help.
    Mr. Thornberry. We are ready to move to the second panel. 
Does the gentlelady from Texas have questions she would like to 
ask of this panel?
    Ms. Jackson-Lee. Yes, I do.
    Mr. Thornberry. The gentlelady is recognized.
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman. I was 
in a hearing with both the Chairpersons and the Chairman of the 
full committee that I hope we will have, and that is with 
Secretary Powell and Governor Ridge on the request for an 
extension of the biometric passport. So I apologize to the 
witnesses for my delay, but let me just ask one pointed 
question to the Assistant Secretary.
    Just for your information, I know many of us come from 
areas that have their own critical infrastructure, but coming 
from Houston, Texas obviously the refineries and the chemical 
plants are very well known. In fact, in the last four to six 
weeks, we had yet another explosion in the area that impacted 
neighborhoods and impacted people. We are grateful that it was 
a technical or an infraction that had nothing to do with 
terrorism, but you can imagine the sensitivity to this issue.
    So let me just cite specifically what we seek. I think that 
you may be aware of a recent news program that highlighted the 
conditions of chemical plants, and I might say the outrageous 
condition of chemical plants, open gates, lack of guards, 
dilapidated fences, all allegedly protecting chemicals that 
could potentially kill or injure tens of thousands or even 
millions of people nearby.
    We know the ISACs are working on communication. I 
understand that DHS is developing a best practices, but it is 
hard to imagine that every plant manager does not already know 
or that we cannot simply get out a manifesto to every plant 
manager by way of inventorying all of these plants wherever 
they might be, that closing the gates around tanks of chlorine 
gas a mile from a school is a best practice.
    So my question is, how can we secure the homeland when even 
these simple tasks are not being done? One, has your particular 
area done the risk assessment that many of us have been calling 
on for a long, long, long time? Have you done that in the 
context of getting out the simple to-dos, such as closing 
fences, fixing gaping holes in fences, providing some kind of 
lock system, trained security personnel? And do we have a 
manifesto of sorts, a document that can easily be understood by 
the myriad of chemical operations around the country?
    I can assure you that we in Houston and the parameters of 
our area have been faced with explosions throughout our 
lifetimes. We have been fortunate that it has not been the 
massive catastrophes that a terrorist act could bring about, 
but we have lost lives. So I am very concerned, one, that we 
still sit here in 2004 without a risk assessment. I would ask 
you if you could respond to that, as well as any simple tasks 
that have been given to these operators of these plants that 
they could be implementing as we speak.
    I thank the distinguished Chairman.
    Mr. Liscouski. Yes, ma'am. Thank you. I addressed this 
earlier and I would be more than happy to do it again when we 
talk about the national assessment.
    Ms. Jackson-Lee. I thank you for your indulgence.
    Mr. Liscouski. This notion of a national assessment is 
something we have discussed many times. It is ongoing. We are 
making significant progress in compiling our national asset 
database. As I mentioned earlier, when DHS was first created 
back in March of 2003, we had started off with a list of about 
160 critical sites in the United States that we thought were 
the high priority targets. We quickly grew that to 1,700. Out 
of a list of 33,000 assets that we have currently identified, 
we are still getting information back from the state and locals 
about what their priorities are and what should be on that 
list. That list is growing.
    We are prioritizing those activities. As it specifically 
relates to the chemical sector, we have identified out of the 
4,012 sites around the United States that we believe are those 
that require the top tier. Not top tier, but of the 4,000 sites 
we have identified, this year alone we are addressing the 360 
sites around the United States that need to address their 
security. We are addressing that in a variety of ways.
    First of all, let me just qualify. The issue here is not 
just a private sector problem, but this is a state and local 
government and private sector problem. It needs to be a totally 
integrated plan. We are working with state and local 
authorities, as well as the private sector to put out best 
practices. To that end, we have done a variety of things.
    We have put out common vulnerability assessments and shared 
those with best practices perspectives.
    Ms. Jackson-Lee. Mr. Secretary, may I do this, because as 
you indicated I came in and you had already indicated that. Let 
me just be pointed.
    Mr. Liscouski. Sure.
    Ms. Jackson-Lee. Have you in any way secured the transcript 
of that program, 60 Minutes? Have you visited any of those 
plants, because they seem to be the worst-case circumstances. 
If I may make a comparison, though it is probably an unreal 
comparison, over the last 24 hours we had a number of bombings 
at Iraqi police stations. That seems to be a notable target. 
Maybe our allies and Coalition forces should be having an 
inventory of police stations, knowing that they are targets.
    We know that chemical plants can be targets. There are 
atrocious activities going on, maybe for lack of direction. 
Have you gone out into the field and visited these plants? When 
you say ``ongoing risk assessment,'' I can only say to you that 
``ongoing'' is positive to the effect that we always believe we 
should continue to learn, but it is not positive from the 
perspective of the crisis of terrorism in this country. So when 
will we finish the risk assessment? Have you been to these 
plants and given them any direction?
    Mr. Liscouski. Yes, ma'am, we have.
    Ms. Jackson-Lee. I am sorry?
    Mr. Liscouski. Yes, ma'am, we have been to the plants. We 
have been to plants specifically in your jurisdiction, in fact, 
and I would be happy to share those details with you in a 
different venue other than this. We have been very aggressive 
about the prioritization of chemical plants. It is a top 
priority for us. We recognize the vulnerabilities. We are 
working with the industries, state and local governments, as I 
pointed out. We have buffer zone protection plants in place. We 
have shared best practices for vulnerability assessments. We 
have shared common characteristics of terrorist operational 
patterns with both the industry and state and local 
governments.
    So I am quite confident that we are addressing it. To your 
point, we are in a continuous improvement process. 
Unfortunately, those remarks get taken out of place. You always 
ask me, am I satisfied? I am never satisfied. I think it is one 
of the reasons I got this job. It is because you never want to 
be satisfied with where you were. We never want to become 
complacent.
    So we are in a continuous improvement mode. Will we ever be 
finished? We are going to continuously improve our ability to 
provide protection in this country of ours, because this is an 
incredibly complex problem. It is not just about what the 
plants are doing. It is how are the groups themselves evolving 
their techniques and their capabilities? So this is a multi-
dimensional process. This is not just one which becomes static 
to say, put up a 12-foot-high fence and you have security, 
because we know that terrorists can get a 15-foot-high ladder.
    So we are continuously looking at what we need to be doing 
here to improve security. I know you are very sensitive to 
that. I appreciate your comments. I would be happy to share 
with you with more fidelity about what we are doing. I know we 
have done that many times with the staff up here. If you have 
not had the benefit of a briefing, I would offer that to you.
    Ms. Jackson-Lee. Mr. Chairman, I thank you very much. I 
will accept your offer, Mr. Secretary. I would like to talk 
specifically about the region and what you have done in that 
area. I thank you very much.
    Mr. Liscouski. Terrific. Thank you.
    Mr. Thornberry. I thank the gentlelady. I thank both of our 
witnesses.
    I am going to submit my questions in writing to the 
witnesses. Mr. Liscouski, if we could have a similar agreement 
with you as we had before, and that is a real effort to try to 
get answers to written questions in two weeks. I understand it 
is not completely within your control, but if you can help push 
on your end, I think it will help relations with all members. 
We will also try to limit the number of questions.
    Secretary Newstrom, let me also encourage you on behalf of 
your organization to continue to discuss with us not just how 
much we have improved, but what yet needs to be improving, 
because it is only by identifying those areas that we still 
need to make progress on, giving little pushes here and there, 
that we can, as Mr. Liscouski said, though we will never be 
satisfied, we can continue to improve. I think you hit on some 
key points in your testimony.
    With that, let me thank both these witnesses. You are both 
excused. We will go ahead and bring up the next witnesses. We 
should have votes starting soon, but we will press on until the 
bells make us recess.
    So thank you both. You are both excused.
    Mr. Newstrom. Thank you.
    Mr. Thornberry. Let me thank the members of the second 
panel for your patience. Obviously, there is a lot of interest 
in this issue. I have no doubt we will need to recess for votes 
here in a moment and come back. We will do that.
    As you all are getting situated, I will introduce our next 
panel, which includes Mr. Robert Dacey, director, information 
security issues for the General Accounting Office; our former 
colleague, Hon. Dave McCurdy, executive director of Internet 
Security Alliance; and Ms. Diane VanDe Hei, vice chair, 
Information Sharing and Analysis Center Council.
    Mr. Dacey, I think you are first. Would you like to submit 
a summary of your statement before we go and vote? If you could 
do that within 5 or 6 minutes, then we will go ahead and do 
that, and then we will have to come back for the other 
witnesses. Thank you again for being here, and you are 
recognized.

   STATEMENT OF ROBERT DACEY, DIRECTOR, INFORMATION SECURITY 
               ISSUES, GENERAL ACCOUNTING OFFICE

    Mr. Dacey. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today to discuss the 
status of ISACs, including the initial results of our ongoing 
review which we are performing at the request of the 
subcommittees. As you requested, I will briefly summarize my 
written statement.
    Beginning with PDD-63, Federal policy has encouraged the 
voluntary creation of ISACs as key information-sharing 
mechanisms for the private sector entities and state and local 
governments that own and operate most of the nation's critical 
infrastructures, and for the Federal Government. Further, 
Federal policy established specific infrastructure protection 
responsibilities for the Department of Homeland Security and 
other Federal agencies.
    Although their missions are similar, the current ISACs were 
established and developed based upon the unique characteristics 
and needs of their individual sectors. Consequently, they 
operate under different management and operational structures 
and have different operational capabilities, which are 
summarized in our written statement and include, number one, 
various business models such as private entities, parts of 
associations, or a partnership with the Federal Government. 
Many also use contractors to support their operations. They 
also vary in the nature of the hazards that are covered, such 
as cyber, physical or all hazards, which would also include 
natural events.
    The second major point is the various funding mechanisms 
that exist. They may be funded through special fee-for-service 
activities including tiered levels, association sponsorship, 
Federal grants, or voluntary or in-kind operations by the 
participants.
    The third major difference is the models or methods by 
which they share information. While most have electronic 
information shared via email and Web sites, some of which are 
secured, others have regular conference calls for their 
members, and some have established facilities for quickly 
organizing crisis conference discussions.
    DHS and the sector-specific Federal agencies have 
undertaken a number of efforts to support the ISACs and to 
build the public-private partnership called for in Federal CIB 
policy. Mr. Liscouski earlier today discussed at some great 
length the efforts being taken by the Department.
    In addition, the sector-specific agencies are also taking 
actions, including funding, to help ISACs increase their 
memberships and improve their analytical and communications 
capabilities. Nonetheless, according to ISAC representatives 
and the ISAC Council which is also represented on this panel, a 
number of challenges remain to their successful establishment, 
operation and partnership with DHS and other Federal agencies. 
These challenges include increasing the percentage of sector 
entities that are members of the ISACs; two, building trusted 
relationships and processes to facilitate information sharing; 
three, overcoming barriers to information sharing; four, 
clarifying roles and responsibilities of the various 
governmental and private sector entities involved in protecting 
our critical infrastructures; next, funding ISAC operations and 
activities; and utilizing sector expertise.
    According to a DHS official, these issues are being 
considered by the Department and should be clarified with the 
development of a plan that will lay out the current 
relationships, goals for improving them, and methods for 
measuring progress. To help ensure that a comprehensive and 
trusted information-sharing process is established, it will be 
important to consider input from all appropriate stakeholders 
and to agree upon the respective roles, responsibilities, 
relationships and expectations of the parties.
    Mr. Chairman, this concludes my statement. I will be 
pleased to answer any questions that you or other members of 
the subcommittee may have.
    [The statement of Mr. Dacey follows:]

                 Prepared Statement of Robert F. Dacey

                United States Gengeral Accounting Office

                   CRITICAL INFRASTRUCTURE PROTECTION

 Establishing Effective Information Sharing with Infrastructure Sectors

    Messrs. Chairmen and Members of the Subcommittees:
    I am pleased to be here today to discuss the status of private-
sector information sharing and analysis centers (ISACs) and their 
efforts to help protect our nation's critical infrastructures. Critical 
infrastructure protection (CIP) activities called for in federal policy 
and law are intended to enhance the security of cyber and physical, 
public and private infrastructures that are essential to national 
security, national economic security, or national public health and 
safety. Beginning with Presidential Decision Directive 63 (PDD 63) 
issued in May 1998, federal policy has encouraged the voluntary 
creation of ISACs to facilitate private-sector participation and serve 
as mechanisms for gathering, analyzing, and appropriately sanitizing 
and disseminating information to and from infrastructure sectors and 
the federal government. Subsequent federal CIP policy, including 
several national strategies, continued to emphasize the importance of 
the ISACs and their information-sharing functions.\1\ Further, CIP 
policy has established specific responsibilities for the Department of 
Homeland Security (DHS) and other federal agencies with respect to 
public-private collaboration to help protect private infrastructure 
sectors.
---------------------------------------------------------------------------
    \1\ The White House, The National Strategy to Secure Cyberspace 
(Washington, D.C.: February 2003); The National Strategy for the 
Physical Protection of Critical Infrastructures and Key Assets 
(Washington, D.C.: February 2003); and Homeland Security Presidential 
Directive 7, Critical Infrastructure Identification, Prioritization, 
and Protection (Washington, D.C.: Dec. 17, 2003).
---------------------------------------------------------------------------
    In my testimony today, I will discuss the management and 
operational structures used by the ISACs, including their estimated 
sector participation, business and funding models, and information 
sharing and analysis mechanisms. I will then discuss activities by DHS 
and other federal agencies with responsibilities for specific 
infrastructure sectors to interact and support the ISACs. Lastly, I 
will discuss some of the ISAC identified challenges to and successful 
practices for their establishment, operation, and partnership with the 
federal government.
    As agreed, this testimony includes initial results of our ongoing 
analysis of private-sector ISACs, which was requested by your 
subcommittees. In conducting this work, we contacted officials for the 
15 different ISAC organizations that had been established at the time 
of our review: Chemical, Electricity, Energy, Emergency Management and 
Response, Financial Services, Food, Information Technology, Multi-
State, Public Transit, Real Estate, Research and Education, Surface 
Transportation, Telecommunications, Highway, and Water. Through 
structured interviews with these officials, we obtained and analyzed 
information to describe the ISACs' current organization and operational 
models, funding mechanisms, sector representation and membership 
criteria, as well as their challenges and successful practices in 
establishing effective information-sharing relationships within their 
sectors and with the federal government. We also contacted officials of 
the Healthcare Sector Coordinating Council to discuss their efforts to 
establish an ISAC for the healthcare sector. Further, we contacted 
officials of the ISAC Council, which was created by 11 ISACs to address 
common issues, and obtained and analyzed its series of white papers on 
a range of ISAC-related issues and challenges. Within the federal 
government, we obtained and analyzed information on efforts to work 
with the private-sector by DHS and other agencies assigned 
responsibilities for specific industry sectors, including the 
Departments of Agriculture, Energy, Health and Human Services, and the 
Treasury and the Environmental Protection Agency. We did not validate 
the accuracy of the data provided by the ISACs, DHS, or other agencies. 
We performed our work from November 2003 to April 2004, in accordance 
with generally accepted government auditing standards.

Results in Brief
    Beginning with PDD 63, federal policy has encouraged the voluntary 
creation of ISACs as key information-sharing mechanisms between the 
federal government and critical infrastructures. While PDD 63 suggested 
certain ISAC activities, CIP policy has essentially left the actual 
design and function of the ISACs to the entities that formed them. As a 
result, although their overall missions are similar, the current ISACs 
were established and developed based on the unique characteristics and 
needs of their individual sectors. They operate under different 
management and operational structures and, among other things, have 
different business models and funding mechanisms. For example, most are 
managed or operated as private entities with some, such as the Water 
and Chemical ISACs, part of associations that represent their sectors. 
Others have partnered with government agencies, such as the 
Telecommunications ISAC, which is a government-industry operational and 
collaborative body sponsored by DHS's National Communications Systems/ 
National Coordinating Center (NCC). Different funding mechanisms used 
by the ISACs include fee-for-service, association sponsorship, federal 
grants, and/or voluntary or in-kind operations by ISAC participants. 
Examples of fee-for-service funding include the Financial Services, 
Information Technology, and Water ISACs that offer tiered memberships 
with fees based on the level of service provided.
    DHS and the sector-specific agencies have undertaken a number of 
efforts to address the public-private partnership called for by federal 
CIP policy and continue to work on their cooperation and interaction 
with the ISACs and with each other. For example, in January 2004, DHS 
held a 2-day conference to describe the information they are analyzing 
and its use in the partnership with the private sector and to discuss 
information sharing between the federal government and the private 
sector. Also, in February, the department established the Protected 
Critical Infrastructure Information (PCII) Program that enables the 
private sector to voluntarily submit infrastructure information to the 
government, which can be protected from disclosure according to 
provisions of the Critical Infrastructure Information Act of 2002.
    According to ISAC representatives and a council that represents 
many of them, a number of challenges remain to their successful 
establishment, operation, and partnership with DHS and other federal 
agencies. These challenges include increasing the percentage of sector 
entities that are members of the ISACs; building trusted relationships 
and processes to facilitate information sharing; overcoming barriers to 
information sharing, including the sensitivity of the information, 
legal limits on disclosure (such as Privacy Act limitations on 
disclosure of personally identifiable information), and contractual and 
business limits on how and when information is disclosed; clarifying 
the roles and responsibilities of the various government and private 
sector entities involved in protecting the critical infrastructures; 
and funding ISAC operations and activities. According to a DHS 
official, these issues are being considered and should be clarified 
through the department's development of a plan that documents the 
current information-sharing relationships between DHS, the ISACs, and 
other agencies; goals for improving that information sharing 
relationship; and methods for measuring progress.

Background
    As reliance on our nation's critical infrastructures grows, so do 
the potential threats and attacks that could disrupt critical systems 
and operations. In response to the potential consequences, federal 
awareness of the importance of securing our nation's critical 
infrastructures, which underpin our society, economy, and national 
security, has been evolving since the mid-1990s. For example, issued in 
1998, Presidential Decision Directive 63 (PDD 63) described the federal 
government's strategy for cooperative efforts with state and local 
governments and the private sector to protect the systems that are 
essential to the minimum operations of the economy and the government 
from physical and cyber attack. In 2002, the Homeland Security Act 
created the Department of Homeland Security, which was given 
responsibility for developing a national plan; recommending measures to 
protect the critical infrastructure; and collecting, analyzing, and 
disseminating information to government and private-sector entities to 
deter, prevent and respond to terrorist attacks.
    More recently, issued in December 2003, HSPD-7 defined federal 
responsibilities for critical infrastructure protection, superseding 
PDD 63.

CIP Policy Has Continued to Evolve
    Federal awareness of the importance of securing our nation's 
critical infrastructures has continued to evolve since the mid-1990s. 
Over the years, a variety of working groups has been formed, special 
reports written, federal policies issued, and organizations created to 
address the issues that have been raised. Key documents that have 
shaped the development of the federal government's CIP policy include:
        <bullet> Presidential Decision Directive 63 (PDD 63),
        <bullet> The Homeland Security Act of 2002,
        <bullet> The National Strategies for Homeland Security, to 
        Secure Cyberspace and for the Physical Protection of Critical 
        Infrastructures and Key Assets, and
        <bullet> Homeland Security Presidential Directives 7 (HSPD-7) 
        and 9 (HSPD-9).

Presidential Decision Directive 63 Established an Initial CIP Strategy
    In 1998, the President issued PDD 63, which described a strategy 
for cooperative efforts by government and the private-sector to protect 
the physical and cyber-based systems essential to the minimum 
operations of the economy and the government. PDD 63 called for a range 
of actions that were intended to improve federal agency security 
programs, improve the nation's ability to detect and respond to serious 
computer-based and physical attacks, and establish a partnership 
between the government and the private-sector. Although superseded in 
December 2003 by HSPD-7, PDD 63 provided the foundation for the 
development of the current sector based CIP approach.
    To accomplish its goals, PDD 63 established and designated 
organizations to provide central coordination and support, including 
the National Infrastructure Protection Center (NIPC), an organization 
within the FBI, which was expanded to address national-level threat 
assessment, warning, vulnerability, and law enforcement investigation 
and response.
    To ensure the coverage of critical sectors, PDD 63 identified eight 
infrastructures and five functions. For each of the infrastructures and 
functions, the directive designated lead federal agencies, referred to 
as sector liaisons, to work with their counterparts in the private-
sector, referred to as sector coordinators. Among other 
responsibilities, PDD 63 stated that sector liaisons should identify 
and access economic incentives to encourage sector information sharing 
and other desired behavior.
    To facilitate private-sector participation, PDD 63 also encouraged 
the voluntary creation of information sharing and analysis centers 
(ISACs) to serve as mechanisms for gathering, analyzing, and 
appropriately sanitizing and disseminating information to and from 
infrastructure sectors and the federal government through NIPC. PDD 63 
also suggested several key ISAC activities to effectively gather, 
analyze, and disseminate information--activities that could improve the 
security postures of the individual sectors and provide an improved 
level of communication within and across sectors and all levels of 
government. These activities are: establishing baseline statistics and 
patterns on the various infrastructures; serving as a clearinghouse for 
information within and among the various sectors; providing a library 
of historical data for use by the private-sector and government, and 
reporting private-sector incidents to NIPC.

The Homeland Security Act of 2002 Established the Department's CIP 
Responsibilities
    The Homeland Security The Homeland Security Act of 2002, signed by 
the President on November 25, 2002, established DHS. To help accomplish 
its mission, the act Act of 2002 Established the established five under 
secretaries, among other entities, with responsibility over 
directorates for management, science and technology, information 
analysis and infrastructure protection, border and transportation 
security, and emergency preparedness and response.
    The act made the Information Analysis and Infrastructure Protection 
(IAIP) Directorate within the department responsible for CIP functions 
and transferred to it the functions, personnel, assets, and liabilities 
of several existing organizations with CIP responsibilities, including 
NIPC (other than the Computer Investigations and Operations Section).
    IAIP is responsible for accessing, receiving, and analyzing law 
enforcement information, intelligence information, and other threat and 
incident information from respective agencies of federal, state, and 
local governments and the private-sector, and for combining and 
analyzing such information to identify and assess the nature and scope 
of terrorist threats. IAIP is also tasked with coordinating with other 
federal agencies to administer the Homeland Security Advisory System to 
provide specific warning information along with advice on appropriate 
protective measures and countermeasures. Further, IAIP is responsible 
for disseminating, as appropriate, information analyzed by DHS within 
the department, to other federal agencies, to state and local 
government agencies, and to private-sector entities.
    Moreover, as stated in the Homeland Security Act of 2002, IAIP is 
responsible for (1) developing a comprehensive national plan for 
securing the key resources and critical infrastructure of the United 
States and (2) recommending measures to protect the key resources and 
critical infrastructure of the United States in coordination with other 
federal agencies and in cooperation with state and local government 
agencies and authorities, the private-sector, and other entities.

National Strategies Establish Information-Sharing Initiatives
    The National Strategy for Homeland Security identifies information 
sharing and systems as one foundation for evaluating homeland security 
investments across the federal government. It also identifies 
initiatives to enable critical infrastructure information sharing and 
to integrate sharing across state and local government, private 
industry, and citizens. Consistent with the original intent of PDD 63, 
the National Strategy for Homeland Security states that, in many cases, 
sufficient incentives exist in the private market for addressing the 
problems of CIP. However, the strategy also discusses the need to use 
all available policy tools to protect the health, safety, or well-being 
of the American people. It mentions federal grant programs to assist 
state and local efforts, legislation to create incentives for the 
private sector, and, in some cases, regulation.
    The National Strategy to Secure Cyberspace provides an initial 
framework for both organizing and prioritizing efforts to protect our 
nation's cyberspace. It also provides direction to federal departments 
and agencies that have roles in cyberspace security and identifies 
steps that state and local governments, private companies and 
organizations, and individual Americans can take to improve our 
collective cybersecurity. The strategy warns that the nation's private-
sector networks are increasingly targeted and will likely be the first 
organizations to detect attacks with potential national significance. 
According to the cyberspace strategy, ISACs, which possess unique 
operational insight into their industries' core functions and will help 
provide the necessary analysis to support national efforts, are 
expected to play an increasingly important role in the National 
Cyberspace Security Response System \2\ and the overall missions of 
homeland security. In addition, the cyberspace strategy identifies DHS 
as the central coordinator for cyberspace efforts and requires it to 
work closely with the ISACs to ensure that they receive timely and 
threat and vulnerability data that can be acted on and to coordinate 
voluntary contingency planning efforts. The strategy reemphasizes that 
the federal government encourages the private-sector to continue to 
establish ISACs and, further, to enhance the analytical capabilities of 
existing ISACs. Moreover, the strategy stresses the need to improve and 
enhance public-private information sharing about cyber attacks, 
threats, and vulnerabilities and to encourage broader information 
sharing on cybersecurity among nongovernmental organizations with 
significant computing resources. The National Strategy to Secure 
Cyberspace also states that the market is to provide the majorimpetus 
to improve cybersecurity and that regulation will not become a primary 
means of securing cyberspace.
---------------------------------------------------------------------------
    \2\ The National Cyberspace Security Response System is a public-
private architecture, coordinated by the Department of Homeland 
Security, for analyzing and warning; managing incidents of national 
significance; promoting continuity in government systems and private 
sector infrastructures; and increasing information sharing across and 
between organizations to improve cyberspace security. It includes 
governmental entities and nongovernmental entities, such as private-
sector ISACs.
---------------------------------------------------------------------------
    The National Strategy for the Physical Protection of Critical 
infrastructures and Key Assets provides a statement of national policy 
to remain committed to protecting critical infrastructures and key 
assets from physical attacks. It outlines three key objectives to focus 
the national protection effort: (1) identifying and assuring the 
protection of the most critical assets, systems, and functions; (2) 
assuring the protection of infrastructures that face an imminent 
threat; and (3) pursuing collaborative measures and initiatives to 
assure the protection of other potential targets. The National Strategy 
for the Physical Protection of Critical Infrastructures and Key Assets 
also states that further government leadership and intense 
collaboration between public--and private-sector stakeholders is needed 
to create a more effective and efficient information-sharing process to 
enable our core protective missions. Some of the specific initiatives 
include
        <bullet> defining protection-related information requirements 
        and establishing effective, efficient information-sharing 
        processes;
        <bullet> promoting the development and operation of critical 
        sector ISACs, including developing advanced analytical 
        capabilities;
        <bullet> improving processes for domestic threat data 
        collection, analysis, and dissemination to state and local 
        governments and private industry; and
        <bullet> completing implementation of the Homeland Security 
        Advisory System.
    The National Strategy for the Protection of Critical 
Infrastructures and Key Assets reiterates that additional regulatory 
directives and mandates should only be necessary in instances where the 
market forces are insufficient to prompt the necessary investments to 
protect critical infrastructures and key assets.

    Current Federal Agency CIP Responsibilities
    In December 2003, the President issued HSPD-7, which established a 
national policy for federal departments and agencies to identify and 
prioritize critical infrastructure and key resources and to protect 
them from terrorist attack. It superseded PDD 63. HSPD-7 defines 
responsibilities for DHS, lead federal agencies, or sector-specific 
agencies that are responsible for addressing specific critical 
infrastructure sectors,and other departments and agencies. It instructs 
federal departments and agencies to identify, prioritize, and 
coordinate the protection of critical infrastructure to prevent, deter, 
and mitigate the effects of attacks.
    The Secretary of Homeland Security is assigned several 
responsibilities, including
        <bullet> coordinating the national effort to enhance critical 
        infrastructure protection;
        <bullet> identifying, prioritizing, and coordinating the 
        protection of critical infrastructure, emphasizing protection 
        against catastrophic health effects or mass casualties;
        <bullet> establishing uniform policies, approaches, guidelines, 
        and methodologies for integrating federal infrastructure 
        protection and risk management activities within and across 
        sectors; and
        <bullet> serving as the focal point for cyberspace security 
        activities, including analysis, warning, information sharing, 
        vulnerability reduction, mitigation, and recovery efforts for 
        critical infrastructure information systems.
    To ensure the coverage of critical sectors, HSPD-7 designated 
sector specific agencies, formerly referred to as lead agencies, for 
the critical infrastructure sectors identified in the National Strategy 
for Homeland Security (see table 1). These agencies are responsible for 
infrastructure protection activities in their assigned sectors, which 
include
        <bullet> coordinating and collaborating with relevant federal 
        agencies, state and local governments, and the private-sector 
        to carry out their responsibilities;
        <bullet> conducting or facilitating vulnerability assessments 
        of the sector;
        <bullet> encouraging the use of risk management strategies to 
        protect against and mitigate the effects of attacks against the 
        critical infrastructure.
        <bullet> identifying, prioritizing, and coordinating the 
        protection of critical infrastructure;
        <bullet> facilitating the sharing of information about physical 
        and cyber threats, vulnerabilities, incidents, potential 
        protective measures, and best practices; and
        <bullet> reporting to DHS on an annual basis on their 
        activities to meet these responsibilities.
    Further, the sector-specific agencies are to continue to encourage 
the development of information-sharing and analysis mechanisms and to 
support sector-coordinating mechanisms. HSPD-7 does not suggest any 
specific ISAC activities.

  Table 1: Critical Infrastructure Sectors Identified by the National Strategy for Homeland Security and HSPD-7
----------------------------------------------------------------------------------------------------------------
               Sector                             Description                      Sector-specific agency
----------------------------------------------------------------------------------------------------------------
Agriculture                          Provides for the fundamental need for  Department of Agriculture
                                      food. The infrastructure includes
                                      supply chains for feed and crop
                                      production.
----------------------------------------------------------------------------------------------------------------
Banking and Finance                  Provides the financial infrastructure  Department of the Treasury
                                      of the nation. This sector consists
                                      of commercial banks, insurance
                                      companies, mutual funds, government
                                      sponsored enterprises, pension
                                      funds, and other financial
                                      institutions that carry out
                                      transactions including clearing and
                                      settlement.
----------------------------------------------------------------------------------------------------------------
Chemicals and hazardous materials    Transforms natural raw materials into  Department of Homeland Security
                                      commonly used products benefiting
                                      Department of Homeland society's
                                      health, safety, and productivity.
                                      The chemical industry Security
                                      represents a $450 billion enterprise
                                      and produces more than 70,000
                                      products that are essential to
                                      automobiles, pharmaceuticals, food
                                      supply, electronics, water
                                      treatment, health, construction and
                                      other necessities.
----------------------------------------------------------------------------------------------------------------
Defense industrial base              Supplies the military with the means   Department of Defense
                                      to protect the nation by producing
                                      weapons, aircraft, and ships and
                                      providing essential services,
                                      including information technology and
                                      supply and maintenance.
----------------------------------------------------------------------------------------------------------------
Emergency services                   Saves lives and property from          Department of Homeland Security
                                      accidents and disaster. This sector
                                      includes fire, rescue, emergency
                                      medical services, and law
                                      enforcement organizations.
----------------------------------------------------------------------------------------------------------------
Energy                               Provides the electric power used by    Department of Energy
                                      all sectors, including critical
                                      infrastructures, and the refining,
                                      storage, and distribution of oil and
                                      gas. The sector is divided into
                                      electricity and oil and natural gas.
----------------------------------------------------------------------------------------------------------------
Food                                 Carries out the post-harvesting of     Department of Agriculture and
                                      the food supply, including            Department of Health and Human
                                      processing and retail sales.           Services
----------------------------------------------------------------------------------------------------------------
Government                           Ensures national security and freedom  Department of Homeland Security
                                      and administers key public
                                      functions.
----------------------------------------------------------------------------------------------------------------
Information technology and           Provides communications and processes  Department of Homeland Security
 telecommunications                   to meet the needs of businesses and
                                      government.
----------------------------------------------------------------------------------------------------------------
Postal and shipping                  Delivers private and commercial        Department of Homeland Security
                                      letters, packages, and bulk assets.
                                      The U.S. Postal Service and other
                                      carriers provide the services of
                                      this sector.
----------------------------------------------------------------------------------------------------------------
Public Health and Healthcare         Mitigates the risk of disasters and    Department of Health and Human
                                      attacks and also provides recovery     Services
                                      assistance if an attack occurs. The
                                      sector consists of health
                                      departments, clinics, and hospitals.
----------------------------------------------------------------------------------------------------------------
Transportation                       Enables movement of people and assets  Department of Homeland Security
                                      that are vital to our economy,
                                      mobility, and security with the use
                                      of aviation, ships, rail, pipelines,
                                      highways, trucks, buses, and mass
                                      transit.
----------------------------------------------------------------------------------------------------------------
Drinking water and water             Sanitizes the water supply with the    Environmental Protection Agency
treatment systems                     use of about 170,000 public water
                                      systems. These systems depend on
                                      reservoirs, dams, wells, treatment
                                      facilities, pumping stations, and
                                      transmission lines.
----------------------------------------------------------------------------------------------------------------

<SUP>Source:</SUP> GAO</SUP> analysis</SUP> based</SUP> on</SUP> the</SUP> 
President's</SUP> National</SUP> Strategy</SUP> documents</SUP> and</SUP> 
HSPD-7.
        </SUP>In January, the President issued HSPD-9, which 
        established a national policy to defend the agriculture and 
        food system against terrorist attacks, major disasters, and 
        other emergencies. HSPD-9 defines responsibilities for DHS, 
        lead federal agencies, or sector-specific agencies, responsible 
        for addressing specific critical infrastructure sectors, and 
        other departments and agencies. It instructs federal 
        departments and agencies to protect the agriculture and food 
        system from terrorist attacks, major disasters, and other 
        emergencies by
                <bullet> identifying and prioritizing sector-critical 
                infrastructure and key resources for establishing 
                protection requirements;
                <bullet> developing awareness and early warning 
                capabilities to recognize threats;
                <bullet> mitigating vulnerabilities at critical 
                production and processing nodes;
                <bullet> enhancing screening procedures for domestic 
                and imported products; and
                In addition, the Secretary of Homeland Security, in 
                coordination with the Secretaries of Agriculture, 
                Health and Human Services, and other appropriate 
                federal department and agencies, are assigned 
                responsibilities including:
                <bullet> expanding and continuing vulnerability 
                assessments of the agriculture and food sectors; and
                <bullet> working with appropriate private-sector 
                entities to establish an effective information-sharing 
                and analysis mechanism for agriculture and food.
                <bullet> enhancing response and recovery procedures.

Prior GAO Recommendations
    We have made numerous recommendations over the last several years 
related to information-sharing functions that have been transferred to 
DHS. One significant area of our work concerns the federal government's 
CIP efforts, which is focused on sharing information on incidents, 
threats, and vulnerabilities and providing warnings related to critical 
infrastructures both within the federal government and between the 
federal government and state and local governments and the private 
sector. Although improvements have been made in protecting our nation's 
critical infrastructures and continuing efforts are in progress, 
further efforts are needed to address the following critical CIP 
challenges that we have identified:
        <bullet> developing a comprehensive and coordinated national 
        plan to facilitate CIP information sharing, which clearly 
        delineates the roles and responsibilities of federal and 
        nonfederal CIP entities, defines interim objectives and 
        milestones, sets timeframes for achieving objectives, and 
        establishes performance measures;
        <bullet> developing fully productive information-sharing 
        relationships within the federal government and between the 
        federal government and state and local governments and the 
        private-sector;
        <bullet> improving the federal government's capabilities to 
        analyze incident, threat, and vulnerability information 
        obtained from numerous sources and share appropriate timely, 
        useful warnings and other information concerning both cyber and 
        physical threats to federal entities, state and local 
        governments, and the private-sector; and
        <bullet> providing appropriate incentives for nonfederal 
        entities to increase information sharing with the federal 
        government.

ISAC Structures and Operations Reflect Sector Needs and Evolving Goals
    PDD 63 encouraged the voluntary creation of ISACs and suggested 
some possible activities, as discussed earlier; however, their actual 
design and functions were left to the private-sector, along with their 
relationship with the federal government. HSPD-7 continues to encourage 
the development of information-sharing mechanisms and does not suggest 
specific ISAC activities. As a result, the ISACs have been designed to 
perform their missions based on the unique characteristics and needs of 
their individual sectors and, although their overall missions are 
similar, they have different characteristics. They were created to 
provide an information-sharing and analysis capability for members of 
their respective infrastructure sectors to support efforts to mitigate 
risk and provide effective response to adverse events, including cyber, 
physical, and natural events. In addition, the ISACs have taken several 
steps to improve their capabilities and the services they provide to 
their respective sectors.

Management and Operational Structures Vary, But Provide Similar Basic 
Capabilities
    The ISACs have developed diverse management structures and 
operations to meet the requirements of their respective critical 
infrastructure sectors. To fulfill their missions, they have been 
established using various business models, diverse funding mechanisms, 
and multiple communication methods.
    Business model--ISACs use different business models to accomplish 
their missions. Most are managed or operated as private entities, 
including the Financial Services, Chemical, Electricity Sector, Food, 
Information Technology, Public Transit, Real Estate, Surface 
Transportation, Highway, and Water ISACs. Many are established as part 
of an association that represents a segment of or an entire critical 
infrastructure sector. For example, the Association of Metropolitan 
Water Authorities manages the contract for the Water ISAC and the 
American Chemistry Council manages and operates the Chemical ISAC 
through its CHEMTRAC.\3\ In addition, the North American Electric 
Reliability Council (NERC),\4\ a nonprofit corporation that promotes 
electric system reliability and security, operates the Electricity 
Sector ISAC using internal expertise.
---------------------------------------------------------------------------
    \3\ The American Chemistry Council represents the leading companies 
engaged in the business of chemistry. CHEMTREC (Chemical 
Transportation Emergency Center) is the American Chemistry Council's 
24-hour emergency communications center. It was established in 1971 to 
provide emergency responders technical assistance in safely mitigating 
a distribution incident.
    \4\ The North American Electric Reliability Council's (NERC) 
membership includes small and large electric utilities, regional 
utility companies, power marketers, and other entities responsible for 
power generation, transmission, control, and marketing and distribution 
in the United States, Canada, and a portion of Mexico.
---------------------------------------------------------------------------
    The legal structure of ISACs continues to evolve. The Financial 
Services ISAC has evolved from a limited liability corporation in 1999 
to a 501(c)6 non-stock corporation and is managed by a board of 
directors that is comprised of representatives from the Financial 
Services ISAC's members. According to the Financial Services ISAC 
Board, the change to be a 501(c)6 non-stock corporation, as mentioned 
above, was made to simplify the membership agreement and to make the 
process for obtaining public funding easier. The Energy ISAC also 
changed from a limited liability corporation to a 501(c)3 nonprofit 
charitable organization to eliminate membership barriers.
    Also, government agencies have partnered with the private-sector to 
operate certain ISACs. For example, DHS's National Communications 
Systems/ National Coordinating Center (NCC) for Telecommunications 
sponsors the Telecommunications ISAC, which is a government/industry 
operational and collaborative body.\5\ DHS provides for the 
Telecommunications ISAC facilities, tools and systems, the NCC manager, 
and the 24x7 watch operations staff. The private-sector provides 
representatives who have access to key corporate personnel and other 
resources. In addition, DHS's United States Fire Administration 
operates the Emergency Management and Response ISAC. New York State, 
through its Office of Cyber Security and Critical Infrastructure 
Coordination, is coordinating efforts of the Multi-state ISAC. The New 
York State Office of Cyber Security and Critical Infrastructure 
Coordination is currently studying best practices and lessons learned 
to assist in developing a structure that will include representation by 
member states.
---------------------------------------------------------------------------
    \5\ The National Coordinating Center for Telecommunications is open 
to companies that provide telecommunications or network services, 
equipment, or software to the communications and information sector; 
select, competitive local exchange carriers; Internet service 
providers; vendors; software providers; telecommunications professional 
organizations and associations; or companies with participation or 
presence in the communications and information sector. Membership is 
also allowed for National Coordinating Center member federal 
departments and agencies, and for national security/emergency 
preparedness users.
---------------------------------------------------------------------------
    Six of the ISACs included in our study use contractors to perform 
their day-to-day operations. According to an Association of 
Metropolitan Water Agencies (AMWA) official, they chose a contractor to 
operate the Water ISAC because the contractor had the appropriate 
expertise. In addition, the contractor's personnel had government 
clearances and the ability to operate a secure communication system and 
facility. In addition, ISACs use contractors to supplement their 
operations. For example, a formal contract provides for the daily 
staffing and performance of the Emergency Management and Response 
ISAC's tasks. It chose this model because of federal requirements and 
the shortage of positions for federal full-time employees at the United 
States Fire Administration. The Telecommunications ISAC contracted for 
analysts to operate the 24 x 7 watch operations under the management of 
a government official.
    ISACs also differ in the nature of the hazards that they consider: 
cyber, physical, or all hazards (including natural events such as 
hurricanes). For example, during events of the power outage in August 
2003 and Hurricane Isabel in September 2003, the Financial Services 
ISAC was contacted by DHS to determine the Banking and Finance sector's 
preparedness and the impact of those events. However, the Multi-state 
ISAC will remain focused on cyber threats because other state 
organizations are in place to address physical and natural disaster 
events.
    Funding--ISACs fund their activities using a variety of methods--
fees-for-service, association sponsorship, federal grants, and 
voluntary, or inkind, operations by existing participants. For example, 
the Financial Services, Information Technology, and Water ISACs use a 
tiered fee-for-service model for members. This model establishes 
different tiers of membership based on the level of service provided. 
These tiers typically include some basic level of service that is 
provided at minimal or no cost to the member and additional tiers that 
provide--for a fee--more personalized service and access to additional 
resources. To help ensure that cost is not a deterrent to membership 
and that the ISAC's coverage of its sector is extensive, the Financial 
Services ISAC recently, as part of its next-generation ISAC effort, 
shifted to a tiered fee-for-service approach. It offers five levels of 
service that vary in cost--Basic (no charge), Core ($750 per year), 
Premier ($10,000 per year), Gold ($25,000 per year), and Platinum 
($50,000)--for ascending levels of information and analytical 
capabilities. In addition, there is a partner-level license agreement 
for select industry associations ($10,000) for distribution to eligible 
association members of Urgent and Crisis Alerts. For example, the 
Information Technology ISAC recently started to work on a tiered basis 
with fees set annually at $40,000; $25,000; $5,000; $1,000; and free. 
The Water ISAC also uses a tiered approach, with membership fees 
ranging from $7,500 to $750 annually. The Surface Transportation ISAC 
assesses an annual fee from its Class I railroad members of 
approximately $7,500.
    Some industry associations that operate ISACs fund them from 
budgets. For example, the North American Electric Reliability Council 
(NERC) funds the Electricity Sector ISAC, and the American Trucking 
Association funds the Highway ISAC from their budgets. The American 
Chemistry Council fully funds the Chemical ISAC through the previously 
existing Chemical Transportation Emergency Center, known as CHEMTRAC. 
The ten trade associations that are members of it fund the Real Estate 
ISAC.
    In addition, some ISACs receive funding from the federal government 
for such purposes as helping to start operations, funding memberships, 
and providing expanded capabilities. Examples include the following:
        <bullet> The Public Transit ISAC initially received a $1.2 
        million grant from the Federal Transit Administration (FTA) to 
        begin operations. Members pay no an annual fee and there are no 
        membership requirements from the association that started the 
        ISAC--the American Public Transportation Association.
        <bullet> For FY 2004, the Water ISAC received a $2 million 
        grant from EPA to cover annual operating costs, including the 
        expansion of memberships to smaller utilities.
        <bullet> The Financial Services ISAC received $2 million 
        dollars from the Department of the Treasury to enhance its 
        capabilities, including technology to broaden membership 
        service.
        <bullet> The Highway ISAC received initial funding from DHS's 
        Transportation Security Administration (TSA) to start the ISAC.
        <bullet> The Energy ISAC received federal grants to assist 
        entities within its separate sectors to be members.
        <bullet> DHS provides funding for the operation of the 
        Telecommunications ISAC that is combined with in-kind services 
        provided by the corporate participants. DHS also fully operates 
        the Emergency Management and Response ISAC.
    States also provide funding for ISACs. For example, the Multi-state 
ISAC is funded by and functions as part of the New York State Cyber 
Security Analysis Center. In addition, the Research and Education 
Network ISAC is supported by Indiana University.
    Sharing mechanisms--ISACs use various methods to share information 
with their members, other ISACs, and the federal government. For 
example, they generally provide their members access to electronic 
information via e-mail and Web sites. For example, the Chemical ISAC 
members receive e-mail alerts and warnings in addition to the 
information that is posted to the ISAC's Web site. The Highway ISAC 
provides members on its Web site with links to IT resources.
    Some ISACs also provide secure members-only access to information 
on their Web sites. For example, the Financial Services ISAC's Web site 
offers multiple capabilities for members at the premier level and 
above, including, among other things, access news, white papers, best 
practices, and contacts. The Energy ISAC offers its members access to a 
secure Web site.
    In addition, some ISACs hold conference calls for their members. 
For example, the Chemical ISAC holds biweekly conference calls with 
DHS. The Financial Services ISAC also conducts threat intelligence 
conference calls every two weeks for premier members and above with 
input from Science Applications International Corporation (SAIC) and 
DHS. These calls discuss physical and cyber threats, vulnerabilities 
and incidents that have occurred during the previous two weeks, and 
they provide suggestions on what may be coming. The Financial Services 
ISAC is capable of organizing crisis conference calls within an hour of 
the notification of a Crisis Alert, and it hosts regular bi-weekly 
threat conference calls for remediation of vulnerabilities (viruses, 
patches).
    ISACs also use other methods to communicate. For example, they may 
use pagers, phone calls, and faxes to disseminate information. In 
addition, the Telecommunications ISAC uses the Critical Infrastructure 
Warning Information Network (CWIN).\6\ The Financial Services ISAC also 
sponsors twice yearly members' only conferences to learn and share 
information.
---------------------------------------------------------------------------
    \6\ CWIN provides connectivity and 24x7 alert and notification 
capability to government and industry participants. It is engineered to 
provide a reliable and survivable network capability, and it has no 
logical dependency on the Internet or the Public Switched Network.

ISAC Coverage and Participation Varies
    According to the ISAC Council, its membership possesses an outreach 
and connectivity capability to approximately 65 percent of the U.S. 
private critical infrastructure. However, the ISACs use various 
matrices to define their respective sectors' participation in their 
activities. For example, the Banking and Finance sector has estimated 
that there are more than 25,000 financial services firms in the United 
States. Of those, according to the Financial Services ISAC Board, 
roughly 33 percent receive Urgent and Crisis Alerts through license 
agreements with sector associations--accounting for the vast majority 
of total commercial bank assets, the majority of assets under 
management, and the majority of securities/ investment bank 
transactions that are handled by the sector, but less than half the 
sector's insurance assets. According to an American Public 
Transportation Association official, the Public Transit ISAC covers a 
little less than 5 percent of the public transit agencies; however, 
those agencies handle about 60 to 70 percent of the total public 
transit ridership. Further, according to NERC officials, virtually all 
members of NERC are members of the Electricity Sector ISAC. As for the 
Energy ISAC, officials stated that its 80-plus members represent 
approximately 85 percent of the energy industry. Membership in the 
Information Technology ISAC also represents 85 to 90 percent of the 
industry, including assets of Internet equipment hardware, software, 
and security providers. For other ISACs, such as Chemical and Real 
Estate, officials stated that it is difficult to determine the 
percentage of the sector that is included.
    Table 2 provides a summary of the characteristics of the ISACs that 
we included in our review. In addition to these ISACs, the Healthcare 
sector is continuing to organize, including efforts to establish an 
ISAC. According to DHS officials, the Emergency Law Enforcement ISAC 
that was formally operated by the NIPC and transferred to IAIP is not 
currently staffed and will be considered in current efforts to organize 
the Emergency Services sector.

                                                        Table 2: Summary of ISAC Characteristics
--------------------------------------------------------------------------------------------------------------------------------------------------------
Critical Infrastructures and their
              ISAC(s)                      Coverage              Funding model          Hazards covered      Analysis capability     Sharing mechanisms
--------------------------------------------------------------------------------------------------------------------------------------------------------
Agriculture
None at this time.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Banking & Finance
--------------------------------------------------------------------------------------------------------------------------------------------------------
Financial Services                  200 members, including  Funded by and operated  Cyber Physical          Operates 24 hours a    Text-based alerts,
(est. Oct. 1999)                     commercial banks,       with tiered                                     day, 7 days a week.    through a
                                     securities firms, and   membership fees.                                Watch desk analyzes    notification system,
                                     insurance companies.    Contractor operated.                            and categorizes        backed up by
                                     Represents 90% of the                                                   threats, incidents,    telephone. Biweekly
                                     financial sector's                                                      and warnings based     threat intelligence
                                     assets.                                                                 on the sector's        conference call with
                                                                                                             needs.                 DHS and SAIC.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Chemicals & Hazardous Materials
--------------------------------------------------------------------------------------------------------------------------------------------------------
Chemical (est. April 2002)          538 individual members  Funded and operated by  Cyber Physical          Operates 24x7.         E-mails alerts and
                                     representing the        ACC's Chemical                                  Currently working to   warnings. Chemistry
                                     chemical industries.    Transportation                                  develop an analysis    ISAC Web site.
                                     285 businesses.         Emergency Center.                               center.                Biweekly conference
                                     Represents 90% of                                                                              calls with DHS.
                                     chemical sector.                                                                               Secure
                                                                                                                                    communications
                                                                                                                                    network with DHS.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Defense Industrial Base
None at this time.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Emergency Services
--------------------------------------------------------------------------------------------------------------------------------------------------------
Emergency Management & Response     10 FEMA Regions 6       Funded by FEMA's        Cyber Physical          Developing 24x7        Electronic messaging
 (est. Oct. 2000)                    major stakeholders of   Office of Cyber                                 operations. Analyzes   Telephone and when
                                     EMR sector.             Security with                                   and disseminates       necessary, a secure
                                     Represents 100% of      supplementation from                            actionable             telephone unit.
                                     the essential           USFA. Contractor                                intelligence on
                                     components of the EMR   operated.                                       threats, attacks,
                                     Sector.                                                                 vulnerabilities,
                                                                                                             anomalies, and
                                                                                                             security best
                                                                                                             practices.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Energy
--------------------------------------------------------------------------------------------------------------------------------------------------------
Electric (est. Oct. 2000)           More then 90% of NERC   Funded and managed/     Cyber Physical          Operates 24x7. The ES- Secure telephone,
                                     members are members     operated by NERC.                               ISAC and NERC have     fax, and Web server
                                     of the ISAC including                                                   created the            E-mail Satellite
                                     large and small                                                         Indications,           telephones.
                                     electric utilities,                                                     Analysis, and          Information such as
                                     regional electric                                                       Warnings Program       incident reports and
                                     utility companies,                                                      (IAW) that provides    warnings,
                                     and power marketers.                                                    a set of guidelines    vulnerability
                                                                                                             for reporting          assessments, and
                                                                                                             operational and        related documents
                                                                                                             cyber incidents that   are posted on the
                                                                                                             adversely affect the   public Web site.
                                                                                                             electric power
                                                                                                             infrastructure.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Energy (est. Nov. 2001)             80 plus members from    Funded by grants from   Cyber Physical          Operates 24x7.         Conference calls Fax,
                                     the oil and gas         DOE. Contractor                                 Analyzes threats,      Email, pager.
                                     sector. Represents      operated.                                       vulnerabilities, and   Detailed information
                                     85% of the oil and                                                      incident               on warnings provided
                                     gas sector.                                                             information.           on a membership
                                                                                                             Provides security      only, secure Web
                                                                                                             information and        site.
                                                                                                             solutions.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Food
--------------------------------------------------------------------------------------------------------------------------------------------------------
Food (est. Feb. 2002)               Over 40 food-industry   No current funding.     Physical                Operates 24x7. No      E-mail Watch
                                     trade associations      Operated by volunteer                           analysis capability,   Commander List
                                     and their members.      labor from each                                 due to members'        Currently working to
                                                             member association.                             privacy concerns.      develop a secure
                                                                                                             Depends on DHS for     email system.
                                                                                                             analysis.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Government
--------------------------------------------------------------------------------------------------------------------------------------------------------
State Gov. (est. Jan. 2003)         49 states (excluding    Funded and operated by  Cyber Physical &        Operates 24x7. Issues  Monthly conference
                                     Kansas) and the         New York State.         Natural                 bulletins,             calls E-mail
                                     District of Columbia.   States provide time    (as it relates to        advisories, and        Telephone
                                                             and resources as        cyber).                 alerts.
                                                             appropriate.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Information Technology &
 Telecommunications
--------------------------------------------------------------------------------------------------------------------------------------------------------
IT (est. Dec. 2000)                 90% of all desktop      Funded and operated by  Cyber Physical          Operates 24x7.         CWIN Encrypted e-mail
                                     operating systems.      foundational member                             Analyzes cyber         SSL-protected Web
                                     85% of all databases.   contributions, will                             alerts and             sites Cellular
                                     50% of all desktop      soon implement                                  advisories and         phones VoIP
                                     computers. 85% of all   membership fees                                 reports physical       telephony GETS) \7\
                                     routers. 65% of         (tiered). Contractor                            issues.                system for priority
                                     software security.      operated.                                                              calls
--------------------------------------------------------------------------------------------------------------------------------------------------------
Telecom (est. Jan. 2000)            95% of wireline         Funded by NCS.          Cyber Physical Natural  Operates 24x7.         E-mail Telephone Fax
                                     providers. Over 60%     Operated by NCC.                                Analyzes data to       Meetings CWIN
                                     of wireline vendors.    Agencies bear the                               avoid crises that
                                     95% of wireless         costs of their own                              could affect the
                                     providers. 90% of       personnel.                                      entire telecom
                                     wireless vendors. 42%                                                   infrastructure.
                                     of Internet Service
                                     subscribers. 90% of
                                     Internet Service
                                     networks. 6 of the
                                     top system
                                     integrators in the
                                     U.S. Federal IT
                                     market. 15% of Domain
                                     Name Service root and
                                     global Top Level
                                     Domain operators.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Research & Education Network (est.  200 Universities. All   Funded and operated by  Cyber                   Operates 24x7.         Public information
 Feb. 2003)                          U.S. universities and   Indiana University.                             Receives and           restricted to
                                     colleges that are                                                       disseminates           aggregate views of
                                     connected to national                                                   information            the network.
                                     R&E networks have                                                       regarding network      Information
                                     basic membership.                                                       security               identifying
                                                                                                             vulnerabilities and    institutions or
                                                                                                             threats in the         individuals not
                                                                                                             higher education       reported publicly.
                                                                                                             community.             Detailed and
                                                                                                                                    sensitive
                                                                                                                                    information shared
                                                                                                                                    only with affected
                                                                                                                                    institutions.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Postal & Shipping
None at this time.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Public Health &
Healthcare
--------------------------------------------------------------------------------------------------------------------------------------------------------
HealthCare
None at this time.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Transportation
--------------------------------------------------------------------------------------------------------------------------------------------------------
Public Transit (est. Jan. 2003)     Approximately 100 of    Federally funded.       Cyber Physical          Operations 24x7.       E-mail tree Secure e-
                                     the major national      Contractor operated.                            Collects, analyzes,    mail Public Transit
                                     transit                                                                 and disseminates       Web site Links to
                                     organizations.                                                          security               HSOC, and DOT and
                                                                                                             information.           TSA's Operation
                                                                                                                                    Centers.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Surface Transportation (est. May    Includes the major      Funded by membership    Cyber Physical Natural  Operates 24x7.         Surface
 2002)                               North American          fees and a grant from                           Conducts mid--to       Transportation Web
                                     freight railroads and   the Federal Transit                             longterm technical     site. Secure
                                     Amtrak. Represents      Administration (FTA).                           analysis on all        telephone.
                                     95% of the U.S.         Contractor operated.                            threats.
                                     freight railroad
                                     industry and Amtrak.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Highway (est. March 2003)           Over 90% of the         Funded and operated by  Cyber Physical          Developing 24x7        Highway ISAC Web site
                                     largest for-hire        the American Trucking                           operations. Channels   Highway watch center
                                     motor carriers.         Association (ATA).                              warnings, threat       Blast fax E-mail
                                     Represents 60%                                                          information, and       Print media
                                     economic activity                                                       advisories to the      communications Amber
                                     with over 50% of long                                                   industry and to        alerts
                                     haul.                                                                   drivers through its
                                                                                                             call center.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Drinking Water & Water Treatment
 Systems
--------------------------------------------------------------------------------------------------------------------------------------------------------
Water (est. Dec. 2002)              275-300 small and       Funded by tired         Cyber Physical          Operates 24x7.         Encrypted e-mail
                                     large water             membership fees and a                           Analyzes threat and    Secure portal Secure
                                     utilities. Represents   grant from EPA.                                 incident information   electronic bulletin
                                     45% of water            Contractor operated.                            for its potential      boards and chat
                                     utilities with secure   Receives                                        impact on the          rooms
                                     portals. Represents     contributions from                              sector.
                                     85% of the water        AMWA.
                                     utilities that
                                     receive e-mail
                                     alerts.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Other Sectors That Have
 Established ISACs
--------------------------------------------------------------------------------------------------------------------------------------------------------
Real Estate (est. April 2003)       10 trade associations   Funded by trade         Physical                Operates 24x7.         2-way communications
                                     representing hotels,    associations.                                   Depends on DHS for     network and Web site
                                     realtors, shopping      Contractor operated.                            threat analysis.       Conference calls
                                     centers, and others.                                                                           with top executives
                                                                                                                                    from various sectors
                                                                                                                                    as needed.
--------------------------------------------------------------------------------------------------------------------------------------------------------
\7\ Government Emergency Telecommunications Service (GETS)


Sector Coordinator Roles Differ
    As discussed earlier, federal CIP policy establishes the position 
of sector coordinator for identified critical infrastructure sectors to 
initiate and build cooperative relationships across an entire 
infrastructure sector. In most cases, sector coordinators have played 
an important role in the development of their respective infrastructure 
sectors' ISACs. In many cases the sector coordinator also manages or 
operates the ISAC.
        <bullet> The North American Electric Reliability Council, as 
        sector coordinator for the electricity segment of the energy 
        sector, operates the Electricity Sector ISAC.
        <bullet> The Association of American Railroads, as a sector 
        coordinator for the transportation sector, manages the Surface 
        Transportation ISAC.
        <bullet> The Association of Metropolitan Water Agencies, as the 
        sector coordinator for the water and wastewater sector, manages 
        the Water ISAC
    In addition, regarding the telecommunications ISAC, sector 
coordinators participate as members of the ISAC. For example, the 
Cellular Telecommunications and Internet Association, the United States 
Telecom Association, and the Telecommunications Industry Association 
are all members of the NCC, which operates the telecommunications ISAC. 
In the case of the Financial Services ISAC, no formal relationship 
exists between the Banking and Finance Sector Coordinator, the 
Financial Services Sector Coordinating Council, and the ISAC; however, 
according to Financial Services ISAC officials, there is a good 
relationship between them.
    Other ISACs were created and are operated without a formal sector 
coordinator in place, including the Chemical, Emergency Management and 
Response, and Food ISACs.

Council Established to Improve ISACs' Efficiency and Effectiveness
    Eleven ISACs created an ISAC Council to work on various 
operational, process, and other common issues to effectively analyze 
and disseminate information and, where possible, to leverage the work 
of the entire ISAC community. The ISACs initiated this effort without 
federal sponsorship. Currently, the participating ISACs include 
Chemical, Electricity, Energy, Financial Services, Information 
Technology, Public Transit, Surface Transportation, Telecommunications, 
Highway, and Water. In addition, the Multi-state and Research and 
Education Networks ISACs are participants.
    In February 2004, the council issued eight white papers to reflect 
the collective analysis of its members and to cover a broad set of 
issues and challenges, including
        <bullet> Government/Private-sector Relations. Explains the need 
        for DHS to clarify its expectations and to develop roles and 
        responsibilities for the ISACs.
        <bullet> HSPD-7 Issues and Metrics. Describes specific issues 
        related to the private-sector that DHS should address when 
        responding to HSPD-7.
        <bullet> Information Sharing and Analysis. Identifies future 
        goals that the ISACs may want to work on achieving, including 
        developing an implementation plan.
        <bullet> Integration of ISACs into Exercises. Discusses the 
        importance of the ISACs and the private infrastructure sectors 
        being involved in government exercises that demonstrate 
        responses to possible incidents.
        <bullet> ISAC Analytical Efforts. Describes the various levels 
        of capabilities that individual ISACs may want to consider 
        supporting, including cyber and physical analysis.
        <bullet> Policy and Framework for the ISAC Community. 
        Identifies common policy areas that need to be addressed to 
        provide effective, efficient, and scalable information sharing 
        among ISACs and between ISACs and the federal government.
        <bullet> Reach of Major ISACs. Describes and identifies the 
        degree of outreach that the ISACs have achieved into the U.S. 
        economy. As of September 2003, the ISAC Council estimated that 
        the ISACs had reached approximately 65 percent of the critical 
        infrastructures they represent.
        <bullet> Vetting and Trust. Discusses the processes for sharing 
        information and the need to develop trust relationships among 
        individual ISAC members and among the various ISACs.

Federal Efforts to and Interaction with the ISACs Continue
    As outlined in HSPD-7 and presented in table 1, DHS and other 
federal agencies are designated as sector-specific agencies for the 
critical Establish Cooperation infrastructure sectors identified. In 
addition, DHS is responsible for coordinating the overall national 
effort to enhance the protection of the critical infrastructure and key 
resources of the United States and has established organizational 
structures to address its CIP and information-sharing responsibilities. 
DHS and the sector-specific agencies have undertaken a number of 
efforts to address the public/private partnership that is called for by 
federal CIP policy, and they continue to work on their cooperation and 
interaction with the ISACs and with each other.

DHS Actions to Improve Information-sharing Relationships
    The functions DHS provides to each ISAC differ, and its 
coordination and levels of participation vary for each sector-specific 
agency. However, the department has undertaken a number of efforts with 
the ISACs and sector specific agencies to implement the public/private 
partnership called for by federal CIP policy.
    DHS has established functions within the department to support the 
ISACs and other CIP efforts. IAIP, as the DHS component directly 
responsible for CIP activities, carries out many of these functions. 
The Infrastructure Coordination Division within IAIP plays a key role 
in coordinating with the ISACs concerning information sharing. 
Nonetheless, ISACs may interact with multiple components of the 
department. For example, the ISACs may discuss cyber issues with the 
National Cyber Security Division. According to a DHS official, the 
department does not intend to establish a single point of contact for 
ISACs within the department. Rather, the department plans to develop 
policies and procedures to ensure effective coordination and sharing of 
ISAC contact information among the appropriate DHS components. In 
addition, the Infrastructure Coordination Division is in the process of 
staffing analysts who are responsible for working with each critical 
infrastructure sector. The analysts would serve as the primary point of 
contact for the sectors and would address information sharing, 
coordination, information protection, and other issues raised by the 
sectors.
    Further, according to DHS officials, TSA, within the department's 
Border and Transportation Security Directorate, is working with 
organizations in the private sector to establish information-sharing 
relationships. For example, Surface Transportation ISAC analysts stated 
that they have a good working relationship with TSA, and TSA's 
Operations Center has office space designated for them.
    In addition, other DHS actions include the following:
        <bullet> Last summer, DHS, the Department of Agriculture 
        (USDA), and the Department of Health and Human Services' (HHS) 
        Food and Drug Administration (FDA) initiated efforts to 
        organize the agriculture and food critical infrastructure 
        sectors to raise awareness and improve security efforts. An 
        introductory conference was held with about 100 leading sector 
        corporations and associations to make the business case for 
        participating in CIP efforts, including the importance of 
        enhancing security and sharing information within the sectors.
        <bullet> In December, DHS hosted a 2-day CIP retreat with ISAC 
        representatives, sector coordinators, and high-level DHS and 
        White House Homeland Security Council officials. Participants 
        discussed the needs, roles, and responsibilities of public--and 
        private-sector entities related to information sharing and 
        analysis, incident coordination and response activities, 
        critical infrastructure information requests, and level of DHS 
        funding. During this retreat, DHS participated in the first 
        meeting of the Operational Clarity and Improvement Task Group, 
        which was formed by the ISAC Council and sector coordinators to 
        address the need for a common conceptual framework and to 
        clarify current and future efforts to protect the nation's 
        critical infrastructure.
        <bullet> In January, DHS's IAIP Directorate held a 2-day 
        conference to describe the information it is analyzing and the 
        use of that information in the partnership with the private 
        sector to discuss information sharing between the federal 
        government and the private sector.
        <bullet> In February, the department established the Protected 
        Critical Infrastructure Information (PCII) Program, which 
        enables the private sector to voluntarily submit infrastructure 
        information to the government. DHS's IAIP Directorate is 
        responsible for receiving submissions, determining if the 
        information qualifies for protection and, if it is validated, 
        sharing it with authorized entities for use as specified in the 
        Critical Infrastructure Information Act of 2002.
    In addition to the efforts listed above, DHS officials stated that 
they provide funding to some of the ISACs. For example, DHS has agreed 
to fund tabletop exercises for the Financial Services, 
Telecommunications, and Electricity Sector ISACs. DHS anticipates that 
the tabletop exercises will be completed by August 2004. Also, DHS 
expects to fund a cross-sector tabletop exercise. According to the 
Financial Services ISAC, funding for their tabletop exercise is 
$250,000.
    Another effort that DHS has undertaken is to maintain regular 
contact with the ISACs. For example, a DHS analyst specializing in the 
chemical sector stated that the Chemical ISAC is in daily contact with 
DHS and that it participates in DHS-sponsored biweekly threat meetings. 
The department also conducts weekly conference calls with several 
ISACs, other DHS components, and private-sector organizations to 
discuss threats and viruses.

Sector-specific Agencies Have Taken Action to Assist the ISACs
    HSPD-7 designates federal departments and agencies to be sector-
specific agencies. These federal agencies, among other things, are to 
collaborate with the private sector and continue to encourage the 
development of information-sharing and analysis mechanisms. In 
addition, sector-specific agencies are to facilitate the sharing of 
information about physical and cyber threats, vulnerabilities, 
incidents, potential protective measures, and best practices. Another 
directive, HSPD-9, establishes a national policy to defend the 
agriculture and food system against terrorist attacks, major disasters, 
and other emergencies. Some sector-specific agencies have taken steps 
to help the ISACs to increase their memberships and breadth of impact 
within their respective sectors and to improve their analytical and 
communications capabilities.
        <bullet> Environmental Protection Agency (EPA). As noted 
        earlier, EPA is the sector-specific agency for the water 
        sector. According to EPA officials, its Office of Water (Water 
        Security Division), which has been designated as the lead for 
        drinking water and wastewater CIP efforts, is currently 
        revising EPA's Office of Homeland Security's Strategic Plan. In 
        addition, the division is working on a General Strategic Plan, 
        to identify measurable goals and objectives and determine how 
        the division will accomplish that work. Further, these 
        officials stated that for fiscal year 2004, EPA issued a $2 
        million grant to the Water ISAC to enhance its capabilities, 
        for example, to fund 24x7 operations and to increase and 
        support ISAC membership. They also stated that EPA issued $50 
        million in grants to assist the largest drinking water 
        utilities in conducting vulnerability assessments. There are 
        also state grants to build communications networks for 
        disseminating information, particularly to smaller utility 
        companies. EPA's Water Security Division also makes publicly 
        available various resources related to water security 
        including, among other things, emergency response guidelines, 
        risk assessment and vulnerability assessment methodologies, and 
        a security product guide. The division has also developed a 
        ``Vulnerability Assessment Factsheet'' that gives utility 
        companies additional guidance on vulnerability assessments. 
        Moreover, the Water Security Division holds biweekly conference 
        calls with water associations to promote communications between 
        EPA and the private sector, and it provides EPA publications 
        and other information to the Water ISAC through e-mail 
        distribution lists. In addition, the division has 10 regional 
        offices that work with the states.
        <bullet> Department of the Treasury (Treasury). As the sector-
        specific agency for the Banking and Finance sector, Treasury's 
        Office of CIP and Compliance Policy is responsible for CIP-
        related efforts. It has developed policy for its role as a 
        sector-specific agency. The policy includes steps to identify 
        vulnerabilities with the assistance of the institutions, 
        identify actions for remediation, and evaluate progress in 
        reducing vulnerabilities. A major effort by Treasury was having 
        consultants work with the Financial Services ISAC's board of 
        directors to evaluate ways to improve the overall reach and 
        operations of the ISAC. According to Treasury officials, this 
        effort, in part, led to a $2 million grant from Treasury to the 
        ISAC for developing the ``next generation'' Financial Services 
        ISAC. The one-time grant was earmarked for enhancing the ISAC's 
        capabilities. Regarding interaction with the Financial Services 
        ISAC, Treasury informally shares high-level threat and incident 
        information with the sector through the ISAC. The department 
        also chairs the Financial and Banking Information 
        Infrastructure Committee (FBIIC), a group of regulators who 
        coordinate regulatory efforts to improve the reliability and 
        security of financial systems. This group has done a number of 
        things to raise awareness and improve the reliability of the 
        institutions. For example, under the sponsorship of the Federal 
        Deposit Insurance Corporation, there are regional outreach 
        briefings that address why the private sector needs to partner 
        with the federal government to improve its security. Moreover, 
        FBIIC has sponsored the 3,600 priority telecommunications 
        circuits for financial institutions under the National 
        Communications System's Telecommunications Service Priority and 
        Government Emergency Telecommunications Service programs.
        <bullet> Department of Energy (DOE). As the sector-specific 
        agency for the Energy and Electricity sectors, DOE's Office of 
        Energy Assurance is responsible for fulfilling the roles of 
        critical infrastructure identification, prioritization, and 
        protection for the energy sector, which includes the 
        production, refining, and distribution of oil and gas, and 
        electric power--except for commercial nuclear power facilities. 
        However, DOE does not address situational threats such as 
        natural disasters or power outages with its ISACs because, in 
        part, the ISACs are determining whether it is their role to 
        address these types of threats. Information sharing with the 
        ISACs is an informal process, and no written policy exists. For 
        example, DOE is collecting threat information related to 
        hackers and computer security, but the department is not 
        disseminating it to the ISACs or to private industry. The 
        Office of Energy Assurance hopes to clarify and expand on this 
        subject in its International Program Plan, which is currently 
        in draft form.
        <bullet> Department of Health and Human Services (HHS). As 
        mentioned earlier, HHS is the sector-specific agency for the 
        public health and healthcare sector, and it shares that role 
        with USDA for the food sector. Currently, there is no ISAC for 
        the healthcare sector. Efforts to organize the healthcare 
        sector have been ongoing. In July 2002, HHS officials and other 
        government and industry participants were invited to the White 
        House conference center to discuss how they wanted to organize 
        the sector. A Healthcare Sector Coordinating Council (HSCC) was 
        formed, and HHS requested that MITRE, its contractor, lend 
        technical support to the new group as it continues to organize 
        the sector and establish an ISAC. In addition, HHS officials 
        stated that the department provided $500,000 for ISAC efforts 
        in fiscal year 2003 and budgeted $1 million for fiscal year 
        2004. HHS officials stated that the department would likely be 
        agreeable to continuing to provide funding for an ISAC. They 
        also stated that an ISAC could be operational within the next 
        year. In the meantime, HHS is sharing information with the 
        industry through an e-Community group that MITRE has set up on 
        a secure Web site.
    Agriculture and Food were only recently designated as critical 
infrastructure sectors and, as with the healthcare sector, efforts to 
organize the sectors are in the beginning stages. HHS has worked with 
the Food Marketing Institute-operated Food ISAC since it was 
established, but the department has focused more of its efforts on 
organizing the agriculture and food sectors. As we mentioned earlier, 
HHS helped initiate efforts to organize the sector by holding an 
introductory conference last summer for about 100 leading sector 
corporations and associations to make the business case for 
participating in CIP efforts. Recently, the department co-hosted a 
meeting with DHS and USDA in which industry participants were asked how 
they wished to organize into an infrastructure sector, including 
addressing the existence and expansion of the current Food ISAC. As a 
result of this meeting, participants agreed to establish a council of 
about 10-15 private-sector food and agriculture organizations to 
represent the sector. A federal government council will be created to 
interact with the private sector and with state and local governments. 
The government council will initially include several federal 
government agencies and state and local entities. According to HHS 
officials, the timeframe for organizing the sector and setting up an 
expanded Food ISAC has not been determined, but officials anticipated 
this occurring by fall of 2004.
        <bullet> Department of Agriculture (USDA). As mentioned above, 
        USDA shares with HHS the sector-specific agency designation for 
        the food sector. USDA participated in a conference held last 
        summer and a recent meeting with the industry. In addition to 
        those events, USDA's Homeland Security Council Working Group is 
        involved in enhancing the agriculture sector's information-
        sharing and analysis efforts, which may include replacing or 
        improving the current Food ISAC. Another USDA effort uses 
        training to reach out to the industry and raise awareness. For 
        example, USDA is providing training to private-sector 
        veterinarians and animal hospitals on recognizing possible 
        signs of bioterrorism activity.
    Although no longer a sector-specific agency for the transportation 
sector, DOT, through its Federal Transit Administration, has provided a 
grant to the Public Transportation ISAC to provide for memberships at 
no cost.

Challenges to ISAC Establishment and Partnership with the Federal 
Government

Increasing Sector Participation and Reach
    Our discussions with the ISACs and the series of ISAC Council white 
papers confirmed that a number of challenges remain to the successful 
establishment and operation of ISACs and their partnership with DHS and 
other federal agencies. Highlighted below are some of the more 
significant challenges identified, along with any successful ISAC 
practices and related actions that have been taken or planned by DHS or 
others.
    Many of the ISACs report that they represent significant 
percentages of their industry sectors; at least one--the Electricity 
ISAC--reports participation approaching 100 percent. The ISAC Council 
estimates that the overall ISAC community possess an outreach and 
connectivity capability to reach approximately 65 percent of the 
private critical infrastructure. The Council also recognizes the 
challenge of increasing sector participation, particularly to reach 
smaller entities that need security support, but have insufficient 
resources to actively contribute and pay for such support. Officials in 
DHS's IAIP acknowledge the importance of reaching out to critical 
infrastructure entities, and are considering alternatives to address 
this issue.
    The Financial Services ISAC provides a notable example of efforts 
to respond to this challenge. Specifically, officials for this 
organization reported that, as of March 2003, its members represented a 
large portion of the sector's assets, but only 0.2 percent of the 
number of entities with small financial services firms and insurance 
companies, in particular, were underrepresented. To increase its 
industry membership, this organization established its next generation 
ISAC, which provides different levels of service--ranging from a free 
level of basic service to fees for value-added services--to help ensure 
that no entity is excluded because of cost. Further, it has set goals 
of delivering urgent and crisis alerts to 80 percent of the Banking and 
Finance sector by the end of 2004 and to 99 percent of the sector by 
the end of 2005. To help achieve these goals, the Financial Services 
ISAC has several other initiatives under way, including obtaining the 
commitment of the Financial Services Sector Coordinating Council 
(FSSCC--the sector coordinator and primary marketing arm for this ISAC) 
to drive the marketing campaign to sign up its members for the 
appropriate tier of service; encourage membership through outreach 
programs sponsored by the Federal Deposit Insurance Corporation and the 
FSSCC in 24 cities; and to work with individual sector regulators to 
include in their audit checklists whether a firm is a member of the 
ISAC. The Financial Services ISAC believes that its goals are 
attainable and points to its industry coverage, which it says had 
already increased to 30 percent in March 2004--only three months after 
its new membership approach began in December 2003.
    Other issues identified that were related to increasing sector 
participation and reach included the following,
        <bullet> Officials at two of the ISACs we contacted considered 
        it important that the federal government voice its support for 
        the ISACs as the principal tool for communicating threats.
        <bullet> The ISAC Council has suggested that a General Business 
        ISAC may need to be established to provide baseline security 
        information to those general businesses that are not currently 
        supported by an ISAC.
        <bullet> Many of the industries that comprise our nation's 
        critical infrastructures are international in scope. Events 
        that happen to a private infrastructure or public sector 
        organization in another country can have a direct effect in the 
        United States, just as events here could have effects in other 
        countries. Therefore, an ISAC may need to increase its reach to 
        include the reporting and trust of international companies and 
        organizations.

Building Trusted Relationships
    A key element in both establishing an ISAC and developing an 
effective public/private partnership for CIP is to build trusted 
relationships and Building Trusted Relationships processes. From the 
ISAC perspective, sharing information requires a trusted relationship 
between the ISAC and its membership, such that companies and 
organizations know their sensitive data is protected from others, 
including competitors and regulatory agencies. According to the ISAC 
Council, the ISACs believe that they provide a trusted 
informationsharing and analysis mechanism for private industry in that 
they manage, scrutinize, establish, and authenticate the identity and 
ensure the security of their membership, as well as ensuring the 
security of their own data and processes. Other steps taken by ISACs to 
safeguard private companies' information, which may help to foster 
trusted relationships, included sharing information with other entities 
only when given permission to do so by the reporting entity and 
providing other protections, such as distributing sensitive information 
to subscribers through encrypted e-mail and a secure Web portal.
    Building trusted relationships between government agencies and the 
ISACs is also important to facilitating information sharing. In some 
cases, establishing such relationships may be difficult because sector-
specific agencies may also have a regulatory role; for example, the 
Environmental Protection Agency has such a role for the Water sector 
and HHS' Food and Drug Administration has it for portions of the Food 
and Agriculture sectors.

Information Sharing Between the Private Sector and Government
    Sharing information between the federal government and the private 
sector on incidents, threats, and vulnerabilities continues to be a 
challenge. As we reported last year, much of the reluctance by ISACs to 
share information has focused on concerns over potential government 
release of that information under the Freedom of Information Act, 
antitrust issues resulting from information sharing within an industry, 
and liability for the entity that discloses the information.\8\ 
However, our recent discussions with the ISACs--as well as the 
consensus of the ISAC Council--identified additional factors that may 
affect information sharing by both the ISACs and the government.
---------------------------------------------------------------------------
    \8\ U.S. General Accounting Office, Critical Infrastructure 
Protection: Efforts of the Financial Services Sector to Address Cyber 
Threats, GAO-03-173 (Washington, D.C.: Jan. 30, 2003); and Critical 
Infrastructure Protection: Challenges for Selected Agencies and 
Industry Sectors, GAO-03-233 (Washington, D.C.: Feb. 28, 2003).
---------------------------------------------------------------------------
    The ISACs we contacted all described efforts to work with their 
sector specific agencies, as well as with other federal agencies, 
ISACs, and organizations. For example, the Public Transit ISAC said 
that it provides a critical link between the transit industry, DOT, 
TSA, DHS, and other ISACs for critical infrastructures and that it 
collects, analyzes, and distributes cyber and physical threat 
information from a variety of sources, including law enforcement, 
government operations centers, the intelligence community, the U.S. 
military, academia, IT vendors, the International Computer Emergency 
Response Community, and others. Most ISACs reported that they believed 
they were providing appropriate information to the government but, 
while noting improvements, still had concerns with the information 
being provided to them by DHS and/or their sector specific agencies. 
These concerns included the limited quantity of information and the 
need for more specific, timely, and actionable information. In 
particular, one ISAC noted that it receives information from DHS 
simultaneously with or even after news reports, and that sometimes the 
news reports provide more details.
    In its recent white papers, the ISAC Council also has identified a 
number of barriers to information sharing between the private sector 
and government. These included the sensitivity of the information (such 
as law enforcement information), legal limits on disclosure (such as 
Privacy Act limitations on disclosure of personally identifiable 
information), and contractual and business limits on how and when 
information is disclosed (e.g., the Financial Services ISAC does not 
allow any governmental or law enforcement access to its database). But 
the Council also emphasized that perhaps the greatest barriers to 
information sharing stem from practical and business considerations in 
that, although important, the benefits of sharing information are often 
difficult to discern, while the risks and costs of sharing are direct 
and foreseeable. Thus, to make information sharing real, it is 
essential to lower the practical risks of sharing information through 
both technical means and policies, and to develop internal systems that 
are capable of supporting operational requirements without interfering 
with core business. Consequently, the technical means used must be 
simple, inexpensive, secure, and easily built into business processes.
    According to the Council, the policy framework must reduce 
perceived risks and build trust among participants. Further, the 
Council identified three general areas that must be addressed in policy 
for the information-sharing network to assure network participants that 
there is good reason to participate and that their information will be 
dealt with appropriately. These areas concern policies related to what 
information is shared within ISACs, across ISACs, and to and from 
government; actions to be performed at each node in the information-
sharing network, including the kinds of analysis to be performed; and 
the protection of shared information and analysis in terms of both 
limitations on disclosure and use and information security controls.
    The white papers also described the processes that are believed to 
be needed to ensure that critical infrastructure and/or security 
information is made available to the appropriate people with reasonable 
assurance that it cannot be used for malicious purposes or 
indiscriminately re-distributed so as to become essentially public 
information. These processes and other information-sharing 
considerations and tasks identified by the Council included the 
following:
        <bullet> The ISAC information-sharing process needs to 
        recognize two types of information categories--classified and 
        sensitive but unclassified. However, the majority of 
        information sharing must focus on the unclassified ``actionable 
        element'' that points the recipient to a problem and to 
        remediation action.
        <bullet> Each ISAC is responsible for initially validating the 
        trust relationship with its member organizations and for 
        periodically re-assessing that trust relationship. The security 
        structure must understand and continually be in dialogue with 
        its vetted members and must manage this trusted relationship.
        <bullet> Each individual who receives shared information must 
        have a background check completed by and at a level of 
        comprehensiveness specified by the sponsoring organization.
        <bullet> Consequences and remediation must be developed and 
        understood to address situations in which information is 
        disclosed improperly--either intentionally or unintentionally.
        <bullet> The government's data and information requirements for 
        the sectors and the sectors' requirements for the government 
        need to be defined.
        <bullet> The government should establish a standing and formal 
        trusted information-sharing and analysis process with the ISACs 
        and sector coordinators as the trusted nodes for this 
        dissemination. This body should be brought in at the beginning 
        of any effort, and DHS products should be released to this 
        group for primary and priority dissemination to their 
        respective sectors.
    Building this trusted information-sharing and analysis process is 
also dependent on the protections the government provides for the 
sensitive data shared by ISACs and private companies. As discussed 
earlier, DHS recently issued the interim rule for submitting protected 
critical infrastructure information, which provides restrictions on the 
use of this information and exempts it from release under the Freedom 
of Information Act. However, it remains to be seen whether these 
protections will encourage greater private-sector trust and information 
sharing with the federal government.

Identifying Roles and Responsibilities
    Federal CIP law and policies, including the Homeland Security Act 
of 2002, the National Strategy to Secure Cyberspace, and HSPD-7, 
establish CIP responsibilities for federal agencies, including DHS and 
others identified as sector-specific agencies for the critical 
infrastructure sectors. However, the ISACs believe that the roles of 
the various government and private sector entities involved in 
protecting critical infrastructures must continue to be identified and 
defined. In particular, officials for several ISACs wanted a better 
definition of the role of DHS with respect to them. Further, officials 
for two ISACs thought other agencies might more appropriately be their 
sector-specific agencies. Specifically, the Energy ISAC would like its 
sector-specific agency to be DHS and not the Department of Energy, 
which is also the regulatory agency for this sector. On the other hand, 
the Highway ISAC thought its sector-specific agency should be the 
Department of Transportation--the regulatory agency for its sector--and 
not DHS.
    The ISAC Council also identified the need for DHS to establish the 
goals of its directorates and the relationships of these directorates 
with the private sector. The Council also wants clarification of the 
roles of other federal agencies, state agencies, and other entities--
such as the National Infrastructure Assurance Council.

Obtaining Government
    Ten of the ISACs we contacted, plus the Healthcare sector, 
emphasized the importance of government funding for purposes including 
creating the ISAC, supporting operations, increasing membership, 
developing metrics, and providing for additional capabilities. 
According to ISAC officials, some have already received federal 
funding: the Public Transit ISAC initially received a $1.2 million 
grant from the Federal Transit Administration to begin operations, and 
the Water ISAC received a $2 million grant from EPA for fiscal year 
2004 to cover annual operating costs and expand memberships to smaller 
utilities. In addition, the Financial Services ISAC received $2 million 
from the Department of the Treasury to help establish its next-
generation ISAC and its new capabilities, including adding information 
about physical threats to the cyber threat information it disseminates.
    Despite such instances, funding continues to be an issue, even for 
those that have already received government funds. For example, the 
Healthcare Sector Coordinating Council, which is the sector coordinator 
for the healthcare industry, is currently looking to the federal 
government to help fund the creation of a Healthcare ISAC. Also, 
officials at the Public Transit ISAC noted that funding is an ongoing 
issue that is being pursued with DHS. Officials at the Financial 
Services ISAC, who notes that the ISAC's goal is to become totally 
self-funded through membership fees by 2005, are also seeking 
additional government funding for other projects.
    The ISAC Council has also suggested that baseline funding is needed 
to support core ISAC functionalities and analytical efforts within each 
sector. The Council's suggestions include that the government should 
procure a bulk license for the ISACs to receive data directly from some 
vulnerability and threat sources and access to analytical or modeling 
tools and that the funding for an ISAC analyst to work at DHS to 
support analysis of sector-specific information or intelligence 
requirements.
    According to the Financial Services ISAC, DHS has agreed to fund 
tabletop exercises for some ISACs. For example, according to DHS 
officials, exercises are occurring this week involving the Banking and 
Finance sector and exercises for other sectors are currently being 
explored. In addition, energy sector-related exercises were held 
earlier in the year. DHS officials also stated that funding 
considerations for the critical infrastructure sectors and the ISACs 
would be based on their needs.

Utilizing Sector Expertise
    In our discussions with ISAC officials, several, such as officials 
from the Surface Transportation and the Telecommunications ISACs, 
highlighted their analysis capabilities and, in particular, their 
analysts' sector-specific knowledge and expertise and ability to work 
with DHS and other federal agencies. The ISAC Council also emphasized 
that analysis by sector specific, subject matter experts is a critical 
capability for the ISACs, intended to help identify and categorize 
threats and vulnerabilities and then identify emerging trends before 
they can affect critical infrastructures. Sector-specific analysis can 
add critical value to the information being disseminated, with products 
such as 24/7 immediate, sector-specific, physical, cyber, all threat 
and incident report warning; sector-specific information and 
intelligence requirements; forecasts of and mitigation strategies for 
emerging threats; and cross-sector interdependencies, vulnerabilities, 
and threats.
    The Council also emphasized that although government analytical 
efforts are critical, private-sector analytical efforts should not be 
overlooked and must be integrated into the federal processes for a more 
complete understanding. The private sector understands its processes, 
assets, and operations best and can be relied upon to provide the 
required private-sector subject matter expertise.
    In a few cases, the integration of private-sector analytical 
capabilities with DHS does occur. For example, the Telecommunications 
ISAC, as part of Participation in National Homeland Security DHS's 
National Communication System, has watch standers that are part of the 
DHS operations center and share information, when the information owner 
allows it and when it is appropriate and relevant, with the other 
analysts. In addition, a Surface Transportation ISAC analyst also 
participates in the DHS operations center on a part-time basis to offer 
expertise and connection to experts in the field in order to clarify 
the impact of possible threats.

Participation in National Homeland Security Exercises
    The ISAC Council highlighted the need for ISAC participation in the 
national-level homeland security exercises that are conducted by the 
federal government, such as DHS's May 2003 national terrorism exercise 
(TOPOFF 2), which was designed to identify vulnerabilities in the 
nation's domestic incident management capability. However, according to 
the Council, there has been little or no integration of active private 
industry and infrastructure into such exercises. For example, private 
industry participation in TOPOFF 2 was simulated. The Council believes 
that with such participation, both national and private-sector goals 
could be established during the creation of the exercise and then 
addressed during the exercise.
    The Council did identify examples where the private sector is being 
included in exercises, such as efforts by the Electronics Crime Unit of 
the U.S. Secret Service to reach out to the private sector and support 
tabletop exercises to address the security of private infrastructures. 
Further, according to a DHS official, the department has agreed to fund 
tabletop exercises for members of several ISACs, including Financial 
Services, Chemical, and Electricity, as well as a cross-sector tabletop 
exercise.

Additional Challenges
    Additional challenges identified by our work and/or emphasized by 
the ISAC Council included the following.
        <bullet> Obtaining Security Clearances to Share Classified 
        Information. As we reported last year, several ISACs identified 
        obtaining security clearances as a challenge to government 
        information sharing with the ISACs. Seven of the 15 ISACs with 
        which we discussed this issue indicated either that some of 
        their security clearances were pending or that additional 
        clearances would be needed.
        <bullet> Identifying Sector Interdependencies. Federal CIP 
        policy has emphasized the need to identify and understand 
        interdependencies between infrastructure sectors. The ISAC 
        Council also highlighted the importance of identifying 
        interdependencies and emphasized that they require partnerships 
        between the sectors and the government and could only be 
        modeled, simulated, or ``practiced'' once the individual 
        sectors' dynamics are understood sufficiently. The current 
        short-term focus for the ISACs is to review the work done by 
        the government and the sectors regarding interdependencies. 
        Similarly, a DHS official acknowledged the importance of 
        identifying interdependencies, but that it is a longer-term 
        issue.
        <bullet> Establishing Communications Networks. Another issue 
        raised through the ISAC Council's white papers was the need for 
        a government-provided communications network for secure 
        information sharing and analysis. Specifically, the Council 
        suggested that although functionality would be needed to 
        satisfy the ISACs' requirements, DHS's Critical Infrastructure 
        Warning Information Network (CWIN) could be used as an interim, 
        first-phase communications capability. According to the 
        Council, some of the ISACs are conducting routine 
        communications checks at the analytical level in anticipation 
        of expanded use of CWIN. In discussing this issue with a DHS 
        official, he said that ISAC access to a secure communications 
        network would be provided as part of the planned Homeland 
        Security Data Network (HSDN). DHS recently announced a contract 
        to initiate the implementation of HSDN, which is be a private, 
        certified, and accredited network that provides DHS officials 
        with a modern IT infrastructure for securely communicating 
        classified information. According to DHS, this network will be 
        designed to be scalable in order to respond to increasing 
        demands for the secure transmission of classified information 
        among government, industry, and academia to help defend against 
        terrorist attacks.

DHS Information-Sharing Plan
    At the time of our study, the relationship and interaction among 
DHS, the ISACs, sector coordinators, and other sector-specific agencies 
was still evolving, and DHS had not yet developed any documented 
policies or procedures. As we discussed earlier, HSPD-7 requires the 
Secretary of Homeland Security to establish uniform policies for 
integrating federal infrastructure protection and risk management 
activities within and across sectors. According to a DHS official, the 
department is developing a plan (referred to as a ``roadmap'') that 
documents the current information-sharing relationships among DHS, the 
ISACs, and other agencies; goals for improving that information-sharing 
relationship; and methods for measuring the progress in the 
improvement. According to this official, the plan is to define the 
roles and responsibilities of DHS, the ISACs, and other entities, 
including a potential overlap of ISAC-related responsibilities between 
IAIP and the Transportation Security Administration. Further, the 
official indicated that, in developing the plan, DHS would consider 
issues raised by the ISAC Council.
    In summary, since first encouraged by federal CIP policy almost 6 
years ago, private-sector ISACs have developed and evolved into an 
important facet of our nation's efforts to protect its critical 
infrastructures. They face challenges in increasing their sector 
representation and, for some, ensuring their long-term viability. But 
they have developed important trust relationships with and between 
their sectors--trust relationships that the federal government could 
take advantage of to help establish a strong public/private 
partnership. Federal agencies have provided assistance to help 
establish the ISACs, and more may be needed. However, at this time, the 
ISACs and other stakeholders, including sector-specific agencies and 
sector coordinators, would benefit from an overall strategy, as well as 
specific guidance, that clearly described their roles, 
responsibilities, relationships, and expectations. DHS is beginning to 
develop a strategy, and in doing so, it will be important to consider 
input from all stakeholders to help ensure that a comprehensive and 
trusted information-sharing process is established.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or members of the subcommittee may have 
at this time.
    If you should have any questions about this testimony, please 
contact me at (202) 512-3317 or Ben Ritt, Assistant Director, at (202) 
512-6443. We can also be reached by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d797c7e78646f5d7a7c72337a726b">[email&#160;protected]</a> and 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="42302b3636350225232d6c252d34">[email&#160;protected]</a>, respectively.
    Other individuals making key contributions to this testimony 
included William Cook, Joanne Fiorino, Michael Gilmore, Barbarol James, 
Lori Martinez, and Kevin Secrest.

    Mr. Thornberry. Thank you, sir. I appreciate your much more 
detailed written statement which I read last night, that goes 
into considerably more detail.
    Mr. McCurdy, if you can do 5 minutes, we will go ahead and 
have you at it.

 STATEMENT OF THE HONORABLE DAVE MCCURDY, EXECUTIVE DIRECTOR, 
                   INTERNET SECURITY ALLIANCE

    Mr. McCurdy. Mr. Chairman, I am used to a 2-minute rule, 
actually.
    [Laughter.]
    I will submit even the summary of my statement for the 
record as well. Let me just briefly, as I understand what the 
subcommittee is interested in. The Internet Security Alliance 
was actually formed in April 2001, 5 months before 9-11. I was 
actually in Tokyo at an OECD meeting on 9-11 defining cyber 
security best practices. So we have been at this for quite some 
time.
    We formed a novel model. We had looked at the ISAC models 
and we in industry, in representing the Electronic Industries 
Alliance of over 2,500 member companies, found that those 
models were not sufficient for the needs of industry in 
improving cyber security. We created a cross-sectoral 
international organization that integrates many of the security 
services into one coherent model. The Internet Security 
Alliance is structured in a fundamentally different way than 
the traditional ISACs.
    Let me just briefly say what they are. Cross-sectoral, we 
have members from the financial industry, from insurance, 
telecommunications, defense and security industries, consumer 
electronics, food products, and even the National Association 
of Manufacturers that represents over 12,000 companies. We 
designed the organization this way because quite frankly the 
Internet is structured this way, cross-sectoral. It knows no 
borders. It knows no boundaries, whether it is national or 
international. A cyber-attack on the Internet affects a lot of 
these companies the same way. I do not care if you are AIG, 
Coca-Cola, Sony, Verizon or Visa, all of whom are members of 
the Internet Security Alliance.
    I said it is international. We have members on four 
continents. These are trusted partners, but they are dealing 
with similar concerns, and that is consistent with the national 
plan to secure cyber space. We are also developing security 
anchor programs in Latin America and other countries such as 
India.
    Finally, our model attempts to provide, when I say a 
comprehensive, coherent and integrated approach to cyber 
security, we go beyond just information sharing. We had a 
partnership with the CERT/CC. I serve on the board of advisers 
for the Carnegie Mellon Software Engineering Institute and 
developed this relationship over quite some time on how they 
could improve their dissemination of information and get the 
feedback from industry.
    We developed best practices. We are in our third practice 
book that just came out for small businesses. We had one for 
corporate leadership, the CEO-level leadership in major 
companies, and we had one for individual users. We have teamed 
with groups in order to make that work. We get that information 
from industry, working to build on the research also at 
Carnegie Mellon. These practice editions have been endorsed by 
TechNet and Partnership for Critical Security, NAM, the U.S. 
Chamber, and others.
    In addition to that, we believe that wide distribution is 
critical, but currently it is not being done sufficiently. So 
we have developed some market-based incentives and some 
programs to try to get higher buy-in from the industry 
leadership. We have developed a program with AIG insurance 
where you have discounts if you follow best practices. There 
are tools being developed by a consortium on security trying to 
have metrics by which they can even determine whether or not 
there is a qualified member in order to participate.
    Finally, a lot of this I think when people think of cyber, 
they think it is only an IT issue. It is both a physical and an 
IT issue. They are interlinked. We have been doing this for 
some time. TIA, Telecommunications Industry Association, is our 
sector association in that space, and they have been a sector 
leader on critical infrastructure long before 9-11 or the 
recent concerns.
    We are also working on risk management relationships and 
initiatives with industry. Lastly, I think the headline from 
this hearing and the question you really have is, how are we 
working with DHS? I commend DHS for their efforts. They finally 
have staff on the ground in place, and I think they are looking 
at developing plans. They appear to have decided on the ISAC 
Council as their prime link to the private sector, but the 
ISACs, while critical elements in this struggle, quite frankly 
do not represent everyone.
    My concern from my experience, having sat where you do in 
this very room for many, many hours, I can assure you that 
government's approach is often silo-based and that is part of 
the problem that we have seen in dealing with government 
institutions and sharing. We decided we had to reach beyond 
that. That is why we created the Internet Security Alliance. We 
want to work with DHS. We want to be fully integrated into 
their discussions and we want to be full members of the 
partnership, whether that means that we are a cross-sector ISAC 
at some point of a tier-one partner. We do not know what the 
classification should be, but we do reach out. We have a great 
deal of experience.
    We also have a great deal of experience with the CERT/CC on 
how we can help them improve the type of information which is 
relevant to industry. We were talking about information 
overload. I get emails every single day with another alert. 
There were four this morning, as a matter of fact. I think 
there is a way to narrow those. Mr. Dacey mentioned conference 
calls. We want to analyze the information and we pull groups 
together that actually take these alerts and translate them to 
meaningful, actionable items that the corporate sector or 
industry can actually work to improve their security.
    Again, I appreciate the opportunity. I look forward to 
working with you all. I commend you for your efforts. I know 
how serious you take this and how important it is for the 
nation. Again, this is just not a national issue. This is 
cross-border. It is international. We think we have opened the 
way to help address the bigger plan, the bigger strategy of 
reaching other countries as well.
    Thank you.
    [The statement of Mr. McCurdy follows:]

            Prepared Statement of the Honorable Dave McCurdy

    Thank You Mr. Chairman.
    My name is Dave McCurdy. I am President of the Electronic 
Industries Alliance and Executive Director of the Internet Security 
Alliance (ISAlliance).
    I am delighted to be here today to discuss how the federal 
government can improve its coordination with the private sector and 
thus, improve worldwide information security.
    As a cross-sector, international organization, which integrates 
many different security services into one coherent model, the Internet 
Security Alliance, is structured in a fundamentally different way than 
traditional Information Sharing and Analysis Centers (ISACs). We 
believe this model has much to recommend, not as a substitute for the 
ISACs, but as a complement to them. I am concerned, however, that we 
are not yet seeing this potential realized. Greater involvement and 
coordination with the ISACs and the Department of Homeland Security 
(DHS) would be extremely helpful to organizations like the ISAlliance, 
and the companies they represent and I believe would be in the best 
interests of our own national security.
    Today I would l like to cover three main points.
        1. I would like to outline the model the Internet Security 
        Alliance operates under and suggest some fundamental 
        differences from the traditional ISAC model.
        2. I want to discuss how this model facilitates the development 
        of an integrated, comprehensive, and coherent approach to cyber 
        security, and I want to offer a couple of examples of how this 
        approach can enhance our efforts to promote cyber security.
        3. I want to raise some organizational issues regarding DHS 
        coordination with models such as ours. I believe that 
        organizations such as our need to be fully integrated into the 
        public private partnership between DHS and the private sector 
        either as an inter-sectoral ISAC or with equivalent status 
        within the tier one partnership with the ISACs.
    Before I begin I want to make our posture with respect to the ISACs 
very clear. About a quarter of our membership also participates in 
ISACs. Some of our Board members also serve on the Boards of various 
ISACs. We regard the ISACs as ``comrades in arms.''
    It is surely true that there are some issues unique to industry 
sectors that are most effectively dealt with by a sector specific 
domestic entity. However, the ISAlliance also concurs with the National 
Strategy to Secure Cyber Space that found that ``some cyber security 
problems have national implications and cannot be solved by individual 
enterprises and sectors alone.''
    We do not seek to displace the ISACs; we seek to work more closely 
with them, and DHS.

THE INTERNET SECURITY ALLIANCE MODEL
CROSS-SECTOR INFORMATION SHARING & ANALYSIS AVAILABLE TO ALL
    The ISAlliance was created in April of 2001, five months before the 
attacks on the Pentagon and the World Trade Center. We created it 
because, even then, we saw the need for a new approach to the growing 
cyber threat.
    In contrast to the ISACs, which are generally structured along 
traditional industry specific silos, the ISAlliance has members from 
many different sectors. We designed the organization this way because 
the Internet is organized this way. Essentially, we are all using the 
same Internet. So, from the cyber security perspective the threats and 
attacks may be very similar regardless if you are Coca-Cola, Sony, Visa 
or VeriSign (all members of ours). As a result, there is much to learn 
from, and help can be offered to, your brother companies regardless of 
industry sector.
    As a member of the Board of Advisors of the Software Engineering 
Institute at Carnegie Mellon University, I have had substantial contact 
with the experts at the CERT/cc at Carnegie Mellon who educated me on 
this growing problem in 2000. We decided then that the private sector 
needed to not only contribute to, but to demonstrate leadership in 
making this critical infrastructure more secure. We devised a creative 
public private partnership, which integrated and maximized the 
complementary assets of CERT, the federal government and private 
industry.
    CERT/cc, which was funded primarily by the U.S. federal government, 
had long been recognized as the premier center for Internet threat and 
vulnerability information. But it lacked a practical channel to get 
this information to the private sector, or stimulate interest in the 
necessary education, training, policy development and incentive 
programs that would be required to fully achieve the goal of 
information security.
    EIA has been involved in physical security through the 
Telecommunications Industry Association (TIA) which is both a sector of 
EIA and an ISAC sector coordinator. Since we understood that physical 
and cyber security are most effectively dealt with in an integrated 
fashion, we sought a mechanism to bring these entities together.
    We decided on collaboration between CERT/cc and EIA called the 
ISAlliance. Using the EIA member companies as a marketing base we 
recruited corporations to join the ISAlliance. They paid dues, and in 
return, operating under strict non-disclosure agreements would receive 
access to prime CERT/cc information. They would share this information 
with each other and the CERT/cc to identify and analyze looming threats 
and collectively work on solutions.
    Since the ISAlliance members were receiving more from CERT/cc than 
the general public they agreed to pay a fee for this benefit. It was 
seen as a user fee similar to that paid by patrons at National Parks. 
While some companies using other, non-CERT, the ISAlliance services 
paid substantial dues, we never wanted money to be a barrier to entry 
into the ISAlliance. Dues entitling companies to the same CERT/cc 
information (albeit fewer copies) were set as low as $3,000 a year--
affordable for virtually any private firm. And, though we don't like to 
publicize it for obvious reasons, we have made financial adjustments 
for companies who had difficulty making the specified dues payment.

INTERNATIONAL
    The ISAlliance is also focused internationally, where ISACs tend to 
be U.S.--centric. The ISAlliance has members on four continents. Our 
current Chairman of the Board. Dr. Bill Hancock, is from a British 
company and we have four other non-U.S. based companies on our Board 
along with eleven U.S. based companies. The international aspect of our 
efforts is important because cyber security is inherently an 
international issue. Many attacks originate offshore and implementing a 
truly effective means of securing cyber space must include finding and 
working with trusted offshore partners.
    As the U.S. National Strategy to Secure Cyber Space states, in 
part; ``America's cyberspace is linked to the rest of the world''. . . 
. Securing global cyber space will require international cooperation to 
raise awareness, increase information sharing, promote security 
standards. . .The United States will seek the participation of U.S. 
industry to engage foreign counterparts in peer-to-peer dialogue with 
the twin objectives of making an effective business case for cyber 
security and explaining successful means for partnering with government 
on cyber security.''
    I'd like to offer a quick example of our efforts. After making a 
presentation to the Organization of American States (OAS) first broad 
conference on cyber security last August, OAS staff requested that the 
ISAlliance construct a specific program to integrate the private sector 
in the OAS region into the state-to-state programs for cyber security 
that were being developed. We came up with what we call our ``Security 
Anchor'' program.
    This program is built on the ``Transition Partner'' program 
developed at Carnegie Mellon University. Under the Security Anchor 
Program private sector entities would obtain a special membership with 
the ISAlliance, which will allow them to essentially become ``branch 
offices'' within their regions. The Security Anchor for the region 
would distribute appropriate information about threats and 
vulnerabilities and hold meetings and conferences, but on local time 
providing translation as necessary for materials. The Anchor ``tenant'' 
would also be required to send personnel to Carnegie Mellon where they 
would be trained as trainers. The Anchor would then provide this 
training in their region, for which they could receive payment. We 
believe providing a market incentive to our Anchor partner is the most 
efficient and effective way to accomplish the goals set forth in our 
National Strategy.
    In this way we hope to make international cyber security ``home 
grown.'' We believe this is the only way that we can hope to succeed in 
reaching the international goals as set forth in the National Strategy. 
The U.S. can't expect to ``export'' security.

AN INTERGRATED COMPREHENSIVE AND COHERENT APPROACH TO CYBER SECURITY 
USING MARKET FORCES AS INCENTIVES
    The ISAlliance attempts to provide its members with a 
comprehensive, coherent and integrated approach to cyber security that 
uses market forces to drive on-going improvements in cyber hygiene.

INFORMATION DISSEMINATION AND ANALYSIS
    Like many ISACs, we begin with information dissemination and 
sharing about emerging threats, vulnerabilities and attacks on the 
Internet. We have historically done this though a contractual 
relationship with the CERT/cc as a founding partner in the ISAlliance.
    In our three years of operations we have sent out literally 
thousands of these notices. We just released our first quarter 
technical report to the membership, which showed that in 2004 alone we 
have already sent out through our e-mail channel hundreds of reports, 
which have been followed by scores of analytical conferences between 
the members and CERT/cc.
    When we, started several years ago, our prime activity was 
information sharing, mostly through e-mail notices. However, experience 
has taught us that simply disseminating information is by no means 
enough. In fact, our members have told us that at times there is too 
much information being circulated and the real need is to be able to 
separate out what is important and what is simply noise.
    Information analysis is critical if threat and vulnerability data 
is to be used effectively. We facilitate the analytical process with 
regularly scheduled, as well as specially scheduled, meetings where in 
our members discuss the state of the network with the CERT/cc 
professionals. We have found the regularity of this process creates, 
over time, a sense of trust and confidence that we think is vital for 
effective information sharing.

DEVELOPING BROADLY ENDORSED BEST PRACTICES
    While information sharing and analysis is a critical first step on 
the road to cyber security, is not sufficient to secure cyber space. 
Virtually every recent major attack we have experienced such as 
Blaster, Slammer, or MyDoom, resulted from a vulnerability, which was 
already well known, in the community.
    At the ISAlliance we took the collaborative process of sharing 
information and built from it a systematic program of best practices. 
The process of developing the best practices is lead by the experts at 
Carnegie Mellon and CERT/cc and is consistent with the years of 
grounded research they have done and the theory of security that has 
evolved from their experience and analysis.
    However, we also involve the full membership in our processes, so 
that the perspectives of actual businesses from multiple sectors and 
counties are folded into the final product. One advantage of this 
inclusive process has been that our practices have received an 
impressive level of support and endorsement from a wide breadth of the 
user community.
    For example, our first publication, ``The Common Sense Guide for 
Senior Managers'' was endorsed by the National Association of 
Manufacturers (NAM) which represents 12,000 of the most traditional of 
industries, as well TechNet which primarily represents the high-tech 
companies in Silicon Valley. Internationally it has been translated 
into Spanish and Japanese and was endorsed by the U.S. India Business 
Council and distributed by the Organization of American States.

CREATING MARKET INCENTIVES TO ENCOURAGE ADOPTION OF BEST PRACTICES--THE 
QUALIFIED MEMBER PROGRAM
    However, developing best practices is also not enough. CEOs are 
overwhelmed with information. To succeed with them on this subject, 
which has traditionally been viewed as a ``cost center,'' you have to 
do more than just tell them it's the right thing to do. We have to talk 
about issues they care about, like profitability, liability protection 
and marketing. We need to develop market incentives to increase the 
Return on Investment (ROI) for cyber security.
    The ISAlliance has taken the lead on this issue. In the final 
quarter of 2003 we signed an agreement with AIG, which is the world's 
market leader in cyber insurance. Under this new agreement AIG will 
provide insurance premium credits of up to 15% for companies that will 
join the ISAlliance and subscribe to our best practices. We believe 
this is the first operating program which specifically ties a widely, 
and independently endorsed set of cyber security best practices 
directly to lower business costs.
    We are working through AIG and the Global Security Consortium 
(GSC), comprised of the big auditing and accounting firms, on empirical 
standards with which we will be able to use to measure compliance with 
these practices. Not only will this tool enable us to more reliably 
determine who qualifies for the credits, but also it opens up another 
potential market incentive for improved security. We want to interest 
firms in marketing cyber security.
    Firms that achieve a specified score will be deemed a ``Qualified 
Member'' allowing them to use that designation as a market 
differentiator. Through this mechanism we hope to make cyber security a 
useful marketing tool for good actor companies, much like the Baldrige 
Award has been used for high quality companies. GSC hopes to have their 
tool completed shortly and then this phase of the program can begin.

DISCOUNTED EDUCATION AND TRAINING COMPLETE THE LOOP
    Finally, for firms who don't yet score at an appropriate level to 
qualify for our discounts, we offer access to a wide range of training 
programs through Carnegie Mellon University. In keeping with the market 
orientation of our program, the more active a company is in the 
ISAlliance, the greater the discount they can receive on their 
training. Our interest is to accurately inform organizations where they 
stand in relation to the widely endorsed best practices, and help them 
reach an appropriate level if they are not already there. Most 
importantly, the people doing the training are operating on the same 
assumptions and best practices that we started with in the first place 
thus creating a truly coherent program.

BEST PRACTICES FOR SMALLER BUSINESSES
    This program is just one example of our activities. In fact, this 
afternoon we will be testifying before another Committee on a similar 
program, this time specifically targeted to the unique needs of smaller 
businesses. The National Cyber Summit, recognizing the value of 
programs such as I have just described, and realizing that there was 
not nearly enough being done to reach out to smaller businesses, asked 
us to undertake this new effort this past December.
    Although smaller businesses have not until now been our prime 
market interest we agreed to take up the challenge. Working with the 
U.S. Chamber of Commerce, the National Federation of Independent 
Business (NFIB) and NAM we followed the same integrated, market 
centered model we described above. We held ten focus groups involving 
nearly 100 small businesses to find out what needed to be done to 
improve their cyber security.
    What we learned was that smaller institutions are indeed different 
from larger ones. In fact, we found that organizations across a wide 
spectrum of business types had remarkably similar problems from a cyber 
perspective. The similarities for these businesses were not the type of 
business they were in, but the size of their business and the extent of 
the technology available to them. As a result, the ``Common Sense Guide 
to Cyber security for Small and Medium Sized Businesses'' looks quite 
different from the Guide for Senior Corporate Managers.
    We are happy to report that what was not very different is the 
response, which has been extremely positive. Already the Cyber Security 
Partnership that grew out of the National Cyber Summit as well as on 
the web sites for the ISAlliance, the Electronic Industries Alliance 
and the National Association of Manufacturers is distributing the Small 
Business Guide. The U.S. Chamber of Commerce has informed us they 
expect to endorse the document at their next Board of Directors meeting 
and the Financial Services Sector Coordinating Council, an alliance of 
28 financial services trade associations will be making it available to 
their members and holding a series of meetings with thousands of its 
members where the Guide will be highlighted.
    Given the fact that this project is only a couple of months old we 
are naturally very encouraged. When mature, we fully expect this 
program will be coherent, measurable and market driven just as was the 
case with the Senior Managers program.

    CYBER AND PHYSICAL SECURITY--REACHING OUT TO RISK MANAGERS
    Another area we are working on is the integration of cyber and 
physical security. We believe, as Secretary Ridge has said, that you 
can't have cyber security without physical security and you can't have 
physical security without cyber security. However, in corporate America 
there remains a misconception that cyber security is an ``IT problem.'' 
While obviously there are many IT aspects to cyber security it is not 
properly classified only as an ``IT problem.''
    Cyber security is a management problem. It is an economic problem. 
It is an employee training, compliance and retention problem. Most of 
all, cyber security is a risk management problem. However, most 
corporate structures still relegate the discussion of cyber security to 
the IT department rather than fully integrating it into the discussions 
with physical security and risk management. We have heard a good deal 
of talk recently about structures within the federal security 
bureaucracy which may have limited information sharing and proper 
threat management. Private industry is not immune to these same types 
of organizational problems.
    Therefore, we have recently undertaken a pilot study reaching out 
to the risk managers in industry in an attempt to find out how we can 
better involve them in the cyber security discussion. We believe that 
it's critical to better integrate physical and cyber security issues 
within the overall corporate risk management structure. We are trying 
to find out how we can do that, from the people who are actually making 
the organizational, budgeting, and resource allocation decisions.
    Although we have initiated this study, it is too early to report 
results. We do expect however, that, as was the case with our other 
projects, we will learn from this effort and we can make further impact 
in securing cyber space. We look forward to sharing these approaches 
both with industry, and to the federal government.

NOT JUST SERVICES; A COHERENT INTEGRATED PROGRAM
    We believe the comprehensiveness of the ISAlliance program is 
making a positive contribution to the cause of information security.
        <bullet> Hundreds of technical notices about Internet threats 
        and vulnerabilities each year to our members from the best 
        source available to private industry.
        <bullet> Scores of analytical conferences to discuss the data 
        and what to do about it
        <bullet> Development of best practices that are widely endorsed 
        and disseminated both domestically and abroad.
        <bullet> Development of independent, auditable third-party 
        evaluation tools and methods
        <bullet> A program of market-based incentives to improve the 
        ROI for cyber security
        <bullet> Education, training and public policy programs.
        <bullet> Initiating new programs to push the envelope into 
        heretofore underserved populations
    But the key aspect is that it is a coherent program. We start with 
the hard data we get from CERT and we blend into that the real world 
needs and experiences of industry and develop programs, practices and 
policies which can drive pragmatic improvements. And then, if 
individual entities can't make the grade they are offered training 
based on the same theories and practices that were used to develop the 
best practices.

COORDINATING WITH THE ISACS AND DHS
    As proud of these accomplishments as we are, we have some concerns 
for the future.
    We supported, and continue to support, the creation of the 
Department of Homeland Security. We in no way wish to be critical of 
the effort and sincerity of the people who are working at DHS. They are 
working very hard to accomplish an enormous task virtually immediately. 
We sincerely hope that our testimony at this point will be taken in the 
spirit it is given, constructive suggestions that we believe will 
assist all of us who are working in this space to be more effective.
    In fact the ideas we offer the Committee today have been previously 
raised with staff and principals and we are continuing to work on them. 
We anticipate that in the due course of time they will be 
satisfactorily resolved. We believe, however, that there are very 
important issues, which must be appropriately addressed.

    DHS SHOULD COORDINATE WITH ALL INFORMATION SHARING ORGANIZATIONS--
NOT JUST ISACS
    We suggest DHS broaden its systematic communication to include 
organizations, such as the ISAlliance, who are providing important 
services, although they are not ISACs.
    In the interdependent cyber world the ``critical infrastructures'' 
may be dependent on the ``non-critical'' organizations that service 
them. In addition to the IT, telecom and financial institutions we 
represent we count the National Association of Manufacturers among our 
sponsors. These are the people who manufacture the parts used to 
construct our defense products and operate the supply chains upon which 
many ``critical'' businesses rely. These organizations also need to be 
systematically included in the on-going public private partnership with 
DHS.
    Moreover, while we are focused on cyber security today from a 
national security perspective, most Internet attacks have nothing to do 
with international terrorism. Cyber security is also a critical 
business issue and from a business perspective the ``non-critical'' 
portions of the economy deserve as much protection as the rest of the 
economy.
    The Department of Homeland Security seems to have decided upon the 
ISACs and the ISAC Council as the primary linkage to the private 
sector. Since we are not formally an ISAC, we are not part of the ISAC 
Council and hence we are not in many of the meetings and discussions 
from which DHS appears to be receiving their primary input. We would 
like to work with DHS and the ISAC Council to integrate our broad 
membership into this forum.
    Two years ago Congress passed legislation, which attempted to 
facilitate the sharing of information between private industry and the 
government. In the initial drafts of that bill the adjustments to FOIA, 
etc. were confined to ISACs. It was correctly pointed out to the 
drafters that there is in fact information sharing outside of the 
formal ISAC structure and the legislation was redrafted to read 
``information sharing organizations.'' We believe DHS should follow 
this precedent in developing their public private partnership.

COMPANIES NEED THE CERT/CC DATA THEY HAVE COME TO RELY ON
    Over the past several years the nearly 60 companies who are members 
of the ISAlliance have come to rely on our working relationship with 
CERT/cc. Last year, DHS announced that they would be launching USCERT 
utilizing in main the facilities formerly known as CERT/cc at Carnegie 
Mellon.
    We have no objection to DHS creating USCERT. Indeed, we see it as 
following and extending the model we created over three years ago for 
how to disseminate CERT/cc data to the private sector.
    However, it would be problematic if suddenly the ISAlliance members 
who have relied on this information to build their corporate security 
plans and policies, are now denied access to that data.
    Indeed, such an outcome could result in a substantial reduction in 
corporate cyber security as companies scramble to find alternative ways 
to receive this information. Moreover, the fact that this data might 
now be available though an ISAC is not an answer since the majority of 
the ISAlliance members, do not participate in ISACs
    We would like to work with DHS to assure that the transfer from 
CERT/cc to USCERT and their new partners does not ironically result in 
less information being available to some worthy companies.
    I want to conclude by noting that DHS has been open to meeting with 
and discussing ways to coordination with us. Just a few weeks ago I met 
privately with Assistant Secretary Liscouski who was most gracious and 
cooperative. I also want to single out Director Yoran, who has been 
especially helpful and has directed that at least for the short term 
the ISAlliance not be denied access to the data its membership has come 
to rely on. We are now hoping to finalize an appropriate long-term 
solution. Moreover, DHS staff have attended meetings with our 
membership and been very supportive. We want to thank and congratulate 
the whole team at DHS for their commitment and efforts.
    And finally I want to thank you, Mr. Chairman and the joint 
Committee for all your work and for holding this hearing this morning.

    Mr. Thornberry. Thank you. A lot of issues to pursue. This 
hearing will stand in recess until five minutes after the 
conclusion of these votes. It will be more than 30 minutes, so 
if you all have a chance to go get something to eat or 
whatever, please do.
    We stand in recess.
    [RECESS]
    Mr. Thornberry. We are going to go ahead and get started. I 
think Mr. McCurdy will be back shortly. Apparently, he went 
down to have a sandwich and probably had long lines.
    Thank you all again for your patience. Ms. VanDe Hei thank 
you particularly for yours. Now, we will turn to you and give 
you an opportunity to summarize your statement and then we will 
turn to questions.

 STATEMENT OF DIANE VANDE HEI, VICE CHAIR, INFORMATION SHARING 
                  AND ANALYSIS CENTER COUNCIL

    Ms. VanDe Hei. Thank you, Mr. Chairman. I assume that my 
written testimony will be part of the record. The summary can 
be as well.
    Mr. Thornberry. Previously, we had unanimous consent for 
all full written statements to be made part of the record.
    Ms. VanDe Hei. I am also assuming you have saved the best 
for last, so I thank you, Mr. Chairman.
    Mr. Thornberry. Absolutely. Let me just say this, we are 
much more relaxed on time now. We have no more votes today, so 
that may work to your benefit or your detriment, depending on 
how you look at it.
    Ms. VanDe Hei. Thank you, Mr. Chairman and distinguished 
members of the subcommittees. It is an honor for me to be here 
today to talk with you about the private sector's relationship 
with the Department of Homeland Security. My name is Diane 
VanDe Hei. I serve as the vice chair of the ISAC Council. I 
also serve as the executive director of the Association of 
Metropolitan Water Agencies and the WaterISAC, Water 
Information Sharing and Analysis Center.
    In the way of background, the ISACs originated when the 
Federal Government issued its policy on critical infrastructure 
protection, otherwise known as Presidential Decision Directive 
63. That directive carried through to the new Administration 
but it is now embodied in a new directive called HSPD-7. I 
cannot tell you what it stands for, but we do pay attention to 
what it says. It continues the emphasis on ISACs and the need 
to share information.
    The ISAC Council brings together 14 sectors at this point, 
including the eight originally designated critical 
infrastructures. We have tried to be inclusive, rather than 
exclusive, wanting to learn from each other. The goal of the 
ISAC Council is to look at not only how we can learn from each 
other in terms of the models we use, but also to look at 
interdependencies. We have formed trusted relationships with 
the other sectors including electric, rail sector, and others 
so that if something happens to them, they can work with us. 
One of the primary goals of the ISAC Council was to build that 
kind of trusted relationship among sectors, but also to begin 
to look at how we could better share information with the 
government and the government could share it with us.
    To improve the ISACs and to help communicate with 
government, the ISAC Council has developed eight white papers 
that reflect the collective analysis of the members of the 
ISACs and cover a broad set of issues and challenges. These 
papers recognize the critical leadership role played by the 
private sector with respect both to the organizational 
structure established in the ISAC, for analysis and information 
sharing, and in the interaction of the ISACs with the 
Department of Homeland Security and other government agencies 
addressing the challenges of infrastructure protection. We have 
shared these papers with Hill staff, DHS and GSA.
    One of the primary challenges to government and the private 
sector is the establishment of a trusted partnership. You have 
undoubtedly heard that a number of times. As I think you all 
know, trusted partnerships cannot be legislated, regulated or 
even stipulated, nor can partnerships be purchased, traded or 
incorporated. We have learned that our ISACs need the full 
support and confidence of certain key elements of government to 
create and maintain a successful comprehensive security 
strategy.
    Furthermore, we are also keenly aware that we, the critical 
infrastructures, need to maintain a trusted relationship with 
our government partners so that we can work with them and their 
staffs to maintain the delicate balance between security and 
privacy. Our relationship with DHS has had a few bumps in the 
road, but overall we have progressed, and I believe have common 
goals and agree on the strong need to partner in information-
sharing and analysis.
    As with the maturation of DHS, so has each of our 
collective ISACs. I do believe that the government assisting 
the private sector with baseline funding for certain sectors is 
ideal. The WaterISAC, the one I am most familiar with, for 
example has received funding from Congress and the U.S. 
Environmental Protection Agency, while we as a sector continue 
to build the private sector contribution to the ISAC. Although 
the information on the WaterISAC is available to 54,000 
community water systems and over 15,000 publicly owned waste 
water treatment facilities, our fee for service is based on 
populations served. We do not differentiate between the kind of 
information utilities receive, but we differentiate based on 
the size of the system. The range in price is from $500 a year 
to $7,500 a year.
    By doing this, we hope to get all of the utilities 
subscribing to the ISAC. Having said that, that has not 
happened. So our next enhanced phase of the WaterISAC is going 
to be development of a push email service that will go to 
thousands of drinking water and waste water, utilities, a 
service that will send DHS and EPA notices and advisories that 
need to be sent out simply because that is the ethical thing to 
do. So we are working on that this year and hope to have the 
new system in place before the end of the year.
    Other ISACs, as you might expect, are structured 
differently depending on the composition of the sector and the 
breadth and scope of the services that sector has decided is 
needed. Banking and finance is different from water is 
different from electric is different from telecom.
    In addition, the DHS IAIP regularly meets with the ISAC 
Council and listens to many of our concerns regarding the need 
for their strong support of the ISACs and the improvement of 
our information-sharing capabilities.
    If I could leave you with two recommendations, it would be 
these. We need your help to ensure that the private sector's 
investment in their ISACs is built upon and strengthened. I 
believe that once you lose this voluntary work, research that 
people have been doing, that it will be lost for good. So we 
need your help to ensure that the investments that have been 
made in building these things is built upon, used and enhanced.
    Second, we need your help to insist that the private sector 
be included up front in the analysis of intelligence. 
Government must learn to trust infrastructure owners and 
operators with real information that allows us to apply our 
resources in a smart way to protect the infrastructures. Again, 
I will just give you a quick example. The WaterISAC employs 
analysts that have top security-plus clearances so that they 
can communicate with intelligence officials in order to provide 
insights into what its impact on water might be. Even with that 
capability, we find that it is after the fact that we are often 
involved, or allowed to participate in any sort of review into 
what a threat to our water system might be. So we could use 
your help in that manner as well.
    That concludes my remarks. I would be glad to answer any 
questions you might have.
    [The statement of Ms. VanDe Hei follows:]

                 Prepared Statement of Diane VanDe Hei

Introduction
    Good afternoon, Chairman Thornberry, Chairman Camp, and 
distinguished members of the subcommittees. It is an honor and a 
privilege to meet with you today to discuss the private sector 
interaction with the Department of Homeland Security (DHS).
    I would like to thank both the Cyber Security, Science, Research & 
Development Subcommittee and the Infrastructure and Border Security 
Subcommittee for creating this important opportunity and inviting the 
ISAC Council to be here today.
    My name is Diane VanDe Hei. I serve as Vice Chair of the 
Information Sharing and Analysis Center (ISAC) Council. I am also 
Executive Director of the Association of Metropolitan Water Agencies as 
well as the Water Information Sharing and Analysis Center (WaterISAC).

Background
    ISACs originated when the Federal Government issued its policy on 
Critical Infrastructure Protection, otherwise known as Presidential 
Decision Directive 63. PDD-63 has been replaced with HSPD-7, to 
authorize and encourage national critical infrastructures to develop 
and maintain ISACs between the private sector in cooperation with 
federal government as a means of strengthening security and protection 
against cyber and operations attacks.

The ISAC Council
    Homeland security presents significant challenges for the ISAC 
community and we look forward to working directly with you in the 
coming months. The work you are doing is extremely important and you 
have the commitment of the ISAC Council to do everything we can to 
assist in protecting the critical infrastructures of the United States.
    I am here today to briefly discuss the ISAC Council and its role in 
protecting critical infrastructures. Members of the subcommittees, the 
ISAC Council voluntarily formed almost two years ago. Our goals are to 
discuss interdependencies and how we can develop better 
communications--among the various sectors and across borders--as well 
as what information should be shared on both physical and cyber issues 
within the sectors and with the government.
    The Council has grown from representing eight sectors to include 14 
sectors. In addition to the private sector membership, the ISAC Council 
also includes government ISAC's such as Emergency Management and 
Response who report to DHS as well as the Multi-state ISAC.
    Early on the ISAC Council saw the need to be a very inclusive 
group. Although each of our sectors is unique in composition they are 
also intimately intertwined with each other, and a catastrophe in one 
sector can impact many others. We have seen this on a number of 
occasions. Take 9/11 for example, we had a physical impact on the twin 
towers, which impacted telecommunications and electric services, as 
well as closing Wall Street for four business days. Additionally, the 
northeast power outage impacted several sectors including drinking 
water, wastewater, transportation and small businesses alike.
    To improve the ISACs and to help communicate with government, the 
ISAC Council has developed eight white papers that reflect the 
collective analysis of members of the ISAC Council and cover a broad 
set of issues and challenges. The topics include:
        <bullet> Government--Private Sector Relations
        <bullet> HSPD-7 Issues and Metrics
        <bullet> Information Sharing and Analysis
        <bullet> Integration of ISACs into Exercises
        <bullet> ISAC Analytical Efforts
        <bullet> Policy Framework for the ISAC community
        <bullet> Reach of the Major ISACs
        <bullet> Vetting and Trust
    These papers recognize the critical leadership role played by the 
private sector, with respect both to the operational infrastructures 
established in ISACs for analysis and information sharing and in the 
interaction of ISACs with the Department of Homeland Security and other 
government agencies addressing the challenges of critical 
infrastructure protection. We have shared these papers with Hill staff, 
DHS and GSA.
    We believe that these papers are only the beginning steps in 
tackling the serious policy and process issues challenging the 
implementation of an effective private sector and government 
information sharing and analysis partnership. The ISAC Council is 
continuing to work on concrete actions to increase ISAC support to the 
nation. To facilitate this effort, the ISAC Council members communicate 
on a daily basis (conference calls or by email) on operations and on an 
as needed basis for large new vulnerability announcements and/or 
incidents.

Government--Private Sector Partnerships
    One of the primary challenges to government and the private sector 
is the establishment of trusted partnerships. I believe we all agree 
that partnerships between government and the private sector are 
essential and since 9/11, it has become even more critical for these 
partnerships to mature in order to effectively address homeland 
security issues.
    As you all know, trusting partnerships cannot be legislated, 
regulated, or even stipulated. Nor can partnerships be purchased, 
traded or incorporated.
    Partnerships are built between people and organizations that 
recognize the value in joint collaboration toward a common end. They 
are fragile entities that need to be established and maintained by all 
participants and built upon a foundation of trust.
    We have learned that our ISAC's need the full support and 
confidence of certain key elements of the government to create and 
maintain a successful and comprehensive security plan. Furthermore, we 
are also keenly aware that we, the critical infrastructures, need to 
maintain a trusted relationship with our government partners so that we 
can work with them and their staffs to maintain the delicate balance 
between security and privacy.
    Our relationship with DHS has had a few bumps in the road, but 
overall we have progressed and, I believe, have a common goal and agree 
on the strong need to partner in information sharing and analysis.
    As with the maturation of DHS, so have each of our collective 
ISAC's. I do believe that the government assisting the private sector 
with baseline funding for certain sectors is ideal. The WaterISAC, for 
example, has received funding from Congress and the U.S. Environmental 
Protection Agency (EPA) while we continue to build the private sector 
contribution to the ISAC. Although the information on the WaterISAC--
available to 54,000 community water systems (90 percent publicly owned 
and 10 percent investor owned) and 15,000 publicly owned treatment 
works--is available to all subscribers, our fee for service to these 
utilities is tiered based on population served. By doing so, we hope to 
make the WaterISAC affordable to all drinking water and wastewater 
utilities. In addition with the help of congressional funding, this 
year we will broaden the reach of the WaterISAC by developing a push 
email system that will be capable of reaching thousands of drinking 
water and wastewater utilities with federal advisories and notices.
    Other ISACs, as you might expect, are structured differently 
depending on the composition of the sector and the breadth and scope of 
the services the sector decides is needed. That being said, we must 
keep our ISAC models in tact, meaning that the government should not 
attempt to dictate how the individual ISACs are structured nor how 
information is provided analyzed and reported to government.
    On a very positive note, DHS has agreed to pilot the HSIN network 
with the water and electric sectors and has also provided funding to do 
tabletop exercises with the Financial, Telecommunications, and Electric 
Sectors.
    In addition, DHS IAIP regularly meets with the ISAC Council and 
listens to many of our concerns regarding the need for their strong 
support of the ISACs and the improvement of our information sharing 
capabilities.

Summary
    The ISAC Council plays an important role in homeland security. It 
brings together diverse sectors, examines commonalties and most 
importantly cements trusting partnerships that allows us to share 
information, learn the best from each other and enhance communication 
among interdependent sectors.
    If I could leave you with two recommendations it would be these: We 
need your help to ensure that the private sector's investment in their 
ISACs is built upon and strengthened. Once lost, this type of voluntary 
commitment will be very difficult if not impossible to rebuild. 
Secondly, we need your help to insist that the private sector be 
included ``up front'' in the analysis of intelligence. Government must 
learn to trust infrastructure owners/operators with real information 
that allows us to apply our resources in a smart way to protect the 
infrastructure.
    Thank you for the opportunity to testify today. I would be happy to 
answer any questions.

    Mr. Thornberry. Thank you.
    Ms. Lofgren?
    Ms. Lofgren. I am interested, Ms. VanDe Hei, on how not 
every water entity belongs to the ISAC. Am I correct?
    Ms. VanDe Hei. That is correct.
    Ms. Lofgren. So how do you disseminate and communicate with 
those entities that are part of the whole system, but not 
actually part of the ISAC?
    Ms. VanDe Hei. From 9-13-2001, the first thing we did was 
to develop an email push system that could reach thousands of 
utilities. We maintain that today. So although the subscribers 
to the WaterISAC receive it, the WaterISAC is both the 
knowledge base that we house sensitive information on, and also 
a means of sending out encrypted email. At the same time, we 
have maintained the push email system that we had developed 
almost three years ago. So when need be, we just push it out.
    This advanced system that I was talking about earlier where 
we were developing a new system where it would just be pushed 
out to thousands of utilities, we have the funds to do that 
today and we hope to have that by the end of the year. So we 
will be reaching both subscribers and those who do not join the 
WaterISAC.
    Ms. Lofgren. Looking at it from the other point of view, 
the information that DHS needs about threats, from what Mr. 
Liscouski said, they are dependent upon the entities involved. 
So you would have information about your part of the water 
world. How do you involve the rest of the water world that is 
not a part of the ISAC in that threat assessment activity? Are 
they asked to participate? How are they identified and 
included?
    Ms. VanDe Hei. In the assessment of their individual 
utilities?
    Ms. Lofgren. We have yet to accomplish a comprehensive 
threat assessment.
    Ms. VanDe Hei. Yes.
    Ms. Lofgren. What I think the testimony is that we are 
soliciting information from various entities in charge of 
aspects of American life about what the threat is. ISACs are 
part of that protocol, but not everybody who is a part of the 
world is a part of the ISAC. How do we include them? Do you 
play a role in that? Does the Department do it directly?
    Ms. VanDe Hei. What we have done is we have included both 
on the secure site and on the public site an incident reporting 
form that anyone can fill out. It comes into the WaterISAC for 
the analysts to look at. That information is shared with the 
intelligence community, particularly if it looks like it is a 
pattern in a region. So we have it available both on the 
private site and the public site. So you could go to the public 
site and report an incident, and it would go to the analysts 
and be treated seriously.
    Ms. Lofgren. That may or may not be good news if it is a 
public site and the terrorists have access, too.
    Ms. VanDe Hei. It will go into the system is what it will 
do.
    Ms. Lofgren. Have you, for example in your ISAC, been 
solicited for critical information, threat assessment 
information?
    Ms. VanDe Hei. No. Drinking water systems are a little bit 
different in that they were required in 2002 to do 
vulnerability assessments and to provide them to EPA. So we 
know that the 500 largest systems serving over 100,000 people, 
those are done.
    Ms. Lofgren. Right, but we do not know whether DHS has 
actually availed themselves of that information.
    Ms. VanDe Hei. We do not, but they are being treated as 
sensitive documents. I understand that they have requested the 
ability to view them. How often, how frequently, I am not 
privileged to that information.
    Ms. Lofgren. Just out of curiosity, thinking about this is 
structured, in California, if you know, who belongs to the ISAC 
in the water world? Who belongs and who does not belong in the 
WaterISAC?
    Ms. VanDe Hei. I do not have that list with me today.
    Ms. Lofgren. Could you send it to me later?
    Ms. VanDe Hei. Sure.
    [No list provided to the Committee by the time of 
printing.]
    Ms. Lofgren. I appreciate that. Thank you very much.
    I am interested, Mr. Dacey, on the ISACs, it is the same 
question. The Department of Homeland Security needs to reach 
out for this critical infrastructure assessment. Do you know 
what DHS is doing to reach out to non-ISAC entities for this 
information?
    Mr. Dacey. I am not familiar with the exact actions they 
are taking, but I think that is certainly an area that has been 
identified by pretty much everyone as an area that needs to be 
addressed. If you look broadly across the ISACs when they were 
initially formed, although if you look at the numbers a large 
portion of the operations of the industry generally are 
represented, oftentimes that is concentrated in a relatively 
small number of entities that are the leaders in those 
industries. We have a large number, and we gave some examples 
in our testimony in financial services, a large number of 
entities that are not participants in the ISACs, but are 
members of the industry; that are important, but do not 
represent the same level of volume. So I think that has been a 
longstanding issue.
    With respect to financial services, they actually worked 
with the folks at Treasury who is their sector-specific agency, 
and came up with what is called the next-generation ISAC, 
because their views were that this rebel population was not 
willing to pay a significant amount of money in order to 
participate in the ISAC. So they have developed a model where 
there is a certain basic level of services that are available 
free to all participants who want to join the ISAC and then 
have a tiered approach where you pay more at different levels 
to get a higher level of services. I think that is an issue 
that needs to be addressed. There are tiers in several of them, 
but not certainly across all of them. That is one of the areas 
that needs to be thought through as to how that will be 
accessed and how that information will be paid for, whether the 
Federal Government should continue to fund communications for 
this type of thing for that layer.
    Additionally, there are some ISACs that have the funding 
actually to try to develop some of their operations, because 
again those were concerns about how they would fund their 
initial operations and set up, and then there was Federal 
funding to help that get started as well.
    Ms. Lofgren. I guess that raises a question of if the 
financial obligations are a barrier to participation and it is 
really in the interests of the Nation that people participate, 
whether we ought to put those, I mean, there is a dual purpose. 
The entity involved is going to benefit, but the reason why we 
were asking about these ISACs is to protect America against 
terrorist threats. If they are not participating because of the 
fee structure, perhaps we should not have that fee structure at 
all if we really want entities, both private and public, to 
participate.
    Mr. Dacey. It gets back to the basic models. These were set 
up as voluntary organizations. To the extent that their 
respective memberships felt it was cost-effective, they funded 
those operations and provided the level of services that were 
appropriate for that particular sector.
    Ms. Lofgren. Right, but from their point of view.
    Mr. Dacey. Exactly, from their point of view. That gets to 
the next question, well, if the Federal Government has 
expectations about the level of capabilities and services that 
are to be provided by these ISACs, that needs to be articulated 
and discussions entered into with industry as to how that would 
be paid for; whether incentives might be appropriate.
    Ms. Lofgren. Do you have a recommendation on how these 
might be changed? Would you think about whether you could give 
us a recommendation that would forward the government's 
interest in having sectors which are not currently 
participating participate?
    Mr. Dacey. We certainly can look into that. We have a broad 
recommendation we have had out for a number of years, at least 
for a year, that the sectors needed to assess the need for 
additional public policy tools to provide the appropriate 
incentives for participation in ISAC and other CIP activities. 
So we have had that broad recommendation out starting basically 
in January and February of last year.
    Ms. Lofgren. And you think we could just adopt that and 
that would solve it?
    Mr. Dacey. I think you need to think about this from a 
strategic level and think about how you want to do that, not 
that one size fits all. How do you want to apply those 
incentives to the sectors? I think you need some ground rules, 
some criteria, some structured process so that it is 
transparent as to how the government is going to go about doing 
that process.
    Ms. Lofgren. Right. OK, I want to think about that.
    Finally, and I do not want to hog the time here, the 
Chairman is being indulgent and I am sorry I missed your 
testimony, Mr. McCurdy, and the two secretaries, but has the 
Department of Homeland Security met with the variety of 
industry partners that you represent to get their assessment of 
threat in this sort of quest for the holy grail of the threat 
assessment that we are waiting for?
    Mr. McCurdy. First of all, the Internet Security Alliance 
was formed, Ms. Lofgren, as a private, it was really the first 
public-private partnership, to be honest, because we teamed 
with Carnegie Mellon and Carnegie Mellon was running the CERT 
which was funded by the Department of Defense. Their incentive 
was to try to reach out to the private sector which had a lot 
of expertise, but it was not getting out to industries. 
Together, we came up with the new model of having the cross-
sector relationship and international. There are 88 CERTs 
around the world, and yet there is not the kind of coordination 
that we felt was needed, nor was there the incentive in a lot 
of other countries to even involve the private industry, even 
though private industry owns about 85 percent of the 
infrastructure.
    So DHS has gone through an evolution, as you know. As I 
stated in my earlier comments, we were officially launched 5 
months before 9-11. We were formed prior to that. This was an 
effort from industry in trying to gain greater access to 
information that we felt was critical in this continuum of 
ensuring that the Internet itself, the best practices and the 
standards and the security, was increased.
    DHS, I think now that they do have people in key positions, 
both Mr. Liscouski and Amit Yoran, have been more receptive to 
our involvement and to our comments. One of the critical points 
that needs to be raised, it is true, one size does not fit all. 
My concern, having spent as much time as I have in government, 
is back in the intelligence days and also in defense, there is 
a tendency to become stovepiped. We felt in this age that we 
had to cross-cut that.
    The second thing is, somewhat to our chagrin, there has not 
been the level of concern by certain levels within industry, 
corporate leadership, to provide the funding or even the 
awareness that there was as much at risk. That is why we 
developed the best practices for the C-level entities and for 
the organizations, trying to raise this concern, and also have 
them ask themselves in their organizations and enterprises the 
questions that they should be asking to understand what their 
level of security is. The second point is, whether it is a push 
system or a pull system, I think there have to be incentives 
for industry to participate at certain levels. We have a fee 
structure. At one level, it is quite high, but we have more 
members than most of the ISACs. The reason they have joined, 
early on it was because they wanted access to the information, 
but we learned something in this multi-year process, now 3 
years, and that was information alone is not enough. You need 
to be able to analyze it. You need to understand it. So we 
convened these working groups. If there is a call, they can 
quickly filter through and say, I do not have that particular 
information; SNMP is not my concern. OK? I will not participate 
in that call.
    If I have a vendor or a system that relies on that, I can 
tell you that they will have active engagement in discussions, 
learning from the experts and from each other, and that 
information flows back towards government through the CERT. I 
think there have to be market-based incentives, and that is why 
we have started with the insurance program; that is why we are 
working with risk management; that is what we are trying to do 
with the anchor system, with trusted partners in other 
countries.
    We actually when we began the Internet Security Alliance 
made a conscious decision really not to be involved with 
government. That was before 9-11. Post-9-11, it is obvious that 
industry, regardless of on which continent it resides, has to 
be engaged somewhat in this system. So I think there is not 
only increased awareness, but I think there is increased 
willingness to participate and not to be as concerned about the 
privacy of their data or what their receiving from government. 
It is not going to be quite as biased.
    The last point I would make, if we could, it needs to be 
inclusive, not exclusive. There is a concern that a certain 
incumbency or PDD-63, whatever the foundation happened to be, 
that that is the model that is the model and will be the model. 
I think we need to explore a lot of different models. I think 
that is what Mr. Dacey and others have been saying. There are 
some that have worked quite well. We have gone beyond the basic 
information sharing to a whole new level. But if for some 
reason our members were cut off from that information flow, I 
think it would affect not only their business, but I think it 
would affect the security of the Internet.
    Ms. Lofgren. Is there legislation that we could adopt that 
would assist in providing incentives or disincentives to 
accomplish what you have outlined here?
    Mr. McCurdy. Government is usually quicker to have 
disincentives than they are incentives, especially in fiscally 
difficult times. I am sure there could be a combination. We 
would like to see it on the incentive side, because actually 
that is where our CEOs and others respond. There are research 
incentives. There could be incentives for implementing or 
employing certain technologies. There is the FOIA concern. 
There is liability, safe harbor kinds of issues that obviously 
provides some incentives.
    Mr. Putnam had drafted legislation that he considered 
introducing. I think it was originally intended to be around 
the Y2K model, which worked. Unfortunately, it was starting to 
look more like Sarbanes-Oxley, which is a burden on industry, 
and actually you would get pushed back, and if anything you 
would actually deter people from being more open and 
responsive.
    So we would like to find the right approach. Mr. Clinton, 
who is our chief operating officer, is going to testify later 
today before that committee, about some of the market-based 
incentive packages that we have developed. As far as I know, we 
are the only ISAC or information-sharing group or organization 
out there that has even gone that far. But we have gone beyond 
just best practices. We have published those and we are 
creating more.
    Ms. Lofgren. I have seen those.
    Mr. McCurdy. Yes. That is actually where government, if 
there was going to be funded and people talked about where this 
money is going to go, distribution actually costs money, in 
getting that out. We just produced one for small businesses. 
Who bears that cost? Those are our natural constituency, quite 
frankly, in my association, but we decided we had invested a 
great deal of money in the Internet Security Alliance to get it 
started and up and running. Ms. VanDe Hei mentioned the need to 
protect some of that private investment. Well, there has been a 
significant investment, and not always willingly, some of it 
because of my experience really pushing the industry to be on 
the cutting edge and up front before I think even some 
recognized that there was a threat. Now, they are starting to 
see it a little bit more.
    Ms. Lofgren. I will stop and let the Chairman ask his 
questions, but isn't it true that certainly there is a burden 
to participating in the ISACs on the part of any entity, 
private or public, just in terms of the personnel costs and the 
time taken from other tasks. That is a burden that may be 
easier to bear for a larger entity than a small entity. For a 
small business, that can become a daunting, in addition to the 
fees, just participating, and for a threat that is inchoate. 
There may not really be the business incentive. So it may not 
be occurring. So there is a cost to disseminating the 
information, but disseminating the information without 
incentives to actually implement is another issue, whether 
there would be insurance benefits, which has been discussed, or 
other benefits that would allow a small business person or 
persons or a small company to actually justify the expense and 
time away from other bottom-line activities.
    Mr. McCurdy. We learned a great deal in developing the best 
practices document for small businesses. On one level, they are 
similar vehicles. I mean, they are using the Internet, but 
their capability and their access to personnel, policies, 
technology is far different. You are right. It is a hurdle for 
many, not only in just cost, but also time. It is a real 
challenge to find the right incentive to get them involved.
    We learned from some of our partners, our founding members, 
VISA for instance has what they call the digital dozen. They 
are in a different modality. They are able to require their 
merchants to meet certain practices. One of our other members, 
Nortel, has considered, I do not know if they have implemented, 
and I probably should not be speaking for them, but they want 
their supply chain, they want their suppliers to be at a 
certain level of security. So they are encouraging them not 
only to belong to Internet Security Alliance, but also to meet 
certain best practices.
    So there are a lot of companies and a lot of entities are 
doing it differently, but that does not mean it is not as good. 
Actually, I think that diversity is part of the strength. The 
question is, what is the partnership? All we are asking is that 
whether it is DHS or other entities within the government, that 
they are open and that they continue to build on the experience 
that we have been able to gain.
    Ms. Lofgren. Thank you, Mr. Chairman, for allowing me all 
that extra time.
    Mr. Thornberry. I thank the gentlelady for some excellent 
questions.
    Ms. VanDe Hei, let me ask you, you have heard and you are 
familiar with Mr. McCurdy's organization. Does the ISAC Council 
have a position on whether other cross-cutting organizations or 
information-sharing organizations are good and should be 
brought into the system in some formal way? What, if any, 
position does the ISAC Council have about that?
    Ms. VanDe Hei. The ISAC Council, like I mentioned, wants to 
be inclusive, rather than exclusive, so we have gone from 8 to 
14. Basically what it takes is for somebody from that 
particular information-sharing organization to come and talk to 
us about what they do. I am not aware of anyone being turned 
away.
    Mr. Thornberry. But you do not have, that meets regularly 
with the ISAC Council do you, some sort of a cross, I am using 
cross-sector, but you know what I am trying to say, companies 
in different businesses that may share a concern over cyber 
security in this case. Nobody like that sits at the table with 
you, do they?
    Ms. VanDe Hei. I guess I am not quite understanding the 
question, in that all the ISACs that sit around the table 
represent different sectors.
    Mr. Thornberry. Right.
    Ms. VanDe Hei. So I sit next to the electric sector, and 
water depends upon electric. And I sit next to the railroad 
people, and water depends on the railroad. So we have set up 
communications between each other so that when something 
happens like in the power outage, we were able to talk to the 
electric sector and to the transportation folks about how long 
the outage would continue. So maybe I am missing something.
    Mr. Thornberry. I understand. ISACs are organized by 
sectors, and Mr. McCurdy's basic point is that maybe that is 
not the only way to organize; that you could have other 
organizations that cut across different kinds of businesses 
that could add an element to this debate. I do not want to give 
his arguments for him, but maybe you could even argue that if 
you are not strictly organized by sector, you would be more 
likely to share information because it is not your competitors 
that are setting right there with you. There are other pros and 
cons. I am just trying to figure out whether the ISAC Council 
has formally taken a position on these other kinds of 
organizations.
    Then Mr. Dacey, I want to get to you and see whether you 
have analyzed these different ways of organizing ourselves. 
Part of what concerns me is we could be here 5 years from now 
and still be talking about different ways to organize 
ourselves, and we may not have really done anything. So in some 
respects, we have to do something even if it is imperfect just 
to move the ball a little bit.
    Do you have anything else? Then I will go to him.
    Ms. VanDe Hei. There is no barrier to a group like Mr. 
McCurdy's from joining the ISAC Council at all. You do need to 
be aware there is another group of sector coordinators that 
have met under the PCIS, Partners for Critical Infrastructure 
Security. That group is predominantly cyber-focused and brings 
together companies from all different, Cisco, you name it, they 
are part of this coordinating group. The ISAC Council meets 
with them regularly now as well, so that we are sure that the 
sectors are looking at the bigger picture; that the ISACs are 
in tune with what they are doing. So we have begun to meet 
jointly to ensure that. But just to answer your question, there 
is no barrier with an ISAC that does things differently from 
joining the ISAC Council and perhaps informing us about how 
better to do things. ``Evolving'' has been maybe overly used 
today, but we are looking for ways to do this better.
    Mr. Thornberry. Yes, absolutely.
    Mr. Dacey, what can you help us with here?
    Mr. Dacey. I think, again not to be too trite about 
the``evolving,'' but I think things have changed a lot and 
there are continuing developments and very positive things have 
happened. When this first started in PDD-63 it in fact 
envisioned one ISAC for everybody, and then it was quickly 
determined that really a sector-based approach would be more 
appropriate at that time.
    There are some benefits that we have identified in talking 
to a lot of people and working in this area for a while. First 
of all, there is a significant amount of industry-level 
expertise that exists that is very important for the analysis 
side of this whole equation. So I think you have to factor in 
how you get that sector-level, industry-level expertise for the 
various sectors; how some of these threats translate into 
impact.
    I think also there are established and building trust 
relationships within those sectors, because people know each 
other. A lot of them are in associations where there is always 
some affinity and some aggregation of interests. So I think 
there is some benefit, too, there in terms of that trust 
relationship, which I think is very critical to this whole 
process. They are unique at this point in meeting the sector 
needs.
    At the same time, the ISAC Council is a relatively recent 
event on the spectrum of timelines since we started this 
in1998. I think the opportunity exists for them to start 
sharing with each other and breaking down those silos. I think 
that is particularly important in an area that has not been 
talked about, but not extensively pursued. I know it is on 
everybody's radar screen, and that is interdependencies. That 
will drive the discussion of the need to work together and it 
will be in everyone's self-interest. I do not think we are 
quite there yet. I think we need to evolve to that point so 
everyone really understands how is my sector affected by that 
sector, so I care about what they are doing.
    Second, the sharing and getting together can bring about a 
lot of good practices that are really out there and that can 
help others and benefit everyone across the community. It is 
fair to say that some of these ISACs have been more at the 
forefront than others. They have been around a long time. Some 
of them have a longstanding relationship with the Federal 
Government, which has been a step up for many of them.
    So I think in answer to the question, you need to keep that 
industry-level expertise and trust relationship, and you need 
to figure out ways to start bringing them together 
collectively. I think that started at the ISAC level. It is 
starting at the sector coordinated level. I think that needs to 
be built up over time. The question is, how much time and who 
is in the best position to do that. I would leave it up to Ms. 
VanDe Hei just to talk a little bit about where they see it 
going, but that is my view personally on the way that needs to 
develop. It needs to be integrated in the end, so there is no 
silo.
    Ms. VanDe Hei. Could I make one statement?
    Mr. Thornberry. Sure.
    Ms. VanDe Hei. It was the primary purpose for the ISAC 
Council to come together to talk about interdependencies and 
how we might work together, but this brings up another area 
where you could help us, in that I found in talking with the 
intelligence community, whether it was with the FBI or now with 
DHS, that they tend to be as stovepiped as we are or when 
looking at a threat. If it is a threat to electric, then it is 
an electric threat, and not necessarily a water threat or not 
somebody else's threat. So bringing together their analysts 
that look at the different sectors and having them look 
together in terms of the interdependencies and what the threats 
might be to them, I think is a fairly new phenomena. I am not 
sure it is taking place very well.
    So I think as they begin to look at things in an 
interdependent way, that information will be coming to us in 
that way as well.
    Mr. Thornberry. I think that is an excellent point. It is 
part of what raises these questions in my mind. For example, if 
you have an issue related to electricity, it goes, say, to the 
electricity ISAC and the people who regulate it are going to be 
focused on it. But what about all the customers of electricity? 
How can they prepare for some eventuality?
    Cyber is another example which cuts across every sector, 
which makes it, I will not say unique, but I think has some 
particular characteristics. I suspect this is why Mr. McCurdy's 
organization is focused on cyber. I do not know how many others 
there are like that, telecommunications, electricity, cyber, 
probably cut across just about everybody. But some way, we have 
to consider not just the producer side, but the consumer side 
of these ISACs. I am not sure we are there yet.
    Mr. McCurdy?
    Mr. McCurdy. Mr. Chairman, actually that is a great point. 
There is one interdependency now. There is one continuum, and 
that is we are hooked up to the network. The Internet has 
become that glue. So cyber is a cross-cutting modality that I 
think we need to be concerned about.
    The other is, there has been a history with the regulated 
industries. Why is the FS-ISAC more mature? Because they have 
been in a regulated industry, or you look at some of the 
others. Part of our concern was, as I sat in PCIS and other 
meetings, oftentimes, and I know the industry well, most of our 
members in the association, you usually had security people in 
a room talking to security people about what the threats were, 
as opposed to engaging the consumer and the user. That is why 
we shifted our focus. I think that has been the maturation of 
the Internet Security Alliance. That is why we have companies 
like Coca-Cola. They are not dependent upon one factor or 
another. They are a user of the Internet.
    Ms. VanDe Hei. Water.
    Mr. McCurdy. Water, OK. Yes, we are all dependent upon 
water. We are 98 percent water, right?
    [Laughter.]
    But the key is that there has to be, the Internet is the 
interdependency, but it is also the one area that is least 
regulated. So back to the question that Ms. Lofgren asked 
earlier, what is the way that you are able to engage the users 
in as deregulated a way as possible. I think that is the 
approach clearly that you have had working from your district 
in California in that industry, is you do not want to go to the 
old telecom model or to another model. You are trying to find a 
way to engage people in the Internet world. That is why we have 
to look at incentives. That is why your industry leaders are 
standing up every day saying here are some things that we ought 
to be looking at.
    Mr. Thornberry. This is an interesting conversation. I do 
not want to continue on forever, but that does make me think to 
a critical point that Mr. Dacey includes in his report citing 
the ISAC Council that says the greatest barrier to information 
sharing stems from the practical and business considerations 
that although it is important, the benefits are kind of hard to 
get your hands around, but long-term it gets back to Ms. 
Lofgren's point that maybe the national interest. It is more 
amorphous and the rubber does not really hit the road until 
something happens, and that is part of our challenge, I think, 
in trying to sort our way through all this.
    Mr. McCurdy. We have actually looked at three areas, if I 
could, Mr. Chairman.
    Mr. Thornberry. Sure.
    Mr. McCurdy. What is going to get the C-level interest? 
Sure, regulation will step up there and taxes would. But I 
think it is clear that they are interested from a marketing 
standpoint, and there are some market advantages. They are 
looking at a cost standpoint and potential liability. If we can 
help reduce their liability by becoming a qualified member, 
which is what we are trying to do, and this is where the 
maturation has occurred. You cannot be a qualified member if 
you do not have some way to measure that, and so you need some 
metrics. That is why we are working with the consortia on 
global security to develop metrics and tools so that we can 
actually have the benefits like insurance and reduced potential 
liability. So there are a number of these things that we are 
working on.
    Mr. Thornberry. And those would be metrics set by some 
organization, not set by government regulation or law that 
would freeze them in place.
    Mr. McCurdy. That is exactly right.
    Mr. Thornberry. OK.
    Let me turn to slightly different issues, if I may. Ms. 
VanDe Hei, you were patiently here listening to a lot of 
questions go to the Department, Mr. Liscouski, earlier about 
vulnerability assessments and what they are doing. What is your 
overall view, or what is the overall view of the ISAC Council, 
if you can, about where the Department is, not just in giving 
out information that it has, but in receiving information from 
the various sectors.
    Ms. VanDe Hei. I think the flow of information from the 
various ISACs is, I would not say it is limited, but it is 
different depending on the ISAC in question. I think that for 
some ISACs that are, my ISAC is made up primarily of publicly 
owned entities. Most drinking water and waste water systems are 
publicly owned. So the sharing of information with the 
government is not new to these people or with each other, 
because they do not compete with each other. So that is a 
fairly easygoing sort of sharing of information.
    For some of the other sectors, it is proprietary 
information. Am I getting at your question?
    Mr. Thornberry. Yes, yes.
    Ms. VanDe Hei. It is more difficult to share with the 
government. Mr. Liscouski talked about the new CII program 
which is intended to provide the private sector with some place 
to put sensitive information or proprietary information and 
expect some confidentiality or protection to that information. 
I think the proof will be in the pudding on whether or not that 
program is sufficiently protective that it actually gets 
information from entities or the private sector that is 
concerned about that.
    So I guess I cannot speak for all of the ISACs, but I 
suspect that the sharing of information is very different 
depending on whether you have competition, that you have trade 
secrets, that there are things you want protected.
    Mr. Thornberry. It goes a little bit to the point made 
earlier that more regulated industries are in a different 
situation than less regulated industries.
    Mr. Dacey, what is your perspective on how far along the 
Department is as far as getting and receiving information?
    And second, do you think it is clear for an industry to 
whom they report information? It is not at all clear to me, for 
example, if the water industry says, well, we have talked and 
we think we may have a little problem here. Who do they go tell 
it to? Is the structure within the Department such that the 
answer to the second part of that question is clear?
    Mr. Dacey. Two things, I think unquestionably there has 
been a lot of effort and actions being taken by the Department 
to try to address a lot of the issues that have been understood 
as being challenges going forward. Again, Mr. Liscouski 
elaborated on quite a number of those activities earlier today. 
I think things are improving. We are hearing about regular 
meetings taking place from both sides. With ISACs and the 
Department, there is more and more sharing of information.
    I think the critical issues, though, get down to a couple 
of things that need to be done. We talk about that in our 
testimony. That is, I think the roles and responsibility of all 
the respective players deserves to be clarified a bit. I know 
we have this national infrastructure protection plan that is 
due out by the end of this calendar year. I realize it is being 
built up on a sector basis and it will be issued. I think it is 
going to be important that that lay out some of those roles and 
responsibilities, as well as initiatives, clear milestones, 
something that you all as Congress can look at in an oversight 
capacity and measure progress, some of the things that you need 
to see, well, when are we going to have this or that; is that 
the right strategic direction for the Department to take across 
these wide variety of areas we have all been discussing today.
    At this point, we do not have that. We have had interaction 
and discussion with the Department, and they have shared with 
us their thoughts and ideas, but to a large extent we do not 
believe that is immortalized in writing so that somebody can 
independently look at it and understand and evaluate the 
process. Again, I do not want to insinuate that they are not 
doing things. It is just that we have not seen it documented in 
a way that it could be independently reviewed.
    The other part of that is really coming up with the 
detailed procedures and policies. If you look at HSPD-7, that 
was one of the charges that the Department was supposed to 
develop those to help clarify, including the issues that you 
talked about. Who do you report to? In our discussions with the 
Department, they indicated that they were not going to try to 
make everyone go through one single point in the Department 
because they felt if that person was not available or could not 
get through, it would be problematic. Some of the cyber issues 
would seem to naturally go to the NCSD, which is the Cyber 
Security Division, and we know the ISACs have those issues. 
They indicated that they were developing processes or planned 
to develop process to coordinate within the Department the 
contact information as it comes in so that if it came in one 
place, the other people who needed to know would know. But I do 
not think that is in place today.
    I do think there is some confusion from what have heard 
about who to talk to and who to report to. Again, as with 
anything, there are some trust relationships that are probably 
built up over time in certain parts of different organizations 
in the government that people would probably prefer to contact. 
We need to figure out a way to make that easier, and set up 
kind of a policies, procedures and clarity in what is the 
expectations are for that contact.
    Mr. Thornberry. Mr. McCurdy, go ahead.
    Mr. McCurdy. Yes, just one quick point on cyber. Cyber, 
again, is a little different as far as sharing information. I 
have found even at the international level the one trusted 
organization that people are more willing to enter into 
discussions with regard to threats and vulnerabilities has been 
the CERT/CC. However, our concern is the timeliness of the 
information as they change the nature and move to the U.S. 
CERT. I think there is a concern that it will become too large 
and too bureaucratic. Right now, it works reasonably well 
because there is not only a trust relationship, but there are 
ongoing dialogue and conversations beyond just the threat 
warnings. It goes to what does it actually mean.
    Eventually, we want to get out of the reactive mode into 
the prevention mode, where we can work with our industry and 
say, if you take these prophylactic steps, or if you do this, 
then you are better protected against potential threats or 
attacks regardless of the nature.
    One last point on that, we have members that are members of 
ISACs, Financial Services ISAC, the IT ISAC, and they have 
become more involved with us primarily because of the value add 
on top of just information. It is the value add that is going 
to be to them the most important, when they have to go justify 
their cost to their bosses, and those value adds are again, the 
market-based incentives, the best practices, the public policy, 
just letting them know what is going on is critical, too.
    Mr. Thornberry. Actually, you anticipated the question I 
was going to get to next, and that is, as U.S. CERT comes 
along, do some of your members have concerns that it is too 
much of a government agency in order to have that sort of trust 
relationship continue that they have had with the Carnegie 
Mellon CERT?
    Mr. McCurdy. It is interesting. The CERT/CC when it was 
originally Carnegie Mellon, was a hybrid. It was funded by 
government, but it was actually run by an academic institution. 
We in industry when we all saw this triangle, we had 
government, academic and industry, there was a lot of friction 
there and concern about how well they actually could work 
together. I think our experience has been over time that we 
have been able to overcome the worst things of academia and the 
worst parts of government mentality and probably some of the 
worst instincts in industry, to have a working relationship.
    That is what I think our members are most concerned about 
is losing that synergy that has evolved. It is going to take 
some time. What we would like to hear from you all, what we are 
hoping to hear from Amit Yoran and Bob Liscouski and others is 
that first of all we are not going to break what is already 
working with a very successful organization, and that is access 
to the CERT data, just like the ISACs are going to have through 
the U.S. CERT. That is a baseline for us. Once we know that, 
then we are entering into additional relationships with 
Carnegie Mellon because they are creating what they call a 
CyLab to take it to another level of trying to add value.
    What happens to U.S. CERT? We have all been involved with 
government. You have to conduct very close oversight, not on 
whether it meets timelines and all that, which is critical, but 
also what are the tendencies towards creating more and more 
bureaucracy, become more risk-averse, less open, less 
cooperative. Those are the concerns that we have as big 
institutions start to emerge. When that occurs, when it becomes 
a bureaucracy, watch industry go the other way. Then you are 
going to have to regulate to get them involved. Right now, it 
is not there, but if we are not careful, if we do not work with 
them, you could end up with that result.
    Mr. Thornberry. The problem is, once you see that 
happening, it is too late.
    Mr. McCurdy. Yes.
    Mr. Thornberry. It is hard to reverse.
    Mr. McCurdy. You are in a different situation. This is not 
the 1940's. This is a work in progress and the fact that you 
are having these having these hearings, there needs to be 
dialogue. I think your staff is having those dialogues. If a 
government entity learns anything from a hearing like this, and 
that is, they need to hear the questions and what is behind the 
questions. The questions are not always artfully phrased, but 
there is a genuine concern behind those.
    Mr. Thornberry. Something is going on.
    Mr. McCurdy. That something is going on. That is where this 
dialogue is critical.
    Mr. Thornberry. That is right.
    Ms. VanDe Hei, let me get back to you just to clarify. If 
the water folks got together and said, oh, we have this problem 
that we have not told anybody about. Would it be clear to you 
who in the Department of Homeland Security to go talk to about 
it?
    Ms. VanDe Hei. No. Yes, and no, OK? They have a watch unit 
that you can call an 800 number and report an incident or a 
number of incidents to. I actually had experience with trying 
to do that. This is not particularly sensitive information, but 
there were seven to ten utilities in the Northeast that 
received threatening letters postmarked the same place. So I 
gave that information to DHS and to the WaterISAC analyst. I 
waited a couple of days and did not hear anything back. So I 
called. I was told that it had been dismissed; that they did 
not deem it to be credible, I guess. I asked on what basis and 
that sort of stuff.
    But I am not confident at all, one, that I reached the 
right people, or two, that it was reviewed in a way that made 
sense. Two weeks later, I got a call from the police department 
in New York State that had not dismissed the letters. So no, it 
is still a maze and I think that there are a number of places 
where you can call and refer things, but I do not have a 
comfort level that I hit the right place or that it was 
reviewed. It might have been, it is just that that is a secret 
to me.
    Mr. Thornberry. I think a lot of people have that concern, 
not just for immediate information that you have, but in trying 
to look at an industry and say, OK, what are some 
vulnerabilities; maybe we better talk to somebody about it. You 
never know. Do you go to the IA; to you go to the IP; how does 
all that work.
    Ms. Lofgren?
    Ms. Lofgren. Just one final question. This has been very 
helpful. I know it is a long day to sit there, but it has been 
very helpful to me to hear what you have had to say. It is 
really for Mr. Dacey since you reviewed all of this. I will use 
water as an example, but I think it is equally true for any of 
the sectors.
    You have people involved in, say, a water wholesaler in 
Santa Clara County, the water district. They know water more 
than they know terrorism. Unless they are reading Tom Clancy 
novels to figure out what could go wrong, they may see a 
vulnerability, but it may not be what the Department of 
Homeland Security might see. We know, taking water again, 
because of delusion, putting a substance in the Crystal Spring 
Reservoir is not something I am going to lose any sleep over 
because it is going to be diluted. It is not going to be 
effective. But what the Department of Homeland Security might, 
for example, see as a threat to water would be pollution, say, 
if you dumped some PCBs in Crystal Springs Reservoir. It would 
not really kill you, but it would disrupt the distribution of 
water in a way that is significant and serious and have a huge 
economic impact. The water wholesalers might not see that, but 
DHS might. Theoretically, they are doing a list of what we 
should be worried about. How is that list being assembled and 
how is it being communicated to the various sectors to guard 
against the Tom Clancy novel scenarios? Or is it?
    Mr. Dacey. I cannot speak exactly to what they are doing in 
that regard. I can say from a standpoint of what direction I 
think needs to be taken and is being taken, is that even 
starting in 1998 the idea was that the sector coordinators and 
at that point lead sectors, now sector-specific agencies were 
to sit down and look at vulnerabilities on a sector basis, the 
kind of high-level vulnerabilities. What are the types of risks 
and threats? I think Mr. Liscouski talked about that earlier 
this morning. And assess them and determine how significant 
they are, again, not at an entity level, but at a sector level.
    I am not familiar with how far they have gotten in that 
process. In theory, some of that will be addressed through 
these sector plans that are being part of this national 
infrastructure protection plan, but perhaps you might get more 
specifics on the water.
    Ms. Lofgren. I was just using that as an example.
    Mr. Dacey. As to how the water sector is involved in that 
process, so you might be able to provide some information.
    Ms. Lofgren. You could have the same question about 
electricity or banking or Internet technology.
    Mr. Dacey. Right. But that has been again on the books 
since PDD-63. We have had some initial strategies that came out 
from many of the sectors, but I do not think they have dug down 
to that level in detail about specific vulnerabilities and 
going through a formal assessment of the risks related to 
those.
    Ms. VanDe Hei. For the water sector, in addition to the 
utilities doing a vulnerability assessment, EPA was required to 
do a threat document that was distributed to every water system 
that served over 3,300 people. So they tried to bring the two 
together so that people would have something to assess their 
vulnerabilities against. That kind of document, as far as I am 
aware of, has not come out of DHS, and the one from EPA was 
done a couple of years ago, and I think could use some 
improvement.
    I think you would hear from DHS that providing threat 
guidance is one of the hardest things they have to do, because 
it is a moving thing, it is a moving target. What is the threat 
today to D.C. versus what is the threat someplace else tomorrow 
or the day after? I am not aware of any document like that that 
is available, but it is needed. It is desperately needed.
    Ms. Lofgren. All right. Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you.
    I have just two or three final questions I would like to 
ask. Mr. McCurdy, there are lots of articles in the press today 
about a reported new vulnerability on the Internet. The 
Department had issued a warning about it on Tuesday. We are in 
the middle of something. How do you see where we are at being 
able to get information out and to do something to fix a 
vulnerability, now that we are kind of in the middle of one of 
these episodes?
    Mr. McCurdy. First of all, there have been four in the last 
couple of weeks. The one that was listed in the paper about TCP 
obviously got headlines because there is an announcement by a 
British citizen that I think is having a press conference or 
something. In most instances, the vulnerability is communicated 
prior to even the threat level. In some instances, we worked 
literally months with our trusted members, including the 
vendors, to address the vulnerability prior to it becoming 
released. That is this whole sensitivity of who actually gain 
access. That is why you do not make it all public.
    Now, it is true sometimes we get something reported on CNN 
before we do CERT, but that is generally not the case. If you 
look at the numbers of vulnerabilities and threats that are 
being reported to the CERT, it has gone up exponentially every 
year. It is over 100,000 threats that are reported this year 
and probably 5,000 or 6,000 vulnerabilities. Vendors can go 
crazy with those things and there is this tension between the 
vendors and the users, and what is the appropriate reporting 
period and how do you assess this and how do you get them the 
opportunity to try to address it before it becomes public.
    It is not just a question, as I said earlier, of just the 
threat reporting. It is true. It is out. What is really 
critical is how the reports are made. I have examples of those 
that we sent to our membership. It not only identifies the 
threat, and we do digests of lists of all the recent ones, and 
how you can go into a secure site in order to understand it 
better. But it talks about the vulnerability on the systems 
affected, the overview, the description of what it is, which 
sometimes is very lengthy and for many of us we could not 
understand a word it says; the impact. But more importantly, 
there is a solution. That is where you need the time and this 
trust relationship. The solutions often come from that 
communication with the industry.
    When we are talking information sharing and people say it 
is proprietary and they do not want to release it, it is 
usually general counsel's that are kind of sending that 
message, the lawyers are out there saying that. But the people 
who work it every day, when they have this conference call that 
we have and they are saying, well, this is how we are dealing 
with it; boy, lights go on or this is how the experts at 
Carnegie Mellon or Southern Cal or Purdue are dealing with it. 
And then obviously they say apply a patch from your vendor. 
Well, that is an easy solution sometimes.
    It is pulling all those people together that I think we 
have evolved to the point we now have that working. That is why 
some of our industry members are willing to pay so much for 
that. It is also why some of the other companies are sitting 
out there glad that they are paying that and are doing that 
because they are getting a free ride off of them. But then once 
you get that threat information, how do you develop the 
practices to ensure against it in the future and get out of the 
reactive mode.
    Mr. Thornberry. Let me ask, to just get back to the central 
focus of this hearing, which you raised. Do any of you see a 
step that Congress needs to take to better protect, whether it 
is private sector data or whatever, related to critical 
infrastructure? Part of this, we are still feeling our way 
through. The protections we have already granted, is that 
enough? But at this stage in the proceedings, is there some 
additional step that you see that we need to take in order to 
help develop this trust relationship to share that information?
    And if you do not, say no. I am just curious at this stage 
whether you do.
    Mr. Dacey. Yes, just to step back a bit. A few years ago we 
reported on a lot of the concerns by the private sector with 
the FOIA and civil liability and antitrust being three of the 
primary areas of concern at that point. Certainly in the 
deliberations of Congress, you put provisions in the Homeland 
Security Act which provided certain protective measures forFOIA 
and those have embodied themselves in the CII process. Again, 
it is not a final rule that is in place. I think it will take a 
little time to figure out if that is adequate or not. So I do 
not know that I would rush to change that dynamic at this point 
until we see. Obviously, one of the issues gets back to risk. 
There has to be a benefit perceived in sharing that information 
as opposed to a potential downside that might exist. So I think 
that some of that will take time.
    In terms of some of these other issues, I think, again I 
would go back to a comment that I made earlier that I think it 
is important that some of the strategies and some of these 
plans be laid out, and that be in full cooperation with the 
private sector and state and local governments. That is 
happening now and I hope it happens well, but it needs to be 
fully bought into by all those parties. As part of that 
process, I would hope they would be identifying along the way 
issues as you discussed, where legislative relief is 
appropriate or would benefit them. I think that would be the 
best process to follow.
    If you get all these heads together, you are going to come 
up with a good list and then you can consider whether you want 
to deal with that collectively. At the top of my head, I do not 
have any just glaring issues that need to be addressed from a 
legislative standpoint, but that is certainly one area to think 
about going forward. Again, that is supposed to be out this 
fall, and it is going to be critical that all the players join 
in on that effort. I am hoping that that will happen.
    Mr. McCurdy. Without that final rule on FOIA, there is not 
the communication. The communication also has to be a two-way 
street. Mr. Liscouski used the magic words, probably because 
that is what we are preaching to them. Do not expect just to 
have private industry tell you all the vulnerabilities, and 
then have it go off into some massive organization never to get 
reported back or some affirmation that it was useful or not. If 
it is just that flow, then it will be cut off. That information 
will not flow.
    The other thing just from being on both sides of these 
tables, I think effective oversight is a neglected art and I 
think you are doing it here. Do not just think you have to have 
a bill. It is always fun to have our names on legislation, but 
I think following up regularly and, you do not have to beat 
them up, but it has to be a communication, and it too has to be 
two-way. They need to be sensitive to that.
    It certainly would help if this committee becomes a 
permanent committee that the different lanes of jurisdiction 
are addressed, because I feel for these individuals in 
government who spend all their time trying to deal with 
stakeholders. They are hearing from us in the private sector, 
but they are hearing from you as the overseers, as the board in 
effect, and they cannot do it all. I do not care how big the 
staff is. The more staff that they have, the more staff that 
you will have, the more requests that get going back and forth.
    So I think there has to be some good on-record 
conversations and there probably has to be some good off-the-
record field discussions that take place. I always found those 
to be the most interesting and informative. We would invite 
you, by the way, there are facilities nearby. I know you have 
seen a number of those, but in the cyber world that are quite 
remarkable. Seventy percent of the world's Internet flows just 
a few miles from here. Some of our members, where it is a 
VeriSign or at the very hub or the old Cable and Wireless, 
which is now another company, but they control a lot of the 
critical nodes. They are the pulse of a lot of activity that is 
pretty amazing. It takes a very professional set of wisdom and 
experience in order to understand what that all means as it 
goes through. Government is not going to do that. That is in 
the private sector.
    So I would encourage you to do what you are doing. I would 
encourage you to reach out to industry more because industry 
does not understand always your drive from a national security 
perspective. They are market-driven, but the market can work in 
favor of national security if we have the right kind of 
exchange, and we would welcome that.
    Mr. Thornberry. Thank you.
    Ms. VanDe Hei?
    Ms. VanDe Hei. I guess I would suggest that perhaps the 
bioterrorism bill that was passed in June 2002 had some 
protections in it for the vulnerability assessments that needed 
to be submitted to EPA that were stronger than in the homeland 
security bill. In fact, there were criminal penalties attached 
to misuse of the information. I think that you might want to 
tighten up that part of the legislation to add to the comfort 
level of some of the private sector. It certainly did give some 
comfort to the drinking water systems because they do feel 
fairly vulnerable.
    The other thing I would like to add, though, to Mr. 
McCurdy, is that your oversight of the Department, I think it 
is very important that Homeland Security needs to be done 
differently than any of the other departments and how they 
work. We are regulated by EPA and we know how that works and 
what the thought process is. But security cannot, I think, 
succeed in the same sort of bureaucratic stovepipe kind of 
thinking. What I see as the Department grows, when somebody 
says to me, hi, I am so and so and I have been in the 
government for 30 years, my comfort level does not go up that 
it is going to be done differently. So I think it is really 
important that you keep an eye on keeping it lean and mean and 
that they are doing things in a way that is different, so that 
regulation is not the only answer that you see down the road. I 
think that can be done and I think it is important that we try 
to do that before going in any other direction.
    Mr. Thornberry. I appreciate all three of you and your 
valuable insights. It has been very helpful for me. I 
appreciate your willingness to be before us. I also appreciate 
your willingness to answer some written questions if there are 
follow-up things that we need to submit.
    With that, this hearing stands adjourned.
    [Whereupon, at 2:34 p.m., the subcommittees adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
